                        Semiannual
                        Report to the
                          Congress




  Office of Inspector
       General
     U.S. Agency for
     International
      Development

October 1, 2012–
March 31, 2013
Cover photos

Top: Water flows through an irrigation canal that the program repaired through USAID/Kyrgyzstan’s Local
Development Program. (Photo by OIG)

Bottom: A woman in Zambia shows mosquito nets that she received from USAID as part of the President’s Malaria
Initiative. (Photo by OIG)
 OFFICE OF INSPECTOR GENERAL

     SEMIANNUAL REPORT
      TO THE CONGRESS

October 1, 2012–March 31, 2013
                              Inspector General Hotline
The hotline makes it easy to report allegations of fraud, waste, abuse, mismanagement, or misconduct in
the programs and operations of the United States Agency for International Development (USAID), the
Millennium Challenge Corporation (MCC), the United States African Development Foundation (USADF),
the Inter-American Foundation (IAF), and the Overseas Private Investment Corporation (OPIC).
Employees of these organizations, as well as contractors, program participants, and members of the
general public, may report allegations directly to the Office of Inspector General (OIG). Complaints may
be submitted electronically by using e-mail or OIG’s online complaint form.


E-mail                  ighotline@usaid.gov
Complaint form          http://oig.usaid.gov/content/oig-hotline

Individuals who are concerned about the confidentiality or anonymity of electronic communication
may submit allegations by telephone or mail.


Telephone       1-202-712-1023

Mail            USAID OIG HOTLINE
                P.O. Box 657
                Washington, DC 20044-0657

The Inspector General Act of 1978, as amended, and other laws protect those who make hotline
complaints. Individuals who contact the hotline are not required to identify themselves and may
request confidentiality when submitting allegations. However, OIG encourages those who report
allegations to identify themselves so that they can be contacted if OIG has additional questions.
OIG will not disclose the identity of an employee of USAID, MCC, USADF, IAF, or OPIC who provides
information unless that employee consents or unless the Inspector General determines that such
disclosure is unavoidable during the course of an investigation.




           USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013
                                                                                Contents

Message From the Deputy Inspector General .............................................................................................. 1

Introduction ............................................................................................................................................................. 3

OIG Organizational Performance Measures ................................................................................................ 6

Summary Table of Audits Conducted ............................................................................................................ 8

Investigative Activities ....................................................................................................................................... 10
Fraud Awareness Briefings Conducted Worldwide ............................................................................... 11

United States Agency for International Development

Significant Findings and Activities ................................................................................................................ 13

              Accountability ......................................................................................................................................... 13

                     Contractor and Grantee Accountability—Audits ............................................................ 13

                     Contractor and Grantee Accountability—Investigations ............................................. 15

                     Employee Misconduct ................................................................................................................ 19

                     Expanding Accountability ......................................................................................................... 20

              Agriculture and Food Security .......................................................................................................... 23

              Democracy, Human Rights, and Governance .............................................................................. 28

              Economic Growth and Trade ............................................................................................................ 36

              Education ................................................................................................................................................. 48

              Financial Management ....................................................................................................................... 51

              Gender Equality and Women’s Empowerment ........................................................................... 53

              Global Health .......................................................................................................................................... 56

              Information Management .................................................................................................................. 69

              Management Capabilities.................................................................................................................... 71




             USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013
        Reports
Significant     With Questioned
            Recommendations     and Unsupported
                              Described         Costs
                                        Previously    ..................................................................
                                                   Without       Final Action ................................152        73

IncidentsReports With
           in Which  OIGRecommendations
                             Was Refused Assistance           That Funds              Be Put to Better
                                                                                or Information                         Use Error! Bookmark78
                                                                                                                ....................................................  not
         defined.
Statistical Reports .................................................................................................................................................79
Reports Over 6 Months Old With No Management Decision 154Error! Reference source not
         Financial Audits ......................................................................................................................................79
found.Error! Reference source not found.Error! Reference source not found.
         Performance Audits .................................................................................................................................. 121
Significant Revisions of Management Decisions .................................................................................. 155
         Miscellaneous Reports ...................................................................................................................... 123
Significant Management Decisions With Which the Inspector General Disagrees ................ 155
         Reports With Questioned and Unsupported Costs .................................................................. 127
Significant Findings From Contract Audit Reports ................... Error! Bookmark not defined.
         Reports With Recommendations That Funds Be Put to Better Use ................................... 128
United States African Development Foundation
Reports Over 6 Months Old With No Management Decision .......................................................... 129
Significant Findings .......................................................................................................................................... 157
Significant Revisions of Management Decisions .................................................................................. 130
Other Required Reports ................................................................................................................................. 158
Significant Management Decisions With Which the Inspector General Disagrees ................ 130
Inter-American Foundation
Noncompliance With the Federal Financial Management Improvement Act of 1996 ......... 131
Significant Findings .......................................................................................................................................... 165
Significant Findings From Contract Audit Reports ............................................................................. 132
Other Required Reports ................................................................................................................................. 166
Millennium Challenge Corporation
Peer Reviews
Significant   ..............................................................................................................................
            Findings                                                                                                                                  172
                         and Activities ............................................................................................................. 133
Abbreviations ......................................................................................................................................................
       Economic     Growth ............................................................................................................................... 173       133

              Good Governance ................................................................................................................................ 137

              Management Accountability .......................................................................................................... 137

              Financial Management .................................................................................................................... 139

Significant Recommendations Described Previously Without Final Action ............................. 141

Incidents in Which OIG Was Refused Assistance or Information ................................................. 145

Statistical Reports ............................................................................................................................................. 146

              Financial Audits .................................................................................................................................. 146

              Performance Audits ........................................................................................................................... 150

              Miscellaneous Reports ...................................................................................................................... 151




                USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013
             Reports With Questioned and Unsupported Costs ..................................................................... 152

             Reports With Recommendations That Funds Be Put to Better Use ................................... 153

Reports Over 6 Months Old With No Management Decision .......................................................... 154

Significant Revisions of Management Decisions .................................................................................. 155

Significant Management Decisions With Which the Inspector General Disagrees ................ 155

Significant Findings From Contract Audit Reports .............................................................................. 156

United States African Development Foundation

Significant Findings .......................................................................................................................................... 157

Other Required Reports .................................................................................................................................. 158

Inter-American Foundation

Significant Findings .......................................................................................................................................... 165

Other Required Reports ................................................................................................................................. 166

Peer Reviews ............................................................................................................................. 172

Abbreviations ............................................................................................................................ 173




             USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013
USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013
               Message From the Deputy Inspector General

                                    I am pleased to present our Semiannual Report to the
                                   Congress for the period of October 1, 2012, to March 30,
                                   2013. This report features oversight activities of the
                                   Office of Inspector General (OIG) for the United States
                                   Agency for International Development (USAID), the
                                   Millennium Challenge Corporation (MCC), the United
                                   States African Development Foundation (USADF), and the
                                   Inter-American Foundation (IAF). During the reporting
                                   period, notable highlights include $53 million in
                               questioned costs and funds recommended to be put to better
use; nearly $8 million in investigative recoveries and savings; and 104 administrative
actions.

In this semiannual report, we are including for the first time the results of our organization-
wide performance measures, which were introduced in our new strategic plan. These
measures demonstrate progress in our efforts to effectively meet the needs of the agencies
and stakeholders we serve; to achieve positive outcomes from our investigative work; to
improve the usefulness and availability of the information we provide to our stakeholders;
to promote internal customer satisfaction and efficient operations; and to recruit, develop,
and retain quality employees even during challenging economic times. We recognize that
some areas would benefit by improvement, and we will discuss in future reports our
ongoing steps to strengthen OIG.

In terms of OIG initiatives already underway in support of our strategic plan, we are
building on our past experience with formal risk assessments to target our resources where
they will have the greatest impact. We have also established an investigative hotline in Haiti,
similar to that created in Pakistan. Keeping the needs of our stakeholders and customers in
mind, we are using social media applications, such as Twitter, to communicate what OIG
does.

Our dedicated staff members work to help the agencies we oversee succeed in their mission.
Although much of our report focuses on opportunities for improvement, we believe it is also
important to highlight activities that are working well. In Kyrgyzstan, for example, USAID’s


    USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  1
Local Development Program helped create a fund in selected municipalities that gave
entrepreneurs access to larger sums of capital and the opportunity to invest more in their
businesses to acquire supplies, equipment, or other items needed to expand their
operations. The program worked with tour operators in Kazakhstan and Kyrgyzstan to
initiate air service to the popular Issyk-Kul Lake region beginning in June 2011, doubling
flights during the tourism season. The program also repaired one of the main irrigation
canals, increasing water availability to certain areas by 50 percent and irrigating large tracts
of land that had not received water in 21 years.

Instances of fraud and waste in some areas remain, and OIG has initiated several integrity
investigations of agency managers and employees, as well as of implementing partners. In
one notable case, a former deputy director of a USAID contractor and his wife pled guilty to
embezzling more than $1 million from a global health program.

OIG also issued a qualified opinion on USAID’s principal financial statements for fiscal year
2012. We found two material weaknesses, one involving an unresolved difference of
$114 million with USAID’s reconciliation of its fund balance with the U.S. Treasury and the
other involving unsupported adjustments to USAID’s accounting records in the amount of
$3.2 billion.

Worldwide changes—whether the result of political unrest, economic crises, natural
disasters, or epidemics—will necessarily shape how OIG provides oversight in the future.
We note that recently enacted legislation pertaining to overseas contingency operations will
help existing offices of inspector general provide more effective oversight while making use
of existing resources, an important consideration in today’s uncertain environment. We will
continue to work with the Congress and our partners and stakeholders to improve the
efficiency and effectiveness of U.S. foreign assistance programs, and we look forward to
reporting the results of our efforts in future reports.




    USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  2
                                          Introduction

                          History and Mandated Authority
USAID’s OIG was established on December 16, 1980, by statutory amendment1 to the
Foreign Assistance Act of 1961.2 On December 29, 1981, the International Security and
Development Cooperation Act of 19813 brought the USAID Inspector General under the
purview of the Inspector General Act of 1978.4 OIG assumed audit and investigative
oversight of USADF and IAF in 19995 and of MCC in 2004.6 OIG also maintains limited
oversight authority of the Overseas Private Investment Corporation under 22 U.S.C.
2199(e).

The Inspector General Act authorizes the Inspector General to conduct and supervise audits
and investigations. Our mission is to provide independent oversight that promotes efficiency
and effectiveness and safeguards the integrity of programs and operations under our
jurisdiction. Some of our work is mandated by statute or other requirements; other work is
performed at the discretion of OIG. When identifying and prioritizing appropriate audit and
investigative activity, we consider stakeholder interests and needs, alignment with strategic
goals, program funding, and the risks associated with the agency programs, including potential
vulnerabilities in internal controls.




1   International Security and Development Cooperation Act of 1980, Public Law 96-533.
2   Public Law 87-195.
3   Public Law 97-113.
4   Public Law 95-452.
5Consolidated Appropriations Act, 2000, Public Law 106-113, Division B, Section 1000(a)(7),
Admiral James W. Nance and Meg Donovan Foreign Relations Authorizations Act, Fiscal Years 2000
and 2001.
6Established in 2004 by the Millennium Challenge Act of 2003 (Public Law 108-199, Div. D.), MCC is
a U.S. Government corporation that works to reduce poverty and stimulate economic growth in some
of the poorest countries in the world. It has committed more than $8 billion in foreign aid to 39
countries.
When a country meets the performance standards of MCC’s selection indicators, it may become
eligible to receive a compact—the chief grant instrument between MCC and the country to fund
specific programs. Each compact country identifies an entity or organization that will manage the
compact funds and oversee compact implementation. Such entities are usually called Millennium
Challenge Accounts (MCAs).




       USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  3
                                  Areas of Responsibility
Audits. OIG audits activities relating to the worldwide foreign assistance programs and
agency operations of USAID, MCC, USADF, and IAF. Audit activities include performance
audits and reviews of programs and management systems, financial statement audits
required under the Chief Financial Officers Act of 1990,7 and audits related to the financial
accountability of grantees and contractors.

Investigations. OIG investigates allegations of fraud, waste, and abuse relating to the foreign
assistance programs and operations of our client agencies. Investigations of criminal, civil,
and administrative violations cover all facets of these worldwide operations. OIG also works
proactively by providing fraud awareness briefings and literature, audiovisual aids, and
advice on fraud prevention strategies for agency personnel and employees of foreign
assistance implementers worldwide.

Locations of OIG Offices. OIG carries out its audit and investigative work in about
100 countries from offices in:

•     Baghdad, Iraq
•     Cairo, Egypt
•     Dakar, Senegal
•     Islamabad, Pakistan
•     Kabul, Afghanistan
•     Manila, Philippines
•     Port-au-Prince, Haiti
•     Pretoria, South Africa
•     San Salvador, El Salvador
•     Tel Aviv, Israel
•     Washington, D.C.


                               Joint Work and Partners
OIG participates in task forces and cooperates with other groups. In this reporting period,
for example, OIG contributed to task forces and interagency groups that provide oversight


7   Public Law 101-576.




      USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  4
for U.S. Government programs in Afghanistan, Pakistan and Iraq that assist the Department
of Justice in addressing procurement and grant fraud.

Southwest Asia Joint Planning Group. This group was formed to coordinate oversight
activities in Afghanistan, Pakistan and Iraq, and other countries in the region. The group
comprises representatives of the Offices of Inspector General for USAID, the Department of
Defense and the Department of State, the Government Accountability Office (GAO), the
Special Inspector General for Iraq Reconstruction, the Special Inspector General for
Afghanistan Reconstruction, the U.S. Army Audit Agency, the Naval Audit Service, the Air
Force Audit Agency, and the Defense Contract Audit Agency (DCAA).

Department of Justice Task Forces. OIG participates on two Department of Justice task
forces—the National Procurement Fraud Task Force and the International Contract
Corruption Task Force. The mission of both task forces is to promote the early detection,
prevention, and prosecution of procurement and grant fraud associated with increased
contracting activity for national security and other government programs.

Coordinated Audit Plan for HIV/AIDS, Tuberculosis, and Malaria. OIG collaborates with its
counterparts at the Departments of State and Health and Human Services (HHS) to develop
an annual consolidated audit plan. The three OIGs work together to determine the audits
each office will conduct to a make the best use of U.S. Government resources.

Working With Bilateral Donors. OIG participates in a group of 11 bilateral donors that are
working to improve transparency and accountability of multilateral organizations and take
on other issues of mutual interest.




    USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  5
                 OIG Organizational Performance Measures
OIG established the following measures in its 2012–2016 strategic plan. The data below
reflects our progress during the first half of fiscal year 2013.

Goal 1: Strengthen the ability of the organizations for which OIG provides oversight to
manage and deliver foreign assistance efficiently and effectively through audit products and
activities.


                                                   Fiscal Year-end
                Measure                                                        Midyear Results
                                                        Target
 Percentage of audits with
 recommendations that focus on                             60%                         61%
 program effectiveness and efficiency8
 Percentage of agency expenditures
                                                           55%                         35%
 audited
 Hours per audit                                           900                         995

Goal 2: Deter and detect fraud, corruption, criminal activity, and misconduct in the
programs, operations, and workforce of the organizations for which OIG provides oversight.


                                                   Fiscal Year-end
                 Measure                                                      Midyear Results
                                                        Target
 Percentage of OIG investigations
 resulting in substantiated allegations
                                                            80%                       100%
 that were referred for criminal, civil,
 or administrative action
 Percentage of referrals that resulted in
                                                            50%                        91%
 criminal, civil, or administrative action
 Number of individuals reached
                                                           2,800                      2,308
 through outreach events

Goal 3: Provide useful, timely, and relevant information to enable stakeholders to make
informed decisions.


                                                   Fiscal Year-end
                 Measure                                                      Midyear Results
                                                        Target
 Number of briefings and testimonies
                                                             15                         12
 provided to Congress
 Number of hits on the OIG Web site                      500,000                    1,326,708

8 Includes audits with recommendations in the following categories: performance targets not met,
insufficient coordination among development partners, risk to projects’ sustainability, lack of host-
country support, inefficient operations, unsatisfactory contractor performance, and inadequate
commodity management or storage.




    USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  6
Goal 4: Continually improve the efficiency, effectiveness, and quality of OIG operations and
outputs.


                                                     Fiscal Year-end
                   Measure                                                     Midyear Results
                                                          Target
 Percentage of employees indicating
 satisfaction with OIG customer service,                      70%                      57%9
 operations, and initiatives
 Percentage of major management
 milestones met relating to strategic
 planning, continuity of operations, policy
                                                              80%                       73%
 development, financial resource
 management, operations planning, and
 external reporting requirements
 Percentage of OIG hours spent on indirect
                                                              40%                     28%
 tasks

Goal 5: Recruit, develop, and retain a highly qualified, motivated, and diverse workforce
with the necessary tools and training to fulfill OIG’s mission.


                                                     Fiscal Year-end
                   Measure                                                     Midyear Results
                                                          Target
 Percentage of vacancies with qualified
 candidates accepting an offer of                          100%                         90%
 employment within 120 days
 Percentage of highly performing
                                                             80%                        99%
 employees retained
 Percentage of OIG employees expressing
 satisfaction with management policies and
 procedures, opportunities to improve their
 skills, their ability to use their talents,                  55%                      47%10
 recognition for good performance, and
 personal empowerment in work processes
 and their jobs
 Percentage of employees completing
 required core curriculum training for their                100%                        65%
 level




9 This percentage represents the baseline data captured in OIG’s first annual customer service survey
at the beginning of fiscal year 2013. The target may be revised in response to this baseline.
10This percentage reflects baseline data captured in OIG’s first employee satisfaction survey
captured at the beginning of fiscal year 2013. The target may be revised in response to this baseline.




     USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  7
                              Summary Table of Audits Conducted
                                    USAID, USADF, and IAF
                                October 1, 2012–March 31, 2013
                                                                       Value of
                                                    Number of
                        Type of Report                              Questioned Costs
                                                     Reports
                                                                           ($)
         Financial Audits
         American Recovery and Reinvestment Act
                                                           0                     0
         of 2009, Public Law III-5 (ARRA)
         USAID programs and operations                     1                     0
         Foundations’ programs and operations              2                     0
         U.S.-based contractors                          38              2,749,564
                  Quality control reviews                  0                     0
         U.S.-based grantees                             42              6,415,413
                  Quality control reviews                  0                     0
         Foreign-based organizations                    210             12,075,38811
                  Quality control reviews                12               708,998
         Foreign government funding                      12              2,599,776
         Local currency trust fund                         0                     0
         Enterprise funds                                12                      0

         Performance Audits
         USAID economy and efficiency                    31              5,943,96312
         Foundations’ economy and efficiency               2                     0
         Other                                             7             1,200,000

         Total                                          369            31,693,102




11, 12
         Includes better use of funds.




         USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  8
                   Summary Table of Audits Conducted
                                  MCC
                     October 1, 2012–March 31, 2013
                                                         Value of Questioned
                                        Number of
          Type of Report                                        Costs
                                         Reports
                                                                  ($)
Financial Audits
U.S.-based contractors                       1                     0

U.S.-based grantees                          0                     0

Foreign-based organizations                 15                21,361,855

Quality control reviews                      0                     0

Performance Audits
                                             4                     0
Economy and efficiency
                                             1                     0
Other

Total                                       21                21,361,855




USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  9
                      Investigative Activities Including Matters
                         Referred to Prosecutive Authorities
                             October 1, 2012–March 31, 2013

                   Workload                                         Civil Actions

  Investigations opened                      64   Civil referrals                            2
  Investigations closed                      18   Civil declinations                         0
                                                  Judgments                                  0
                                                  Settlements                                1
                                                  Total                                      3

                Criminal Actions                             Administrative Actions

  Prosecutive referrals                      10   Reprimands/demotions                       6
  Prosecutive declinations                    8   Personnel suspensions                      9
  Arrests                                     5   Resignations/terminations                 37
  Indictments                                 0   Recoveries                                32
  Convictions                                 2   Suspensions/debarments                    11
  Sentencing                                  3   Systemic changes                           6
  Fines/assessments                           1   Other                                      3
  Restitutions                                1
  Total                                      30 Total                                     104
                                      Recoveries and Savings
  Judicial recoveries (criminal and civil)                                           $5,812,959
  Administrative recoveries                                                          $1,995,303
  Savings                                                                                    0
  Total                                                                             $7,808,262




USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  10
           Fraud Awareness Briefings Conducted Worldwide
                  October 1, 2012–March 31, 2013
Month                 Location            Sessions               Attendees
             Kabul, Afghanistan               3                       40
  OCT
             Ulaanbaatar, Mongolia            1                       11
             Manila, Philippines              1                       42
  NOV        Kabul, Afghanistan               2                       18
             Pretoria, South Africa           1                       28
             Kabul, Afghanistan               3                       20
             New Delhi, India                 7                      159
             Islamabad, Pakistan              6                       79
  DEC
             Washington, D.C.                 2                       77
             Port-au-Prince, Haiti            4                      107
             Baghdad, Iraq                    2                       54
             Islamabad, Pakistan              2                       63
             Kabul, Afghanistan               3                       5
             Nairobi, Kenya                   1                       12
             Washington, D.C.                 3                       28
             Manila, Philippines              1                       32
             Johannesburg, South Africa       1                       11
  JAN
             Cairo, Egypt                     2                      102
             Bangkok, Thailand                1                       51
             Phnom Penh, Cambodia             5                      116
             Kinshasa, Democratic
                                              1                       10
             Republic of the Congo
             Mexico City, Mexico              2                       39
             Juba, South Sudan                1                       11
             Nairobi, Kenya                   2                       72
             Cairo, Egypt                     2                       26
  FEB        Baghdad, Iraq                    1                       7
             Kabul, Afghanistan               1                       7
             Washington, D.C.                 1                       7
             San Salvador, El Salvador        1                       23




USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  11
Month                 Location            Sessions               Attendees
             Islamabad, Pakistan              4                       96
             Kabul, Afghanistan               3                       31
             Washington, D.C.                 6                      207
             Guatemala City, Guatemala        3                      107
             Amman, Jordan                    3                       91
             San Salvador, El Salvador        1                       34
             Baghdad, Iraq                    1                       9
             Newton, Massachusetts            4                       55
 MAR
             Karachi, Pakistan                2                       20
             Zarqa, Jordan                    1                       28
             Addis Ababa, Ethiopia            1                       11
             Petionville, Haiti               1                       30
             Nazon, Haiti                     1                       30
             Manila, Philippines              1                      168
             Managua, Nicaragua               2                       98
             Cairo, Egypt                     3                       36
 Total                                       100                    2,308




USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  12
                     Significant Findings and Activities
            United States Agency for International Development

Accountability
Contractor and Grantee Accountability—Audits

Overall Audit Activity. USAID is required by the Federal Acquisition Regulation (FAR), the
Single Audit Act,13 Office of Management and Budget (OMB) circulars, and its own internal
policies and procedures to obtain appropriate and timely audits of its contractors, grantees,
and enterprise funds. OIG provides oversight of these audit activities, ensuring that audits
are conducted in accordance with appropriate quality standards.

Audits of U.S.-Based Companies. U.S.-based companies carry out many USAID-funded
activities. DCAA conducts audits, reviews, and preaward surveys of U.S.-based contractors
on USAID’s behalf. OIG then reviews DCAA’s reports and transmits them to USAID
management.

During this reporting period, OIG reviewed and transmitted 18 DCAA reports covering
approximately $167 million in costs (with questioned costs of more than $1.8 million).

Audits of U.S.-Based Grantees and Enterprise Funds. U.S.-based nonprofit organizations also
receive significant USAID funds to implement development programs overseas. As required
by OMB Circular A-133, “Audits of States, Local Governments, and Non-Profit
Organizations,” nonfederal auditors perform annual financial audits of USAID grantees that
spend more than $500,000 in federal funds annually. The auditors are required to identify:

      Significant deficiencies involving major programs.
      Material noncompliance with laws and regulations.
      Known fraud affecting federal awards.
      The status of prior audit findings.
      Reasons why the auditor’s report on compliance for major programs is other than
      unqualified.


13   Single Audit Act of 1984, Public Law 98-502, as amended.




      USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  13
In some instances, USAID contracts with DCAA to perform special financial audits and with
independent public accounting firms to perform Agency-contracted financial audits of U.S.-
based grantees. OIG provides oversight for the nonfederal auditors performing these audits
to determine whether auditors have prepared audit reports in accordance with the
reporting requirements of OMB Circular A-133 and generally accepted government auditing
standards.

OIG also conducts quality control reviews to (1) determine whether the underlying audits
were conducted in accordance with generally accepted government auditing standards and
meet the requirements of OMB A-133, (2) identify and follow-up work needed to support
the opinions contained in the audit report, and (3) identify issues that may require
management attention by federal officials.

Enterprise funds are U.S.-based nonprofit organizations established under the Support for
East European Democracy (SEED) Act of 198914 and the Freedom Support Act of 1992
(FSA). USAID currently has several enterprise funds that invest in Eastern Europe and
Eurasia and one that invests in South Africa. There are two additional enterprise funds
authorized by Congress and in the final stages of being developed for Egypt and
Tunisia. Enterprise funds are subject to annual audits of financial statements performed by
private accounting firms and reviewed by OIG.

During the reporting period, OIG issued 25 reviews for A-133 Single Audit Act reports and
issued 10 reviews for Agency-contracted audit reports covering USAID funds of
approximately $2.7 billion spent by U.S.-based grantees.

Audits of Foreign-Based Contractors and Grantees. OMB Circular A-133 does not apply to
foreign-based contractors and grantees. Given the high-risk environment in which USAID
operates, however, USAID has extended similar audit requirements to its foreign-based
contractors and grantees through standard provisions included in grants, cooperative
agreements, and contracts. Financial audits of foreign-based contractors and grantees are
normally conducted by independent audit firms approved by OIG’s overseas regional
offices.



14   Public Law 101-179.




      USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  14
Under the recipient-contracted audit programs, audits are required for all foreign entities
that spend $300,000 or more in USAID funds during their fiscal year. USAID may also
request financial audits of nonprofit organizations that fall below the $300,000 threshold.

USAID’s financial audit requirements concerning its contracts, grants, and cooperative
agreements are normally satisfied under the recipient-contracted audit program. However,
Agency-contracted audits may be initiated by either USAID or OIG to provide additional
audit coverage or address specific concerns.

OIG reviews all audit reports and, if they are found to be in compliance with the OIG’s
Guidelines for Financial Audits Contracted by Foreign Recipients, transmits the reports to the
appropriate USAID mission for corrective actions. Audit firms are also notified of any
problems identified in the audit reports.

During this reporting period, OIG reviewed and transmitted 210 audits of foreign-based
organizations, covering more than $610 million in expenditures and resulting in about
$12 million in questioned costs, and 12 audits of foreign government funding, covering
$171 million in expenditures and $2.6 million in questioned costs. OIG also completed 12
quality control reviews to ensure that the audits were completed in accordance with
appropriate audit standards.

Contractor and Grantee Accountability—Investigations

Subcontract for $1.7 Million in Kenya Terminated After Confirmation of Extortion Scheme. A
prime contractor in east Africa canceled a subcontract after OIG discovered an extortion
scheme that resulted in overbilling of program funds. OIG learned that an employee of the
subcontractor was receiving less than 20 percent of her monthly salary. OIG confirmed this
allegation and confronted the owner of the subcontracting firm. He admitted to billing
USAID through the prime contractor an additional $5,000 per month through the inflated
salaries of three employees. OIG further confirmed that he had been doing this for
approximately 1 year. In January 2013, the prime contractor, without knowledge of this
issue, awarded an open-ended contract to the same subcontractor for approximately
$1.7 million. After learning the findings of this investigation, the prime contractor canceled
the newly awarded subcontract. USAID was informed of the findings and is determining
how to recover the approximately $60,000 that the subcontractor overbilled USAID through
the prime.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  15
Bill for Collection for Nearly $1.6 Million Issued to Rafi Peer Theater Workshop. In January
2013, USAID Pakistan issued a bill for collection to the Rafi Peer Theater Workshop
(RPTW). RPTW is a local Pakistani nongovernmental organization (NGO) that had
implemented the Pakistan Children’s Television Project (PCTV), which was terminated in
September 2012. An audit conducted as a part of an OIG investigation into procurement
irregularities on the PCTV project had identified more than $2 million in potentially
disallowable costs. Because of the audit findings and input from RPTW, USAID Pakistan
formally disallowed almost $1.6 million and issued a bill for collection. RPTW did not meet
the deadline to repay the funds and has not otherwise responded to USAID Pakistan. In
addition, the NGO has refused to return video production equipment worth approximately
$900,000 that was purchased as part of the project.


Former USAID Contractor Reaches Settlement With Department of Justice Over False Claims
Charges. A former employee of USAID implementer DAI entered into a nearly $27,000 civil
false claims settlement (that included damages) with the U.S. Department of Justice on the
basis of conduct that took place while he was working on the Local Governance and
Community Development (LGCD) project in Afghanistan. OIG initiated an investigation into
allegations of false claims on the LGCD project in 2009. The investigation revealed that the
former employee had been reimbursed $13,298 for separate maintenance allowance
between November 2007 and July 2009, even though his wife was residing with him in
Afghanistan. The investigation revealed that the individual knew he was not eligible to
receive the benefit at the time he submitted the claims.

CEO of a Pakistani NGO Resigns as a Result of OIG’s Investigation. In December 2012, the
Sindh Rural Support Organization (SRSO) board of directors accepted the resignation of its
chief executive officer (CEO) in connection with a yearlong OIG investigation into alleged
mismanagement, theft, and corruption associated with SRSO’s participation in several
USAID-funded projects. OIG investigators learned that the CEO had obstructed OIG’s
investigation into the allegations. He had instructed two employees to make villagers sign
falsified documentation indicating that they had received payment under a USAID project,
although they had not been paid. In May 2012, USAID proposed SRSO for debarment. A final
decision on that matter is pending.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  16
USAID/Georgia Recovers $36,000 from Local NGO in Connection With a Conflict of Interest
Investigation. In 2011, OIG received allegations of procurement irregularities within a
$288,000 forestry program in Georgia being implemented by the Georgian Center for the
Conservation of Wildlife (GCCW). OIG’s investigation revealed that GCCW had submitted
inflated receipts for rent on its office space, as well as fake bids for a printing subcontract.
OIG also found that GCCW had rented office space actually owned by the project manager,
and the questionable printing contract was awarded to a company owned by his wife. As a
result of the investigation and to settle the fraudulent overpayments, USAID recovered
equipment valued at $36,110 from GCCW in October 2012.

Afghan National Debarred After Stealing More Than $200,000 From USAID Project. In October
2010, USAID contractor Black & Veatch (B&V) disclosed to USAID that an Afghan employee
working on the Afghanistan Infrastructure Rehabilitation Program had stolen $208,000 in
project funds. The matter was immediately reported to the Afghan National Police, but
extensive efforts to locate the subject were unsuccessful. As a result of B&V’s investigation
into the matter, two employees were terminated and two resigned. In addition, B&V
implemented new cash payment procedures to prevent future thefts. The $208,000 was not
charged to the project, and OIG referred the matter to the USAID suspension and debarment
official. The subject was debarred in December 2012.

Afghan National Debarred for Involvement in Bid-Rigging Scheme. In June 2011, Tetra Tech
ARD made a self-disclosure to OIG involving potential misconduct on the part of an Afghan
national employed as a procurement officer on the Kabul City Initiative. OIG’s investigation
revealed that the procurement officer had solicited a bribe from a local vendor when
awarding a $45,000 subcontract. The subject also confessed to providing pricing data from
competitive bids to a company owned by a family friend, resulting in an award to the
company of a $220,000 subcontract. The employee was terminated by Tetra Tech ARD.
Following an OIG referral, USAID debarred the employee in February 2013.

University Refunds USAID $20,000 When Investigation Reveals False Claims on Education
Project. USAID awarded a $10 million cooperative agreement to the University of
Massachusetts (UMASS) to implement the Higher Education Program (HEP). As part of the
HEP program, UMASS has been delivering basic management workshops for employees of
the Afghan Ministry of Higher Education (MOHE) in Kabul, Afghanistan, since fall 2011. In




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  17
May 2012, UMASS discovered that many MOHE employees had submitted fraudulent hotel
receipts, resulting in an overpayment by USAID. UMASS immediately made a self-disclosure
to USAID. OIG investigators conducted interviews, reviewed UMASS records, and referred
the case to USAID’s Office of Acquisition and Assistance. In November 2012, UMASS
reimbursed $20,533 to USAID and advised that the university has strengthened its internal
controls.

Former Deputy Director of USAID Contractor and His Wife Plead Guilty to Embezzling More
Than $1 Million. A former manager at a USAID contractor was sentenced to incarceration for
51 months for a complex scheme that defrauded USAID of nearly $1.1 million. The
defendants each pled guilty in October 2012 in the U.S. District Court for the District of
Columbia to one count of conspiracy to commit wire and mail fraud. As part of the pleas,
they agreed to pay full restitution and consented to an order forfeiting the amount
stolen. The sentencing judge said that his conduct was “downright conniving” and
particularly egregious given how the USAID money was supposed to be spent—for HIV-
related conferences and training throughout Africa. She also sentenced the other defendant
to 5 years of probation, with the first 6 months to be served under home confinement. As
part of the plea, the defendants admitted that one of them had used his position as deputy
director at a private USAID contractor to submit and approve false and fraudulent invoices,
which generated more than $1.084 million in fraudulent payments between 2006 and 2010.
The government seized about $49,000 in proceeds from the scheme.

A co-conspirator was also sentenced in November 2012 to a 15-month prison term and
ordered to pay restitution after embezzling more than $380,000 through bogus claims for
services that were never provided. Further, the primary defendants used fraudulent
invoices to pay for a home renovation contract on their personal residence and to buy a
luxury automobile.

Two Former Development Workers Arrested for Fraud. Two defendants were arrested by the
Afghan Attorney General’s Anti-Corruption Unit, with OIG assistance, on charges of
conspiring to steal approximately $10,000 of USAID’s funds in 2011. The two former
development workers—one a chief of party and the other a finance manager of an
implementing partner—were accused of falsifying official documentation from the Afghan




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  18
Ministry of Finance, indicating that USAID’s implementing partner had paid the appropriate
local property taxes for the office building used on the project.

Employee Misconduct
USAID/Uganda Foreign Service National Employee Terminated After Conflict of Interest
Investigation. OIG investigated a project management specialist in central Africa believed to
have outside financial interests that were not reported on his annual Office of Government
Ethics (OGE) Financial Disclosure 450 forms. The individual reported his outside financial
interest only after USAID personnel became suspicious and questioned him about it. OIG
confirmed that the employee owns a local medical clinic and is a paid board member of a
local NGO. However, he did not seek the required approval for outside employment, a
violation of USAID local hire employee regulations. Although OIG did not obtain evidence to
indicate that the subject had benefited from his connections to the local clinic or NGO, he
was referred to the embassy and his security clearance was revoked for lying on his OGE
450. USAID then terminated him for not being able to maintain a security clearance and for
suitability concerns.

USAID/Ethiopia Employee’s Contract Not Renewed After OIG Investigation Reveals Abuse of
U.S. Government Services and Privileges. An American contracted employee at a USAID
mission in east Africa failed to have her contract renewed after an OIG investigation
established that she had sold approximately $10,000 of personal property without proper
authority. She then tried to convert that amount of local currency to U.S. dollars by
concealing related circumstances. The former contractor also attempted to abuse her
privileges by arranging a shipment of consumables from the United States to the mission, to
which she was not entitled, and pressing local staff to make duty-free arrangements for her.

USAID/Haiti Employee to Be Suspended for Abuse of Motor Pool. A USAID/Haiti personal
services contractor utilized the USAID/Haiti motor pool for personal use by directing local
USAID staff to provide him with transportation for needs other than official travel. Prior to
being hired by USAID, the individual had worked at the State Department, where he was
issued a bill for collection pursuant to misuse of official vehicles there. The individual
acknowledged to OIG that he had used USAID motor pool resources to visit barbershops, to
go to a learning institution where he taught a course, and to conduct other, non-USAID
business. USAID/Haiti mission management advised OIG that it will suspend the individual




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  19
for 30 days without pay and will not renew his employment contract at the end of the
current period.

Two USAID Afghanistan Employees Receive Administrative Action for Conflict of Interest. In
November 2012, a USAID Foreign Service National (FSN) serving as the field program
officer in Kunar Province, Afghanistan, was verbally warned for the appearance of a conflict
of interest. OIG’s investigation revealed that the FSN’s brother was a member of the Kunar
Vocational Organization (KVO) board of directors. KVO is a USAID-funded organization in
Kunar Province. The FSN serves as a liaison between USAID and KVO and did not make the
necessary disclosures. OIG investigators conducted interviews, reviewed personnel records,
and referred the case to USAID action officials.

Another USAID FSN, serving as the lead field program officer in Nangarhar, Afghanistan,
was also verbally warned for the appearance of a conflict of interest. OIG’s investigation
revealed that the FSN’s brother-in-law had leased his personally owned vehicle to the
Central Asian Development Group (CADG), a USAID implementing partner operating in the
Nangarhar District. The FSN failed to make the disclosure to his superiors. OIG investigators
conducted interviews, reviewed motor vehicle records, and referred the case to USAID
action officials.

USAID Direct Hire Resigns After Investigation of Government Travel Card Abuse. OIG received
an anonymous complaint in April 2012 alleging that a U.S. direct hire employee was
misusing her government travel card by using it to make personal purchases. OIG’s
investigation substantiated the allegations, revealing that the employee had misused the
card to purchase alcohol, food, airplane tickets, and hotel rooms for personal travel. As the
result of a referral from OIG, USAID proposed taking administrative action against the
employee; however, she resigned before any action was taken.

Expanding Accountability
Corruption and lack of accountability are major impediments to development. These issues
threaten to negate years of economic growth, especially in the areas of the world subject to
political instability and violence.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  20
OIG audits and investigations afford two methods of safeguarding USAID funds; however,
OIG pursues additional methods to promote accountability and transparency, described
below.

Expanding Supreme Audit Institutions’ Capabilities. OIG continues to work closely with
selected supreme audit institutions (SAIs) in countries where USAID is present. SAIs are the
principal government audit agencies in the recipient countries and are often the only
organizations that have a legal mandate to audit the accounts and operations of their
governments. As such, SAIs may be called upon to audit funds provided to host
governments by USAID or other donors. OIG and USAID missions have signed
memorandums of understanding (MOUs) with SAIs in 23 countries.

Before SAIs can conduct audits for USAID, they must demonstrate sufficient professional
capacity and independence. OIG often provides training to SAIs in how to conduct financial
audits of USAID funds in accordance with Agency guidelines and U.S. Government auditing
standards. OIG provides quality control for all audits of USAID funds performed by SAIs.

During this reporting period, SAIs issued 13 audit reports covering approximately
$172 million in USAID funds. They reported approximately $2.9 million in questioned costs,
9 internal control weaknesses, and 21 material instances of noncompliance with
agreements.

Training USAID Staff and Others. OIG remains committed to preventing losses of
development funds and continues to provide training in cost principles and fraud
awareness to USAID employees, contractors, grantees, SAIs, and auditors from local
accounting firms.

Cost Principles Training. USAID’s contracts and grants incorporate cost principles that define
the types of costs that can be legitimately charged to USAID programs.

To increase awareness of—and compliance with—cost principles and to promote the
highest standards, OIG conducts training for overseas USAID staff, contractors, grantees,
and others.

This training provides a general overview of U.S. Government cost principles and actual
examples of instances that demonstrate concepts such as reasonableness, allocability,




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  21
allowability, and various specific cost principles (e.g., travel expenses or entertainment
costs). The training also includes financial audit requirements and accountability issues.

During this reporting period, OIG provided training in cost principles and related subjects in
12 countries to approximately 700 individuals from USAID, NGOs, local government and SAI
officials, and auditors from local public accounting firms.

Fraud Awareness. During the current reporting period, OIG placed emphasis on preventive
strategies as part of our oversight responsibilities, providing 100 fraud awareness briefings
to 2,308 individuals during the reporting period.

These briefings—customarily given to employees, contractors, grantees, and others—alert
participants to fraudulent practices and schemes and advise them on how to report fraud if
it is encountered. The briefings are tailored for presentation to specific groups, when
requested, such as contracting officers or contracting officers’ representatives.
Investigations resulting in criminal or civil prosecution are publicized on USAID’s Web site
and in other publications, calling attention to prosecutorial action taken against individuals
or organizations whose illegal activities have targeted USAID programs.

In addition, OIG has developed publications and educational materials. The newest
publication, “What an Investigation Means to You,” outlines the types of activities OIG
investigates, the purpose of its investigations, the investigative process, and the employee’s
role in that process. Another publication, “What to Report,” provides specific guidelines for
making complaints to the OIG Hotline. OIG Hotline posters, flyers, and cards have been
distributed worldwide. To expand OIG’s outreach efforts, these materials are produced in
English, Spanish, French, and Arabic.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  22
Agriculture and Food Security
                                                                 Significant Findings and
USAID’s agriculture and food security programs work to           Activities
increase food security through Feed the Future, the U.S.          OIG finds positive results in
Government’s global hunger and food security initiative. The     the Feed the Future Program
                                                                 in Ethiopia, with stake-
Agency supports agricultural research and development,           holders reporting satisfaction
                                                                 with training and research
expanding and enhancing agricultural markets and trade,          and the likelihood of the
capacity development, global nutrition programs, and             program to help reduce and
                                                                 prevent malnutrition. OIG’s
investment in sustainable agriculture. It also provides food     audit notes, however, that
                                                                 local partners and USAID
assistance to vulnerable populations and those in crisis.        officials need a greater
                                                                 awareness of and compliance
OIG’s oversight of USAID’s agriculture and food security         with anti-terrorism
                                                                 requirements in processing
programs this reporting period focused on assistance             awards.
programs in Africa, as well as a false claims investigation
                                                                  OIG’s audit of USAID’s
involving a U.S.-based company.                                  Internal Controls Over
                                                                 Prepositioned Food
                                                                 Assistance for the Horn of
Audit of Feed the Future Activities in Ethiopia (Report No. 4-   Africa found that USAID
663-13-005-P).USAID/Ethiopia implements activities under         could not demonstrate that
                                                                 overseas prepositioning
Feed the Future, the U.S. Government’s global hunger and         resulted in timelier deliveries
                                                                 of food aid than domestic
food security initiative, to increase economic growth in         prepositioning, even though
agricultural production and income and to help rural             overseas prepositioning costs
                                                                 are about seven times as
Ethiopia’s resilience when facing food shortages. OIG audited    much per metric ton.
four programs to determine whether they are on track to           Jacintoport International is
                                                                 sued for false claims (inflated
meet these goals, including: (1) Agribusiness and Market
                                                                 charges) in connection with
Development (AMDe) program; (2) the Capacity to Improve          human food delivery.

Agriculture and Food Security (CIAFS); (3) the Empowering
New Generations to Improve Nutrition and Economic
opportunities (ENGINE) program; and (4) the Graduation
with Resilience to Achieve Sustainable Development (GRAD)
program.

OIG found some positive results. For instance, stakeholders
expressed satisfaction with the training and research
provided by CIAFS, ENGINE stakeholders noted that the




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  23
program had helped them reduce and prevent malnutrition, and GRAD recipients expressed
hope that they would be able to increase their incomes and graduate from Ethiopia’s
productive safety net program.

Despite these results, OIG noted several issues. OIG identified problems with awards and
recipient knowledge of awards that increase the risk that USAID funds or resources went to
people or groups supporting terrorism or who were otherwise ineligible to receive USAID
funding. USAID omitted the required antiterrorism clause from the AMDe award. The clause
was also omitted from the subcontracts between the implementing partner and its six
subcontractors. Furthermore, representatives from two grant recipients were not familiar
with aspects of the antiterrorism and debarment and suspension award provisions.

In addition, USAID/Ethiopia and its partners did not establish all of the baselines and
targets necessary to measure whether the activities were effectively increasing growth with
resiliency in rural Ethiopia. Some of the delay resulted from Ethiopia’s 70/30 law that
requires NGOs to spend no more than 30 percent of funds on administrative expenses. The
law is known to have a negative effect on many projects funded by USAID and other donors.

Finally, the structure of Ethiopian programs delayed ENGINE’s efforts to support nutrition
interventions. ENGINE’s activities operate in the same areas as the Agricultural Growth
Program (AGP) in the Ministry of Agriculture. AGP officials stated that nutrition
interventions are not part of AGP’s jurisdiction, but rather belong under the National
Nutrition Program implemented by the Ministry of Health. Therefore, AGP did not provide
support to and inhibited the implementation of some of ENGINE’s activities. Management
decisions have been reached on all five OIG recommendations, and final action has been
taken on four.

Audit of USAID’s Internal Controls Over Prepositioned Food Assistance for the Horn of Africa
(Report No. 4-962-13-004-P). According to the United Nations World Food Programme,
4.5 million people in Ethiopia needed emergency food assistance after the 2011 drought.
An October 2011 USAID report noted that 3.3 million people in Somalia needed life-saving
assistance, with 750,000 of those at risk of imminent starvation. In addition, the drought
affected northern and eastern Kenya, which was also grappling with the growing number of
Somali refugees.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  24
To respond swiftly to crises such as these, USAID implemented the prepositioning
warehouses program. According to a cost-benefit analysis that USAID’s Office of Food for
Peace (FFP) did in 2008,15 the program’s strategy is to store commodities (such as lentils,
yellow split peas, and vegetable oil) in designated warehouses for future use to “eliminate
the time it takes to procure and transport the commodities to U.S. port for shipment.” In
doing so, USAID can cut months off the response time. The Office of Acquisition and
Assistance’s Transportation Division oversees operations, including managing the contracts
and tracking the shipments in and out as well as the stock available in each warehouse. FFP
makes decisions about the type and quantity of food, or commodity, to store in each
prepositioning warehouse. After reviewing shipments to the Horn of Africa in 2011 and
visiting warehouses in Djibouti, Durban, and Mombasa, OIG determined that USAID does
have internal controls in place to provide timely delivery of food commodities, and that in
most cases the food had been kept safe and delivered as intended. However, OIG found
several areas for improvement.

Despite a recommendation in the cost-benefit analysis to increase domestic food stockpiles,
USAID awarded contracts to five overseas warehouses. According to the analysis,
prepositioning food overseas added about $164 per metric ton versus $23 domestically. In
addition, USAID was unable to demonstrate that prepositioning overseas, rather than
domestically, improved the timeliness of food aid. In one case, food shipped from Texas
reached the Horn of Africa 3 weeks faster than a shipment from South Africa.

                                                           USAID did not hold warehouse
                                                           contractors responsible for poor storage
                                                           conditions. In one warehouse, food was
                                                           infested with ants and tobacco beetles
                                                           and was not properly marked for
                                                           disposal or reuse. Containers of food
                                                           were damaged from improper stacking
                                                           and some were stored on broken pallets.

     Insect-infested commodities were stored near
            undamaged ones. (Photo by OIG)

15   Janet R. Vandervaart, Public Law 480 Title II Prepositioning Cost/Benefit Analysis, January 2008.




      USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  25
In another instance, damaged containers of food arrived unexpectedly at one warehouse
and members of the staff could not determine where they had come from or what they had
to do with USAID. OIG also determined that the incoming and outgoing quantities of food at
one warehouse could not be reconciled and the system for tracking inventory was weak.
However, USAID paid the costs of damaged commodities because the contractors did not
report any losses. Management decisions were reached on all four recommendations, with
final action taken on one.

Audit of USAID/Ukraine’s AgroInvest Project (Report No. 9-121-13-002-P). To help Ukraine
realize its agricultural potential, USAID/Ukraine awarded Chemonics International, Inc.,
$20.61 million to implement AgroInvest. In August 2012, USAID/Ukraine modified the
contract to decrease the total estimated cost by $1.85 million. This contract modification
also reduced the project’s scope of work but project implementation is still expected to run
from 2011 to 2016.

Despite several notable successes, the project is not achieving its main goal. Although
Chemonics hired well-qualified professionals to lead each of the project’s three components,
many of them did not have experience working on USAID-funded projects. That
unfamiliarity with USAID projects created a learning curve that slowed the awarding of
subawards, and consequently, the implementation of project activities. In addition, the poor
management of the subaward process and subsequent delays has led to a lack of results.
Poor management also has the potential to cause hardship for the beneficiaries and is
detrimental to the mission’s reputation.

Although AgroInvest’s staff prepared timely work plans outlining the activities that were to
be undertaken each year, the mission required them to perform additional, unscheduled
tasks that caused more delays. A communications program designed to help citizens
understand their land rights has still not been implemented almost 2 years into the
program. As a result, AgroInvest’s legal service providers confirm that rural landowners are
still largely uninformed about their land rights. Further, AgroInvest’s activities with banks
have yielded little to no results, costing the project time and effort.

Management decisions were made on all ten recommendations, and final action was taken
on one.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  26
United States Sues Jacintoport International for False Claims in Connection With the Delivery
of Humanitarian Food Aid. During an investigation, OIG provided information to the U.S.
Department of Justice, which filed a complaint against a cargo-handling firm headquartered
in Texas. The complaint was filed in a lawsuit initiated under the qui tam, or whistleblower,
provisions of the False Claims Act in connection with a warehousing and logistics contract
for the storage and redelivery of humanitarian food aid. As alleged in the government’s
complaint, the firm entered into a warehousing and logistics contract with USAID for the
storage and redelivery of emergency humanitarian food aid in 2007. This contract
contained explicit caps on the allowable rates to load humanitarian food aid onto ships
bound for crisis areas around the world. The complaint alleges that beginning around
January 2008 and continuing through at least October 2009, the firm regularly exceeded
these caps, resulting in inflated charges to the United States in connection with the delivery
of more than 50,000 tons of humanitarian food aid.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  27
Democracy, Human Rights, and Governance
                                                                    Significant Findings and
USAID’s efforts to promote democracy, human rights, and             Activities
good governance are multifaceted: They include supporting
                                                                     OIG’s audits note concerns
free and fair elections, civil society, and independent media, as   about sustainability in
                                                                    several programs.
well as protecting human rights, which includes countering
trafficking in persons. USAID recognizes that promoting              In USAID/Iraq’s Access to
                                                                    Justice Program, OIG finds
accountability and transparency in the countries they serve is      that the program is not
                                                                    achieving its objective to
key to these efforts.                                               improve the justice system
                                                                    nor meeting the majority of
OIG’s work during this reporting period helped identify             its performance indicators.

challenges in the areas of contract or project management,           OIG’s audit notes that
data quality, and internal controls. Audits also uncovered          USAID/Iraq’s Legislative
                                                                    Strengthening Program was
concerns about the sustainability of certain programs.              terminated before the
                                                                    implementation period was
                                                                    complete and did not
Audit of USAID/Iraq’s Access to Justice Program (Report No. 6-
                                                                    complete the tasks necessary
267-13-004-P).To access the legal system, Iraqis need to            to support a parliamentary
                                                                    institute or develop the
recognize and understand their rights and be able to prevent        capacity of members of
                                                                    Parliament and their staffs.
abuse of those rights and to obtain legal remedies when their
rights are violated. In September 2010, USAID/Iraq awarded
Tetra Tech DPK (DPK) a 5-year, $62.9 million contract, which
includes 2 optional years, to establish the Iraq Access to
Justice Program.

As of June 2012, DPK had approved 43 grants, primarily to
civil society organizations, worth about $3.7 million to
implement program activities. However, the program is not
achieving its objective and did not achieve the majority of its
performance indicators used to measure its success. For
instance, most of the activities were not sustainable. Ten of the
12 grantees the audit team visited—who used their funds to
implement new activities instead of continuing or expanding
old ones—said they would not be able to continue with their
projects without continued USAID/Iraq funding. All




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  28
12 grantees were conducting activities to raise the public’s awareness of the rights of
women and disabled people, training lawyers who provide services to vulnerable Iraqis,
producing and distributing video and radio awareness spots and programming, or
providing legal assistance and representation services to internally displaced people. One
grantee in Erbil used program funds to establish two legal clinics to provide internally
displaced people with legal assistance. The grant was completed in February 2012, and one
of the clinics closed because the grantee could not afford to operate two clinics.

The sustainability problems occurred mainly because DPK had awarded grants to
organizations to implement activities that were not part of their core programs. Investing in
activities that grantees cannot sustain impairs USAID/Iraq’s objective to improve
vulnerable and disadvantaged Iraqis’ access to the legal system. Not only did the award of
the ten grants for unsustainable activities cause the Agency to spend money on
unrecoverable costs, but the contractor also spent about $874,000 that could have been
transferred to existing civil society organizations to further stimulate their access to justice
projects.

DPK also did not document how grantees met the minimum eligibility requirements or the
evaluation criteria. In addition, the contractor did not design an adequate preaward risk
assessment. The chief of party said the only selection requirement was that prospective
grantees must have a successful track record of working with UN or U.S. Government
programs or be included in the contract with USAID/Iraq as a potential partner. However,
for several grantees, DPK had no documentation to prove that they had met this
requirement. In addition, some agreements did not include the human trafficking provision.
Mission and contractor officials said they were not aware of the requirement.

USAID made management decisions on all seven recommendations and took final action on
six.

Audit of USAID/Iraq’s Legislative Strengthening Program (Report No. 6-267-13-001-P).
USAID/Iraq awarded a cost-plus-fixed-fee contract to AECOM International Development in
May 2008 to design and later implement a program to support a parliamentary institute
and develop the capacity of members of parliament (MPs) and their staffs. In September
2011, however, Parliament’s leaders evicted AECOM from its office space and reneged on a
memorandum of understanding (MOU) with USAID that authorized the program to operate.




       USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  29
USAID/Iraq responded by terminating the contract with AECOM in November 2011. As of
December 2011, USAID/Iraq had spent $42.3 million.

OIG noted that the critical period for establishing the groundwork toward sustainable
institutional development was during the first 17 months of program implementation,
which was the timeframe that included the transition between the first and second
Parliaments. Although a USAID/Iraq-funded evaluation reported incremental
improvements in the legislative process and with various Parliamentary committees, OIG
found that AECOM’s performance had fallen short, and it had not achieved the program
objectives. OIG noted performance problems with both the implementer and the overall
contract management.

First, AECOM’s key deliverables were not completed on time. Also, by extending completion
dates, program activities, and deliverables beyond the original completion date, the mission
lost the window of opportunity to put into place the expected practices that needed to
become integral parts of the country’s political system. One of the key objectives was for
AECOM to develop and strengthen a parliamentary institute, but it was never established.
AECOM was also required to design and implement various information technology
systems, but not all systems were in use. Although AECOM was responsible for identifying
and providing training courses to MPs and their staffs, an independent evaluation found
that the training was not always adapted to Parliament’s needs. Finally, AECOM had
frequent turnover in the chief of party role—a position that is critical to managing program
operations—and this turnover affected priorities and management styles.

Second, OIG noted that the mission did not adequately manage implementation issues. For
instance, program spending was poorly monitored. USAID/Iraq’s contracting officers’
representatives approved monthly invoices averaging $1.3 million from January 2010
through November 2011, when AECOM was not keeping up with its contractual
requirements. In addition, the mission reimbursed AECOM almost $1.5 million for
unsupported costs that were considered unreasonable and unallowable, including $213,000
paid for unknown employees and $24,000 paid for 2 months of Internet connections while
only two employees were still in Iraq. The mission did not get Parliament to share program
costs, did not obtain an objective review of program sustainability in a timely manner, and




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  30
did not update the MOU with Parliament once new officials were in place in November
2011.

Because the program was terminated, OIG’s eight recommendations focus on improving the
design and management of future democracy and governance programs. Management
decisions were made on all eight recommendations, and final action has been taken on five.

Audit of USAID/Egypt’s Transition Support Grants Program (No. 6-263-13-002-P). Under the
Transition Support Grants Program, USAID/Egypt awarded more than $45 million to
16 Egyptian and 8 U.S. grantees between April and September 2011 to implement
democracy and governance activities. Although OIG found that the grants awarded under
the program met the minimum requirements set forth by federal guidance and Agency
policy, auditors identified several other issues.

OIG noted that 12 of the 24 NGOs were not on track to achieve their goals. For instance,
although the program began in April 2011, 11 of the NGOs had not obtained the necessary
approvals to receive foreign funding from the Ministry of Social Solidarity. On December 29,
2011, Egyptian security forces raided the offices of foreign and Egyptian NGOs and began
investigating NGOs that were not appropriately registered, including some that were
working under the Transition Support Grants Program, further delaying progress on
achieving goals. OIG determined that the mission did not make timely decisions to modify
grant agreements in reaction to the delays.

OIG noted that some funds were not used as intended: Two grantees had to use some of
their grant funds for bail and legal fees for several of their employees who had been charged
with operating without a license, receiving unauthorized foreign funds for activities, and
engaging in political activities. These employees were also not allowed to leave Egypt before
the trial, although that restriction was lifted on February 29 when the bail was paid. With
the review of USAID’s General Counsel, the Acting Chief Financial Officer authorized
USAID/Cairo to use Economic Support Fund money from the two grants to pay associated
legal fees, including bail costs. Therefore, the mission will need to adjust its plans and
reassess the expected outcomes, given the reduced funding available.

In addition, OIG determined that the mission’s oversight of one of the grantees, Human
Development Association, was weak. The organization did not comply with the grant’s




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  31
accounting, audit, and records clause and could not provide evidence to support
expenditures of more than $525,000.

USAID made management decisions on all six recommendations, and final action has been
taken on four.

Audit of USAID/Paraguay’s Northern Zone Initiative (Report Number 1-526-13-002-P). In
Paraguay, approximately 35 percent of the population lives below the poverty line.
Although the country’s gross domestic product has grown in recent years, the benefits have
not been distributed equally, and Paraguay has the 14th highest income disparity index in
the world. According to USAID/Paraguay, the rural poor in four territories (known as
“departments”) in the northeastern part of country resort to criminal activity to compensate
for the lack of income from legal sources. In addition, the communities have little faith in
local governments that are not able to provide adequate basic services. Last, the region is
plagued by the Ejército del Pueblo Paraguayo (Paraguayan People’s Army), a small
insurgent group that kidnaps wealthy citizens for ransom.

It was after one such kidnapping, mission officials said, that the government asked USAID to
help with a program to end the violence. USAID/Paraguay is implementing a $5 million
cooperative agreement with ACDI/VOCA to carry out a program called the Northern Zone
Initiative, which is intended to establish stability in four departments and reduce violence
and criminal activity.

The program seeks to improve local governance and generate income for poor farmers, and
OIG’s audit found that the program has made significant progress in these areas. However, it
is not yet clear that the program is making progress toward increased stability, and the
mission has scheduled a final evaluation to determine the program’s overall impact.

In addition, many project activities appear likely to be sustained after program assistance
ends, such as the maintenance of value chains16 for certain agricultural crops. Beneficiaries,
municipalities, and private sector partners have provided $2.6 million in contributions, and
several beneficiary institutions developed a budget for infrastructure project maintenance
to ensure sustainability.


16
   A value chain includes all activities required to produce a product or service and deliver it to the
final customer. Value chains include activities such as production, marketing, and distribution.




     USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  32
OIG made three recommendations to help the mission improve reporting of program
information and tracking training records for the Paraguay Northern Zone Initiative
Program, and USAID has taken final action on each of them.

Audit of USAID/West Bank and Gaza’s Civic Participation Program (Report No. 6-294-13-003-
P). Prior to 2007, Palestinian civil society organizations received significant funding from
various donors to support democracy-related activities. However, following the
establishment of a reconstituted Palestinian Authority (PA) that year, donor support shifted
from civil society organizations to PA institutions. The donor support remaining for
Palestinian civil society organizations was for short-term projects and was limited in scope,
rather than supporting long-term capacity development. In September 2010, USAID/West
Bank and Gaza awarded a 3-year cooperative agreement worth about $17.9 million to
Catholic Relief Services (CRS) to implement the Civic Participation Program (CPP). The
program was designed to help Palestinian civil society organizations reinvigorate
participation in government processes and strengthen civic participation in governmental
decision making.

CPP had many successes and made progress in supporting capacity development, increasing
public awareness of the importance of participating in public sector decision making, and
developing partnerships among civil society organizations. For instance, the program
completed 18 advocacy campaigns promoting participation in topics that are important to
local communities. One organization implemented a campaign advocating for the rights of
people with disabilities in their governorate.

However, the program had mixed results in achieving targets, and many of its subgrant
activities were behind schedule. As of June 2012, CRS still had not awarded 20 subgrants
planned for fiscal years 2011 and 2012. Congressional holds on appropriated 2011 foreign
aid to the Palestinians were the primary reasons the program fell behind. However,
subgrants were also affected by the canceled elections and the lack of clear instructions for
potential subgrantees on the intent of these particular subgrants. As a result, approximately
$2.4 million programmed for these subgrants was not used.

Of further concern, language in the program agreement raises the potential for future
conflict with U.S. law, specifically the Brownback Amendment. The amendment states that




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  33
organizations implementing USAID’s democracy and governance activities and the specific
nature of the assistance “shall not be subject to the prior approval by the government of any
foreign country.”17 The mission’s agreement with CRS required the organization to choose
grantees that are registered with the PA and that comply with all legal requirements,
including Palestinian law. Although OIG did not find any violations of the amendment,
auditors expressed concern about the possibility of PA choosing to restrict organizations’
participation in the future, which would then constitute a violation. Moreover, several West
Bank and Gaza mission officials interviewed during the course of the audit were not familiar
with the legal restrictions under the Brownback Amendment. USAID made management
decisions on all three recommendations, and final action was taken on one.

Audit of USAID/West Bank and Gaza’s Design for Sustainability for Selected Local Government
and Infrastructure Program Activities (Report No. 6-294-13-005-P). According to the
Palestinian Authority’s 2011–2013 national development plan, the national agenda includes
developing and improving the private sector, educational systems, and national and basic
infrastructure. In keeping with this plan, the Ministry of Local Government established a
5-year strategic framework that focuses on being “able to achieve sustainable development
with effective community participation.”

                                                               To help the ministry implement
                                                               that framework, USAID/West
                                                               Bank and Gaza awarded
                                                               Cooperative Housing Foundation
                                                               International (CHF) a 5-year,
                                                               $100 million cooperative
                                                               agreement to implement the
                                                               Local Government and
                                                               Infrastructure Program. The
                                                               program’s goal is to encourage
     USAID funds helped pay for the construction of this new   good local governance and
        school in the Palestinian village of al Mughayyir.
                         (Photo by CHF)

17Public Law 110-1617, Sec. 7034(m)(4). The Brownback Amendment was first included in the
Consolidated Appropriations Act of 2005 (P.L. 108-447), but until 2008 the language applied only to
democracy and governance assistance to Egypt.




      USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  34
provide basic infrastructure necessary to improve the quality of life for Palestinians in West
Bank and Gaza.

OIG’s audit examined whether USAID incorporated sustainability into selected program
activities. Although OIG found that the Agency did incorporate sustainability into some
activities, several areas needed to be addressed to ensure that all projects are sustainable.
These included, for example, performing assessments of beneficiaries’ capacity to sustain
projects, as with the Local Government and Infrastructure Program being implemented by
the Palestinian Authority’s Ministry of Education and Higher Education;18 consistently
following environment procedures, such as verifying that all environmental screening forms
were completed and approved before construction projects took place; and ensuring that
subcontracts include mandatory language to prevent human trafficking.

USAID has made management decisions on all five of the audit recommendations.




18According to the cooperative agreement, the sustainability framework required the beneficiaries
or local government units to demonstrate that resources were available from relevant institutions to
perform regular maintenance and repairs, and to operate the infrastructure to serve its primary
purpose. To confirm that beneficiaries have the capacity to sustain projects, the mission was
supposed to assess their staffing and financial resources.




     USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  35
Economic Growth and Trade                                          Significant Findings and
USAID works to promote international economic growth and           Activities

trade by supporting sound economic policies, mobilizing             OIG notes an absence of a
                                                                   steering committee to
entrepreneurs’ access to credit and markets, and supporting        coordinate and guide
private enterprise. Goals include building skills and capacity,    USAID/Georgia’s Economic
                                                                   Prosperity Initiative.
developing an enabling regulatory environment, and
                                                                    OIG finds lack of
encouraging market linkages.
                                                                   documentation and
                                                                   consistent understanding of
The most prevalent cross-cutting issue affecting USAID’s           the award process in USAID/
                                                                   Guinea’s Rural Micro-
economic growth and trade programs during this reporting           enterprise Development
period was contract or project management.                         Project.

                                                                    OIG notes a need for
Academy for Educational Development (AED) Pays Another             proper portfolio reviews,
                                                                   corrective action on
$5.4 Million Back to DOJ as Part of a Settlement Agreement. In
                                                                   deteriorating loans, and
July 2011, Pakistan’s National Accountability Bureau (NAB)         assurance that borrowers are
                                                                   not conducting activities that
announced that four men entered voluntary pleas for their roles    harm the environment in
                                                                   USAID/Haiti’s Development
in a bid-rigging scheme related to the USAID-funded Federally
                                                                   Credit Authority Activities.
Administered Tribal Areas (FATA) Livelihood Development
                                                                    In USAID/Jordan’s Cash
Program. The goal of the program was to provide social and         Transfer Activities,
                                                                   $1.2 million was used for
economic stabilization in FATA.
                                                                   prohibited purposes, such as
                                                                   spending on military and
The $150 million cooperative agreement with AED was                police activities and goods.
terminated for cause by USAID in June 2010 after an ongoing         OIG notes concern for lack
investigation by OIG and the FBI revealed indications of           of sustainability of USAID/
                                                                   Pakistan’s Jamshoro Thermal
widespread fraud. Under Article 25(A) of the NAB Ordinance         Power Station Repair and
                                                                   Rehabilitation Project.
(1999), the four men returned approximately $140,000 as part
of their agreement. AED entered into an agreement with the          USAID/West Bank and
                                                                   Gaza’s Palestinian
Department of Justice (DOJ) to pay back more than $5 million       Community Assistance
                                                                   Program is struggling to
and as much as $15 million. In April, 2013, AED made a third
                                                                   achieve its intended impact
payment to DOJ in the amount of $5.4 million. To date, AED has     in infrastructure and social
                                                                   and economic recovery.
paid back a total of $11,035,000.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  36
Audit of USAID/Egypt’s Trade Facilitation Project (Report No. 6-263-13-009-P). In June 2011,
nearly 4 months after Egypt’s revolution, USAID/Egypt started a 3-year, $10.9 million
contract with Nathan Associates Inc. to implement the Trade Facilitation Project. Designed
to improve Egypt’s trade, it included tasks to reform the country’s external trade and
internal trade measures; however, OIG determined that the project was not on track to
accomplish that goal. The project made progress on only three of the ten tasks it had
planned to accomplish: establishing a coordinated risk management system, finalizing
customs reforms, and improving intellectual property rights in the domestic market. The
remaining seven have not reported much progress.

Despite some success, the project faced several challenges—some of which were beyond the
mission’s control. One of the most significant was Egypt’s political instability. Since the
revolution in January 2011, the nation has been plagued by political uncertainty and social
unrest. For instance, transitions within the Egyptian Government delayed the project’s
progress because Nathan Associates’ employees had to spend a large portion of the first few
months trying to determine with whom they should work. Operating in such turbulent
conditions has hampered the project’s ability to have any significant effect on the trade
environment.

In addition, the contracting officer’s representative and the project’s chief of party believed
that in this tumultuous political environment, it was important for the team to respond to
and pursue new opportunities, even if the tasks were not in the original plan. As a result, the
project overextended its workload by adding an additional three tasks to the original ten.
Further, Nathan Associates did not develop a work plan to manage the project effectively in
the changing environment and was slow to update its monitoring and evaluation practices.
At the conclusion of the audit, the project’s second annual work plan was 6 months late and
still incomplete. Moreover, the project did not have a financial plan with budgets for each
task. As a result, by November 2012—midway through the project—it had spent only
$2.5 million, or 23 percent of the $10.9 million budget. With only 17 months remaining in
the contract, OIG does not believe the project will be able to spend the remaining
$8.4 million.

OIG issued nine recommendations to help the mission focus the project on tasks with the
highest potential for success in Egypt’s current political environment, and plan toward




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  37
achieving sustainable impact in these areas. Management decisions were made on all nine
recommendations and final action was taken on six.

Audit of USAID/Georgia’s Economic Prosperity Initiative (Report No. 9-114-13-001-P). In
September 2010, USAID/Georgia launched the Economic Prosperity Initiative (EPI) to
improve Georgia’s economic governance and private sector competitiveness through
increases in productivity, employment, foreign investment, access to local finance, and
exports. The mission is implementing the project through a $40.4 million cost-plus-fixed-fee
contract awarded to Deloitte Consulting LLP.

OIG determined that EPI has made progress toward its goals through activities in three
project components: an economic governance component that targets areas for
interventions selected in partnership with USAID and the Government of Georgia and two
private-sector components (agricultural and nonagricultural) that target market sectors.
Examples of economic governance interventions include a Web-based trade facilitation
system, tax administration reform, and electronic ID cards that beneficiaries laud for
improving transparency, access, and processing of business transactions. In its private-
sector components, the project has demonstrated success through a wide range of activities,
including its agricultural training and new export and tourism opportunities.

Despite these achievements, OIG noted several issues. For instance, linking economic
governance interventions directly to project goals is difficult because of the project’s design.
OIG also found that, although the contract lists a broad range of property rights issues to
address, the project’s efforts to strengthen property rights were limited to intellectual
property. Lack of progress on other property rights issues impedes economic growth in
Georgia.

OIG also found that the much of the progress reported by the contractor toward meeting the
contract’s foreign investment target represented a mix of commitments and completed
foreign investments, rather than solely the latter. In addition, 85 percent of the progress
reported toward meeting the contract’s export target did not represent exports to countries
outside of Georgia; instead, it reflected tourism occurring in Georgia and production of
greenhouse vegetables consumed in Georgia. Project officials consider the latter to be
import substitution equivalent to exports because it displaces imports from abroad.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  38
Additional problems included the lack of a steering committee to bring Government of
Georgia agencies and the mission together to prioritize the project’s economic governance
interventions; ambiguous contract provisions that led to impractical and resource-intensive
data collection; progress toward two project goals reported in a manner that was
inconsistent with the contract; and other contract requirements and benchmarks that were
not met. USAID made management decisions on the 13 OIG recommendations and has taken
final action on 1 recommendation.

Review of USAID/Guinea’s Rural Microenterprise Development Project (Report No. 7-675-13-
001-S). In 2011, USAID/Guinea awarded a 5-year, $1.9 million cooperative agreement to
Opportunities Industrialization Centers Guinea (OIC Guinea)19 to support the Guinea Rural
Microenterprise Development Project, which aims to help 772 farmers in the Fouta Djallon
highlands located in the center of the country. According to the agreement, 563 of the
farmers were women, and the farmers would work with six microenterprises formed by
groups such as beekeepers, ginger growers, and weavers, as well as with five local banks.

OIG found multiple problems with the program and USAID’s oversight. For example, the
mission did not maintain adequate award files. The agreement officer who began the
procurement process for this award did not leave any records or maintain any of the
concept papers. The senior agreement and assistance specialist did not seem to understand
the award process and provided inconsistent responses to the review team’s inquiries. In
addition, there was no documentation to support existing delegations of authority, and the
deputy program officer appointed himself the mission’s Development Grants Program
representative, technical evaluation committee chairman, and agreement officer’s
representative for the program. These actions—coupled with the deputy program officer’s
request that the award agreement include an unjustified initial advance of 30 percent of the
total award—undermined the project and significantly increased the risk of fraud, waste,
and abuse.

Monitoring of the program was also weak. Almost a year after the program began, the
mission still had not approved the work plan. Further, OIC Guinea’s budget preparation was



19   OIC Guinea is an affiliate of OIC International, a Philadelphia-based nonprofit organization.




      USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  39
poor and indicated a lack of knowledge of USAID policies. Because of a lack of monitoring,
the mission also did not notice that OIC Guinea had replaced the project manager.

USAID made management decisions on all five recommendations and has taken final action
on three.

Audit of USAID/Haiti’s Development Credit Authority Activities (Report No. 1-521-13-001-P).
USAID works to improve Haiti’s long-term financial stability through partial loan
guarantees that encourage private lenders to extend financing to underserved borrowers,
including farmers and enterprises in rural areas. According to USAID/Haiti, the
Development Credit Authority (DCA) program can boost Haiti’s economic recovery and
help rebuild the private sector by strengthening local lending to small and medium-sized
enterprises engaged in sectors such as agriculture, construction, tourism, handicrafts, and
waste management. USAID/Haiti maintains $37.5 million in active loan guarantees, and
OIG’s audit focused on the four largest, which constitute more than 80 percent of the
funding. The audit examined whether USAID/Haiti's DCA program is promoting greater
lending to underserved areas and borrowers.

Two of the three borrowers—Sogebank and Le Levier—were not implementing the loan
program as quickly as planned. Furthermore, USAID’s internal controls were not sufficient
to confirm that all loans met the DCA lending criteria or that they were going to entities in
targeted areas in the Northern and Saint-Marc corridors. OIG noted additional concerns,
such as the fact that loan information was sometimes outdated, incomplete, and inaccurate
(i.e., lenders submitted information about their loans after the deadline 80 percent of the
time, and the information sometimes contained or included only part of what was
required). Moreover, USAID did not review the loan portfolio properly or take corrective
action on deteriorating loans. Further, the mission did not confirm that financial institutions
made sure that borrowers were not conducting activities that harmed the environment.

OIG made 16 recommendations to improve USAID’s oversight of these activities. USAID has
made management decisions on all of them.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  40
Review of USAID/Jordan’s Cash Transfer Activities (Report No. 6-278-13-001-S).
USAID/Jordan has complemented its country development efforts with an annual cash
transfer program since 1997, by which the United States transfers U.S. dollars to the
Jordanian Government to help pay down its external, nonmilitary debt to the United States
and eligible multilateral institutions. In return, Jordan provides local currency (dinars) in an
amount equivalent to the cash transfer for development priorities that it has defined with
USAID, which include improvements in agriculture, education, and health.

In September 2007, USAID signed a 4-year assistance agreement with the Jordanian
Government to provide a total of $600 million in cash transfers. The agreement was later
increased to $1.2 billion and extended until 2014. The agreement seeks economic growth by
providing cash for payment of qualified debt—primarily debt owed to the U.S. Government
or multilateral financial institutions like the International Monetary Fund (IMF)—and by
encouraging policy reform through benchmarks prior to transferring cash to the Jordanian
Government. The agreement and its subsequent amendments set out timeframes for loan
payments and other specific information about how the agreement would be implemented
and monitored.

OIG conducted this review at the request of USAID/Jordan to determine whether the
mission has managed the cash transfer program in accordance with the agreement and
statutory requirements. The review disclosed that although the agreement was helping the
Jordanian Government pay its external debt to foreign lenders, USAID/Jordan generally did
not manage the agreement in accordance with the agreement and statutory requirements.
The mission did not fully document its local currency needs assessment or monitor funds
spent on specified activities. Approximately $1.2 million in local currency funds were used
for prohibited activities, such as spending on military and police activities and goods.
Moreover, the Jordanian Government withdrew funds before qualified debt payments were
reimbursed, comingled funds with its general budget, and deposited a portion of the funds
into non-interest-bearing accounts. Audits were also not conducted in accordance with the
agreement; the accounting firm the mission hired did not complete audits for 2008 and
2009 until 2010. In addition, neither the mission nor the Jordanian Government created
performance indicators and monitoring reports as required.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  41
OIG made 11 recommendations for USAID/Jordan to correct the above concerns, and USAID
has reached management decisions on all of them. Final action has been taken on five thus
far.

Audit of USAID/Kyrgyzstan’s Local Development Program (Report No. 5-116-13-001-P). In July
2010, USAID awarded a $27 million task order to Chemonics International Inc. to
implement the Local Development Program in Kyrgyzstan. The objective of this 3-year
program is to stimulate rapid, diversified, and sustained economic growth by supporting
local economic development. The program was designed to work primarily at the local level
to promote economic development through direct support to 24 targeted municipalities.

                                                       The program had several notable
                                                       achievements. It helped create a
                                                       guarantee fund in selected municipalities
                                                       that gave entrepreneurs access to larger
                                                       sums of capital and the opportunity to
                                                       invest more in their businesses to acquire
                                                       supplies, equipment, or other items
                                                       needed to expand their operations. It also
                                                       worked with tour operators in
                                                       Kazakhstan and Kyrgyzstan to initiate air
 A vendor at a bazaar in Jalal-Abad displays part of
    her expanded inventory of women’s shoes
                                                       service to the popular Issyk-Kul Lake
    acquired through a loan guarantee activity         region beginning in June 2011. Flights
       supported by USAID. (Photo by OIG)
                                                       have since doubled in frequency during
the tourism season, and further expansion of service is planned. The program also repaired
a major irrigation canal in one of the target municipalities, increasing water availability to
certain plots in the area by 50 percent while providing irrigation to large tracts of land that
had not received water in 21 years.

OIG determined that program activities were generally not producing the economic results
envisioned in the target municipalities, largely because most of the program’s activities
started later than planned. Program implementation delays occurred because of
management programs, delays in fielding the management team and local staff, high staff
turnover, the decision to conduct assessments to determine which economic sectors to




       USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  42
focus on and what activities to fund, and the creation of formal working groups. As a result,
many activities are not expected to achieve their full potential for generating economic
growth until the program is over, assuming they are sustainable.

In addition, data used to show the economic impact of the program was found to be
unreliable, and USAID’s ability to measure the program’s overall performance and progress
was hindered. This data, tracked under a series of performance sub-indicators, was
generally found to be overstated and not directly or clearly attributable to USAID-funded
efforts. The late start-up of the program’s monitoring and evaluation contributed to this
data deficiency.

OIG made two recommendations, and USAID made management decisions on both. Final
action has been taken on one recommendation.

Audit of USAID/Pakistan’s Design for Sustainability in the Jamshoro Thermal Power Station
Repair and Rehabilitation Project (Report No. G-391-13-001-P). USAID/Pakistan is assisting
the Government of Pakistan in improving the energy sector with the Jamshoro Thermal
Power Station Repair and Rehabilitation Project and two other thermal energy projects in
Guddu and Muzaffargarh. A thermal plant owned by the Government of Pakistan, Jamshoro
is one of the major power stations connected to the national electricity grid. In 2010,
USAID/Pakistan entered into an agreement with the Government of Pakistan to provide
$18.4 million to repair and rehabilitate the Jamshoro Thermal Power Station by purchasing
new equipment. By 2012, USAID/Pakistan amended the agreement to increase funding to
$19.3 million. USAID/Pakistan hired a U.S.-based engineering contractor, Advanced
Engineering Associates International Inc. (AEAI), to implement the project. In addition, the
mission tasked a local organization, Associates in Development, to help improve policies
and procedures and to train power station employees on the new procedures.

The project has shown its commitment to completing the project and achieving its goals. As
of November 2012, the power station had procured USAID-funded equipment, including the
drain valves, and $2 million worth of equipment with its own resources. Notwithstanding
USAID’s efforts, without Government of Pakistan’s policy reforms, this project will not
achieve sustainability. Factors beyond the mission’s control, such as a lack of Government of
Pakistan policy reforms relating to energy subsidies and the purchase of a less expensive




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  43
                                                                   energy supply, will affect the
                                                                   financial sustainability of the
                                                                   power station after the
                                                                   project is completed.


                                                                   The Government of Pakistan
                                                                   subsidizes the power sector,
                                                                   of which Jamshoro and other

                                                                   thermal plants (Guddu and
 This project at the Jamshoro Thermal Power Station is replacing
           drain valves; the bright silver ones are new.           Muzaffargarh) are part. From
                          (Photo by OIG)                           2008 to 2012, the power
station’s total revenue was $1.4 million, while it spent approximately $1.5 million to operate
the plant. The government subsidized the shortfall. Further, the power station now uses
more expensive furnace oil instead of natural gas to generate power, and the cost of energy
production for the plant has tripled since the switch. Furnace oil is also harder on the
equipment. A power station official noted that with natural gas, one piece of very expensive
equipment required replacement every 7 years. However, after using furnace oil
continuously, the station had to replace this piece of equipment after about 18 months. The
overall wear and tear on equipment has caused the plant to generate less than its original
850-megawatt capacity, further increasing costs and diminishing investment in plant
maintenance.

In addition, according to the monitoring plan, the power plant was to increase output by
50 megawatts by September 2012 and by 150 megawatts by June 2013. However, it has not
achieved its interim target because of several factors, including delays in shipping and a fire
that damaged the plant’s cooling tower. Moreover, many substantial activities remain. No
draft manuals on accounting and financial management, internal audit, human resources,
and information technology have been provided to the power station for review and
comment, and no training had been conducted on updated policies and procedures.

OIG made three recommendations. USAID has made management decisions on all three and
taken final action on one.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  44
Audit of USAID/Vietnam’s Support for Trade Acceleration Plus Project (Report No. 5-440-13-
004-P). To help the Vietnamese Government institute the changes necessary to comply with
its trade agreements, USAID began the Support for Trade Acceleration (STAR) Project in
2001 and then continued in 2006 with STAR II, which ended in 2010. Continuing the work
performed under these projects, USAID/Vietnam awarded an $11.7 million time-and-
materials task order contract to DAI/Nathan Group to implement STAR Plus from October
2010 through September 2013.

Although progress has been made, OIG found that it was difficult to determine its extent
because of performance monitoring problems. Most of the indicators mission officials used
were inadequate, targets were set too low, and reported results were not reliable.

In addition, cash and in-kind contributions were not tracked. The approved 2012 project
work plan states that counterparts would be asked to contribute to activity costs, and the
Vietnamese Government pledged to contribute $883,000 through cash or in-kind support.
Although OIG found that the project demonstrated the ability to use such resources, neither
DAI/Nathan Group nor the mission made any effort to quantify or record contributions. For
example, the Vietnamese Government provided cash and in-kind contributions for capacity-
building workshops. However, the contractor did not attempt to quantify the monetary
value of contributions or understand what specific activity areas they funded. Mission
officials said that they never thought of asking the contractor to track contributions and that
DAI/Nathan Group officials said quantifying such resources is difficult. The organization did
not want to be held accountable by mission officials or others for accuracy.

Under other matters, OIG also highlighted the undesirable time-and-materials contracting
mechanism used for the $3 billion Support for Economic Growth and Institutional Reform
(SEGIR II) indefinite quantity contract, from which STAR Plus is funded. These types of
contracts are considered the least desirable because they do not give the contractor any
incentive to control costs. Therefore, OIG suggested that USAID/Washington consider
reviewing SEGIR II.

USAID reached management decisions on all five recommendations and has taken final
action on two.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  45
Audit of USAID/West Bank and Gaza’s Palestinian Community Assistance Program (Report No.
6-294-13-006-P). To help Palestinians build a better future through social and economic
relief and recovery in Gaza, USAID in 2010 awarded a 3-year, $100 million cooperative
agreement to Mercy Corps to implement the Palestinian Community Assistance Program.
The program works to address the infrastructure recovery needs of Gazans through
tangible improvements in community infrastructure and housing; to support economic
recovery and development through the creation of income-generating and business
development opportunities; and to address the social recovery needs of Gazans through
tangible improvements in food security, education, health, and psychosocial services.

Mercy Corps implemented some of the program activities directly and awarded subgrants
to CHF International (CHF), Catholic Relief Services (CRS), American Near East Refugee Aid,
Save the Children Federation Inc., CARE International, International Medical Corps, and
International Orthodox Christian Charities to implement additional activities.

OIG found that the program made some improvement in the lives of Gazans and met some
of its performance measures, as noted by USAID’s 2012 annual report. However, it fell
significantly behind schedule and is unlikely to meet its overall goal to improve the lives of
640,000 Gazans by addressing infrastructure, economic, and social recovery needs in the
time remaining for implementation. Funding uncertainty and vetting delays have had a
negative effect on the program, and it has struggled to achieve its intended impact in
infrastructure and in economic and social recovery.

OIG noted that some program activities did not meet beneficiary needs. For example, some
of the rehabilitation work on houses was shoddy, and products distributed by the program,
such as soaps, detergents, and toothbrushes, were of poor quality. In addition, problems
with CRS’s process of identifying beneficiaries’ eligibility denied some households
distributions to which they were entitled.

Other problems were noted with performance tracking and monitoring and evaluation,
including the existence of too many performance indicators and inaccurately reported
results.

OIG recognized the challenging environment in which implementers are working—an
uncertain security situation, restricted access, political sensitivity in terms of government
permits and approvals, and travel restrictions. However, OIG did make seven




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  46
recommendations to help strengthen the implementation of USAID/West Bank and Gaza’s
Palestinian Community Assistance Program. These included implementing only those
activities that are realistically achievable and will likely have the greatest impact and
improving monitoring and evaluation and performance measurement systems. USAID has
made management decisions on each of the recommendations.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  47
Education
                                                                     Significant Findings and
                                                                     Activities
USAID’s education programs work to improve early grade
reading, expand access to education and workforce development,        In its audit of USAID/
                                                                     Egypt’s Education Support
educate children and youth in crisis and conflict, and provide       Program, OIG finds that the
                                                                     majority of performance
training to address skill and knowledge gaps among mid- and          goals were exceeded at the
high-level managers and professionals in other countries.            end of the program’s first
                                                                     year and that training
                                                                     programs had been
OIG’s audits of USAID education programs during this reporting       successful, with more than
period noted some successes but also concerns about program          11,000 people trained. OIG
                                                                     notes concerns, however,
sustainability.                                                      with the program’s
                                                                     sustainability, delays in
                                                                     implementing crisis
Audit of USAID/Egypt’s Education Support Program (Report No. 6-      management training and a
263-13-008-P). USAID has supported educational programs in           gender strategy, and
                                                                     recording training activities.
Egypt for more than 35 years, committing nearly $1.3 billion to
                                                                      USAID/Jordan’s Education
support school access, gender equity, and community                  Support Program is making
participation in schools and professional development for            progress with renovations of
                                                                     kindergarten classrooms,
teachers and educational leaders. During that time, Egypt has        career counseling centers,
                                                                     and counselor offices, and
made significant strides in education, with 98 percent of children   more than 10,000 individuals
enrolled in primary school in 2010, compared with just               have been trained. However,
                                                                     OIG found that some sports
69.5 percent in 1970. According to USAID, following the              areas did not meet quality
                                                                     standards.
January 2011 revolution, the mission and the Egyptian Ministry
of Education were concerned that these gains were in jeopardy.
Therefore, USAID awarded a cooperative agreement worth
approximately $18.6 million to American Institutes for Research
(AIR) in September 2011 to implement the Education Support
Program, which is expected to conclude in 2014. The program
builds upon a previous $80 million program that ended in 2010
and is designed to support professional development and
community involvement in educational decision making and
quality improvement.

OIG found that AIR had met or exceeded the majority of its
performance goals at the end of the program’s first year, training




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  48
more than 33,000 newly hired assistant teachers and social workers in core teaching
skills. Similarly, employees in more than 250 district-level social work departments were
trained, and people in these departments had, in turn, trained members of more than
11,000 school boards of trustees. The sessions appeared to be well received and were
supported by the assistant teachers, who said they were helpful. Because the program
worked closely with the Ministry of Education’s Professional Academy for Teachers to
certify more than 40 training programs, the ministry can use these to train teachers in the
future.

Despite these successes, the overall effect of activities on school board capacity and
teacher performance is unclear. The mission and AIR had no mechanisms in place to
determine whether these training efforts had any impact on boards of trustees’ capacity
and teacher performance. Among OIG’s other concerns were the sustainability of the
program, delays in implementing crisis management training and a gender strategy, and
compliance with recording training participation.

OIG made three recommendations for improving the program, for which USAID has made
management decisions. USAID has taken final action on one recommendation.

Audit of USAID/Jordan’s Education Reform Support Program (Report No. 6-278-13-007-P).
Because the quality of education in Jordan is uneven—especially in poor urban and rural
areas—many students have not been taught the skills they need to succeed. Moreover, the
curriculum and teaching techniques have not changed much over time. Realizing this
shortcoming, the Jordanian Government implemented its Education Reform for the
Knowledge Economy (ERfKE) initiative in 2003. USAID/Jordan awarded Creative
Associates International, Inc., a 5-year, $50 million cooperative agreement to implement
the Education Reform Support Program. The program’s objective was to help the education
sector develop the capacity to implement and sustain ERfKE through four components:
(1) early childhood education; (2) youth, technology, and careers development;
(3) improved professional development and certification; and (4) increased capacity to
manage school-based systems.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  49
OIG’s audit of the program
determined that the mission is
making progress. For example, OIG
found that the renovations of
kindergarten classrooms, career
counseling centers, and counselors’
offices met Ministry of Education
standards and that the program
renovated, furnished, and equipped
199 kindergarten classrooms and
playgrounds throughout Jordan. It
                                          This kindergarten playground at Khawla Bint Al Azwar
also established 18 career
                                          Primary School in Ajloun is one of many that USAID is
counseling centers and 168                                     renovating.
counselors’ offices in schools to                            (Photo by OIG)

involve parents and the community in student activities and to enable counselors to
conduct career exploration sessions and organize student internships. Moreover, the
program helped train more than 10,000 teachers, principals, school supervisors, and other
administrative professionals.

Despite the progress, OIG found that some renovated sports areas did not meet minimum
standards, after the agreement officer’s representative had earlier voiced concerns about
the quality of the work. OIG also identified some problems with the accuracy of
performance data and meeting targets, as well as two subagreements that did not include
the mandatory human trafficking provision. OIG made eight recommendations to improve
program performance and ensure compliance with requirements. USAID has taken final
action on all of the recommendations.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  50
Financial Management
                                                                        Significant Findings and
During this reporting period, OIG audited USAID’s financial             Activities
statements for fiscal years 2012 and 2011 and issued a report on
                                                                         OIG issues a qualified
USAID’s Compliance With the Improper Payments Elimination and           opinion on USAID’s fiscal
                                                                        year 2012 principal financial
Recovery Act of 2010.                                                   statements.

Audit of USAID’s Financial Statements for Fiscal Years 2012 and 2011     Material weaknesses are
                                                                        found with USAID’s
(Report No. 0-000-13-001-C). OIG issued a qualified opinion on          reconciliation of the fund
                                                                        balance with the U.S.
USAID’s principal financial statements for fiscal year 2012 and an      Treasury and recording
unqualified opinion on the 2011 financial statements. OIG found no      adjustments to the general
                                                                        ledger. OIG also reported one
instances of substantial noncompliance with requirements for            significant deficiency in the
                                                                        Agency’s annual Federal
federal financial management systems, federal accounting
                                                                        Information Security
standards, or the U.S. Standard General Ledger at the transaction       Management Act report.

level. However, OIG reported one significant deficiency in the           OIG notes six significant
                                                                        deficiencies in internal
Agency’s annual Federal Information Security Management Act
                                                                        controls.
report, which was classified as an instance of substantial
noncompliance with Section 803 (a) of the Federal Financial
Management Improvement Act of 1996.

With respect to internal controls, OIG identified two deficiencies
that are considered material weaknesses: USAID’s processes for
reconciling its fund balance with the U.S. Treasury and for recording
adjustments to the general ledger. In addition, OIG identified six
deficiencies in internal controls that are considered significant.
These deficiencies pertain to USAID’s processes for (1) reconciling
loans receivable, (2) reviewing and deobligating unliquidated
obligations, (3) accounting for advances, (4) estimating and
recording accounts payable and accrued expenses, (5) recording
payroll deductions and calculating entitlement payments, and
(6) reconciling intragovernmental transactions. OIG made six
recommendations; USAID made management decisions on all of
them, and final action was taken on one.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  51
Report on USAID’s Compliance With the Improper Payments Elimination and Recovery Act of
2010 (Report No. 0-000-13-001-S). USAID management is responsible for complying with the
requirements of the Improper Payments Elimination and Recovery Act of 2010 (IPERA).
OIG is responsible for evaluating USAID’s reporting on improper payments in the Agency
financial report and accompanying materials and determining whether the Agency
complied with IPERA.

OIG determined that for fiscal year 2012, USAID complied in all material respects with
IPERA requirements. However, OIG noted certain deficiencies in the Agency’s internal
controls over improper payments. Although these deficiencies do not affect the Agency's
compliance with IPERA, the controls should be improved to provide reliable reports in
accordance with IPERA.

OIG found that USAID did not investigate and resolve 12 potential funds control violations
in a timely manner. Violations that may represent improper payments and/or Anti-
Deficiency Act violations were reported to USAID between August 2011 and November
2012 but were not investigated and resolved as of February 2013. Additionally, USAID did
not identify and report one improper payment in a timely manner because it did not
consider it to be an improper payment. OIG found that a grantee was not eligible for
payments in advance of providing services but that the grantee did withdraw $553,000
before rendering the services.

Management decisions were reached on OIG’s three recommendations.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  52
Gender Equality and Women’s Empowerment
                                                                   Significant Findings and
USAID’s programs to promote gender equality and women’s            Activities
empowerment focus on reducing gender disparities in access          OIG’s audit of the gender
to, control over, and benefit from resources, wealth,              program in Pakistan finds
                                                                   that the program has made
opportunities, and services; reduce gender-based violence and      progress in expanding
                                                                   women’s access to justice,
mitigate its harmful effects on individuals; and increase          combating gender-based
capability of women and girls to realize their rights, determine   violence, and strengthening
                                                                   organizations that advocate
their life outcomes, and influence decision making in              women’s rights. However,
                                                                   OIG finds that program
households, communities, and societies.
                                                                   grants designed to combat
                                                                   gender based violence were
OIG’s audit of the gender equity program in Pakistan focused       too short to have a lasting
                                                                   impact on the intended
on USAID activities designed to encourage citizens’                beneficiaries and their
participation in social change and governance; enable women        budgets were too small.
                                                                   Because grants were small
to acquire control over their lives through greater access to      and of short duration, the
                                                                   work performed suffered.
information, resources, and institutions; and improve attitudes    OIG also notes only limited
and behavior toward women.                                         site visits to assess program
                                                                   progress.

Audit of USAID/Pakistan’s Gender Equity Program (Report No.         An OIG investigation leads
                                                                   to improvements in internal
G-391-13-002-P). In August 2010, USAID/Pakistan and the
                                                                   controls at the Aurat
Aurat Foundation, a local nongovernmental organization,            Foundation, a Pakistani NGO
                                                                   implementing USAID’s
signed a $40 million cooperative agreement to implement the        Gender Equity Program.
Gender Equity Program. The goal of the program is to facilitate
behavioral change—in particular, to encourage citizens’
participation in social change and governance at all levels;
enable women to acquire control over their lives through
greater access to information, resources, and institutions; and
improve attitudes and behavior toward women.

USAID/Pakistan’s Gender Equity Program has made progress
on all three objectives reviewed: expanding women’s access to
justice, combating gender-based violence, and strengthening
organizations that advocate women’s rights. As of November
2012, the implementer had awarded approximately 150 grants




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  53
to organizations throughout the country. Of these, 110 (73 percent) were awarded under
the objective of combating gender-based violence. In addition, the program funded research
with the National Commission for the Status of Women to strengthen the Government of
Pakistan’s policy on gender equity. The program also awarded grants to support gender
studies in public universities across the country, creating a network for sharing knowledge,
research, and experiences. Further, program grants supported 152 young female lawyers
gaining practical experience in defending women’s legal rights.

However, OIG found several weaknesses that still need to be addressed. Program grants
designed to combat gender-based violence were too short to have a lasting effect on the
intended beneficiaries, and their budgets were too small. Because grants were small and of
short duration, the work suffered. For instance, a grantee celebrating Pakistani Women’s
Day in Sindh Province was able to reach only 600 people out of tens of thousands of
potential beneficiaries.

Another issue concerned site visits. Mission officials made only 11 site visits, a majority of
which occurred after OIG had begun auditing this program. Of the 11 site visits reported by
the mission, only 3 were documented. Given that the site visits involved only 9 of the more
than 150 subgrants made over the past 2½ years, the site visits covered fewer than
10 percent of the subgrantees. Consequently, the mission has not verified progress but has
relied on the results reported by the prime implementer.

Management decisions were made on the two recommendations, and final action was taken
on one.

Pakistani NGO Implementing a $44 Million Project Improves Internal Controls Following an
OIG Investigation. In mid-2012, OIG initiated an investigation into allegations of conflicts of
interest on the part of a senior official of the Aurat Foundation, the Pakistani NGO
implementing USAID’s Gender Equity Program. The program is designed to empower
women and promote their rights through grants to civil society organizations addressing
these issues. OIG’s investigation revealed a preexisting relationship between the Aurat
Foundation official and representatives of organizations receiving program grants. Despite
the appearance of a possible conflict of interest, the investigation did not reveal any
evidence of inappropriate conduct in the grant process. In the course of conducting the




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  54
inquiry, however, OIG investigators learned that the Aurat Foundation did not have a
conflict-of-interest policy as required by its cooperative agreement with USAID. OIG notified
USAID/Pakistan of this noncompliance, and the Aurat Foundation established the required
policy in December 2012.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  55
Global Health                                                          Significant Findings and
USAID’s global health programs work to combat and prevent              Activities

HIV/AIDS, tuberculosis, malaria, neglected tropical diseases,           Data quality problems are
                                                                       noted in approximately half
pandemic influenza, and other emerging threats. They also focus on     of programs audited.
health delivery systems, maternal and child health, and nutrition in
                                                                        OIG finds a need for better
vulnerable populations.                                                performance monitoring in
                                                                       programs implemented by
Oversight during this reporting period covered programs dealing        USAID/Benin, USAID/
                                                                       Cambodia, and USAID/
with general health (including maternal and child health), malaria,    Philippines.
and tuberculosis. The primary cross-cutting audit finding dealt         OIG cites inventory
with data quality, although OIG also found some problems with          problems in antimalaria
                                                                       programs overseen by
internal controls and contract or project management.                  USAID/Benin and
                                                                       USAID/Tanzania.
Audit of Commodities Funded Under the President’s Malaria
                                                                        In OIG’s audit of
Initiative in Zambia (Report No. 4-611-13-002-P). Under the            USAID/Southern Africa’s Use
                                                                       of Waivers From Full and
President’s Malaria Initiative, USAID has provided more than           Open Competition for
                                                                       HIV/AIDS Programs, OIG
$96 million since 2008 through fiscal year 2011 to help Zambia
                                                                       finds that information used
combat malaria. As part of USAID’s increasing emphasis on using        to prepare a report to
                                                                       Congress was neither
host-nation systems, USAID/Zambia has relied on the Zambian            complete nor accurate
                                                                       because of procedures used
Government to store and distribute PMI-funded
                                                                       to prepare the report. As a
commodities. USAID initiated projects and programs with four           result, Congress did not have
                                                                       comprehensive, correct
partners to procure the commodities and help carry out the             information about the
malaria initiative.                                                    Agency’s use of waivers to
                                                                       competition.

OIG conducted this audit to determine whether commodities that
PMI paid for were reaching their intended beneficiaries in Zambia.
OIG found that some commodities were reaching beneficiaries as
intended; drugs were in stock in the 30 health facilities the audit
team visited, and tests were in stock at 25 of those facilities.

However, USAID/Zambia did not manage the risks of using
Zambian systems to store and distribute PMI commodities, and the
audit team found problems at every stage of the process. OIG also




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  56
found that four out of five PMI-supported
districts had used leftover insecticide
after the spray season, despite officials’
expectations that it would be stored and
used for the following season. Auditors
attributed this problem to the lack of
guidance from Zambia’s National Malaria
Control Center.

In addition, OIG found that some of
                                                  A woman in Zambia’s Ndola District shows
USAID/Zambia’s performance data for              mosquito nets that she received from USAID.
malaria-related indicators did not meet                        (Photo by OIG)

standards and conflicted with data reported from partners. Staffing constraints and
turnover contributed to the mission’s data quality problems. OIG also found that one of
USAID/Zambia’s implementing partners, Society for Family Health, distributed about 500
PMI-funded nets to its employees inappropriately. Its distribution plan did not provide for
employees to receive the nets, nor did the partner confirm that the employees met
designated criteria before distributing them.

Finally, conventional USAID branding and marking practices were less effective because
USAID/Zambia used Zambian systems to distribute PMI-funded commodities to
beneficiaries. Some people interviewed attributed the commodities to the Zambian
Government; others believed that USAID’s implementing partners had donated the items
they were distributing. USAID/Zambia officials had questioned whether they wanted to
emphasize USAID’s sponsorship, given the Agency’s goal of strengthening Zambian systems.
However, OIG noted that minimizing the U.S. Government’s role is contrary to requirements
under the Foreign Assistance Act of 1961 and Agency policy.

The report contained seven recommendations to strengthen the management of
commodities funded under the PMI in Zambia. USAID reached management decisions on all
seven and has taken final action on two.

Audit of USAID/Angola’s HIV/AIDS Activities (Report No. 4-654-13-006-P). Angola’s decades of
civil war ended only in 2002, leaving the country with few health facilities and not enough
trained doctors and nurses. Although recent economic growth in Angola has expanded




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  57
medical services, many health-care workers still are poorly trained, threatening the
country’s response to HIV. USAID/Angola has worked with the Angolan Government to
formulate a national HIV/AIDS strategy to address U.S. Government priorities and Angolans’
HIV/AIDS needs. The strategy focuses on strengthening health systems, changing behaviors
to help prevent HIV infection, and improving data needed to support decision making in the
health sector.

To help achieve these goals, USAID/Angola undertook several HIV/AIDS programs in fiscal
years 2011 and 2012, of which OIG reviewed four—representing awards of $61.4 million.
The audit found that key HIV/AIDS activities were not on track to achieve main goals and
that significant program delays negatively affected the four programs. Although the
implementing partners’ poor performance contributed to this outcome, USAID/Angola did
not manage its HIV/AIDS programs effectively during the audit period, primarily because of
staffing vacancies. However, USAID/Angola had filled these vacancies by September 2012
and was poised to show positive results in its future HIV/AIDS programming.

During the audit, OIG also noted problems with data collection, verification, and target
setting; use and reporting of program income; and coordination between two partners
doing complementary work. There were also difficulties with implementing an advocacy
program because a locally selected organization was reluctant to work with target
populations, and OIG found a lack of awareness of USAID’s sponsorship of the programs.

OIG made 14 recommendations to strengthen USAID/Angola’s HIV/AIDS activities. USAID
has made management decisions on 12 and taken final action on one.

Audit of USAID/Benin’s Efforts to Treat and Prevent Malaria (Report No. 7-680-13-001-P).
USAID/Benin works with eight prime partners to prevent and treat malaria under the
President’s Malaria Initiative. OIG reviewed three PMI awards implemented by John Snow,
Inc., Management Sciences for Health (MSH), and Medical Care Development International
(MCDI).

OIG determined that the mission has met its goals for PMI-related activities. In 2011,
hospitals and health workers used the 17,000 malaria treatment kits purchased by the
mission. USAID/Benin contributed 600,000 rapid diagnostic tests and gave health facilities
509,100 artemisinin-based combination therapies (ACT) for uncomplicated malaria.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  58
Additionally, results from Benin’s 2011–2012 Demographic Health Survey confirmed that
USAID and donor efforts in the fight against malaria are having a significant impact. The
number of households that own a bed net has increased from 25 to 80 percent in 5 years.
Moreover, the number of children under the age of 5 who reported a fever in the previous
2 weeks dropped from 29 to 9 percent, indicating that prevention activities are effectively
reducing the number of new infections among children.

Despite these results, OIG noted a number of issues that need to be addressed.
Implementers did not follow World Health Organization and Benin Government guidelines
for diagnosing malaria. Failure to follow those procedures could result in unnecessary
treatment that could build resistance to antimalarial drugs and lead to an overstatement of
the number of malaria cases. Benin health centers were struggling with the adverse effects
of the government’s new free drug policy because the centers were not being reimbursed
for the drugs they disbursed. Without reimbursement, centers found it difficult to replenish
antimalarial drugs and other essential medications.

                                                      In addition, OIG noted problems related
                                                      to inadequate monitoring and oversight
                                                      of USAID/Benin’s PMI program. The
                                                      lack of inventory controls for
                                                      antimalarial drugs and bed nets could
                                                      lead to products being handled
                                                      improperly, misused, or stolen, and
                                                      communities may not be protected from
                                                     the environmental and health hazards of
Empty bed-net bags pile up at the Tchatchou Health   improper and untimely disposal. The
      Center in the Department of Borgou.            mission did not perform data quality
                 (Photo by OIG)
                                                     reviews of MSH’s PMI-related activities
to ensure that supporting documentation was retained, preventing OIG from verifying the
program’s reported results. Finally, the mission did not adequately manage the MCDI-led
consortium’s award, and as a result, activities either never started or began late. OIG is also
concerned that the departure of key staff has added to the problem of inadequate
monitoring and oversight.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  59
OIG made seven recommendations. USAID has reached management decisions on all seven
and taken final action on three of them.

Audit of USAID/Cambodia’s Better Health Services Project (Report No. 5-442-13-002-P).
USAID awarded a $33.6 million cooperative agreement to University Research Co. LLC
(URC) to implement the Better Health Services Project (BHSP), a follow-on effort from the
Health Systems Strengthening in Cambodia Project, implemented by URC from 2003
through 2008. The main goals of BHSP are to strengthen health-care capacity at the
provincial and operational district levels and to support health-care reform efforts aimed at
improving the quality and efficacy of key programs.

OIG determined that BHSP has strengthened health delivery systems and improved the
quality of maternal and newborn health services at the provincial and “operational” health
district levels. For instance, the project introduced a Web-based health management
information system to encourage more timely and reliable submission of health data. The
project also supported the expansion of services with health equity financing—a funding
arrangement that improved access to health services for the poor by covering their fees and
transportation to receive treatment. The quality of care provided in health facilities
supported by the project has also improved because of better hygiene, sterilization of
medical equipment, and proper waste management.

However, the project has not yet demonstrated strengthened management and control of
infectious disease—one of the project’s key components. This component calls for
strengthening disease surveillance to improve case identification, analysis, and
interpretation to monitor the spread of infectious diseases, planning preventive measures,
adjusting staffing and other resources to correspond to health needs, and responding to
outbreaks. However, the project has made little headway on this component. In the second
year of the program, attention shifted away from the country’s most prevalent diseases
(HIV/AIDS) to avian flu, a high-profile though rare disease for which the Global Fund20 had
increased resources in 2009. When these resources dwindled in 2010, so did the project’s
surveillance efforts, despite continued funding from USAID. As a result, public health



20The Global Fund is a public-private partnership formed to channel resources to prevent and treat
HIV/AIDS, tuberculosis, and malaria and to reduce infections, illness, and death.




     USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  60
facilities do not have mechanisms to classify infectious diseases properly, identify
outbreaks, or respond to them when they occur.

In addition, the mission’s performance monitoring was inadequate. Information in the
project’s database did not match the results reported to the mission or supporting records,
and data quality assessments were not adequately performed by the mission, hindering
their ability to detect this problem. OIG also found that the project’s performance indicators
in the performance monitoring plan were regularly modified without explanation or
justification, creating difficulty in ascertaining progress over the course of implementation.
Moreover, unauthorized changes were made to the project when the mission gave a
subaward to a project outside the program’s scope.

OIG also determined that patient complaints were not properly documented, tracked, or
addressed. Responding to patient complaints and preventing recurring problems are critical
in strengthening public and private health services delivery systems and improving public
confidence in them. OIG made eight recommendations. USAID has made management
decisions on seven and taken final action on two.

Audit of USAID-Funded Net Distribution Activities Implemented by Mennonite Economic
Development Associates in Tanzania (Report No. 4-621-13-003-P). The Government of
Tanzania hopes to increase the percentage of households owning at least one insecticide-
treated bed net from 36 percent in 2007 to 90 percent by 2013. Activities designed by the
Government of Tanzania to reach this target have included mass distributions of free bed
nets and the Tanzania National Voucher Scheme21 (TNVS). Distributions funded by USAID
have been through two cooperative agreements given to Mennonite Economic Development
Associates (MEDA). The first, the Extension of Tanzania National Voucher Scheme (ETNVS),
was valued at $25.1 million and implemented from 2006 to 2011. The second was the
Achievement and Maintenance of Comprehensive Coverage of Long-Lasting Insecticide-
Treated Nets in Tanzania (AMCC), valued at $40 million and implemented from 2009 to
2013. Although the agreements were similar, AMCC overlapped ETNVS for more than
20 months.



21Created by the Tanzanian Government and originally funded by the Global Fund to Fight AIDS,
Tuberculosis and Malaria.




     USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  61
OIG determined that the USAID-funded projects have contributed to increases in bed net
ownership and decreases in malaria but that MEDA has been slow to address challenges
and make improvements. As a result, although MEDA distributed bed nets in mass
campaigns, TNVS activities were not as effective as they could have been. For example,
MEDA recognized as early as 2009 that shortages of vouchers at district medical offices and
clinics and shortfalls of bed nets at participating retailers limited the effectiveness of TNVS
operations. However, MEDA did not introduce procedures to collect, monitor, and analyze
inventory data until 2012. In addition, Tanzanian medical officials, participating retailers,
and program beneficiaries were generally unaware of the U.S. Government’s role in the
voucher scheme.

MEDA’s activities were not as successful for two reasons. First, stakeholders questioned
whether MEDA had the capacity needed to implement mass bed net distributions and TNVS
activities simultaneously. Although MEDA was selected competitively, USAID received little
response from other implementers because of MEDA’s historic involvement in the country’s
net distributions. Second, MEDA’s annual work plans, which USAID had approved, were not
comprehensive and did not address all TNVS challenges. Further, key activities that were
included in the work plans did not define dates by which specific steps would be taken,
making it difficult for USAID to monitor progress. Despite their flaws, USAID approved these
work plans because of competing priorities and the ongoing difficulties with performance
management documents.

USAID reached management decisions on five of nine OIG recommendations and took final
action on one.

Audit of USAID/Haiti’s Prevention of Sexual Transmission of HIV/AIDS Program (Report No. 1-
521-13-004-P). To support HIV/AIDS prevention, USAID/Haiti initiated its Prevention of
Sexual Transmission of HIV/AIDS (PrevSIDA) program in September 2010. The 4½-year
program had two components that were implemented by World Vision and Population
Services International (PSI) at $9 million and $8.9 million respectively. However, World
Vision did not perform as expected and the mission ceased funding the agreement after
15 months of implementation.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  62
OIG determined that PSI has made limited progress toward their component’s goals. In the
first year of the program, PSI concentrated on conducting studies to determine baselines.
While PSI released one study in 2011, other program-funded studies were either delayed
significantly or had not yet begun. As a result, PSI also did not provide all of the baseline
data required by the agreement and some reported results were overstated. In addition,
because PSI is not responsible for reporting on the impact of the program and the next HIV
prevalence survey will not be available until 2 years after the program has ended, USAID
will not know the effect of the program for several years.

According to officials at Haiti’s Ministry of Public Health and Population, PSI did not keep
government counterparts informed about activities in all regions. Furthermore, PSI’s
activities did not reach all the targeted groups because PSI encountered difficulties
implementing effective outreach efforts. Moreover, PSI stated it would incorporate gender-
specific activities into its program but did not.

Management decisions have been reached on seven of eight recommendations, and final
action was taken on one.

Audit of USAID/Indonesia’s Maternal and Child Health Integrated Program (Report No. 5-497-
13-003-P). USAID awarded Jhpiego, an affiliate of Johns Hopkins University, a total of
$9.8 million in funding under Indonesia’s Maternal and Child Health Integrated Program
(MCHIP). This funding covered a 3-year period from January 2010 through December 2012,
with activities taking place in three remote districts throughout the country. Originally
designed as a 2-year, $4.8 million program, MCHIP funding was increased to $9.8 million, its
timeframe extended for an additional year, and its scope expanded. The program served to
fill the gap between the end of the mission’s Health Services Program (2010) and the
beginning of the Expanding Maternal and Neonatal Survival Project (2012). Jhpiego
implemented the program in collaboration with Save the Children and John Snow, Inc.

Although MCHIP made some progress in training health-care workers, government officials,
and community members, it was not clear how much maternal, newborn, and child health-
care services had improved in the three districts covered by the program because the data
reported was not reliable.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  63
USAID/Washington’s Division of Maternal and Child Health of the Office of Health,
Infectious Diseases and Nutrition is responsible for overseeing MCHIP in 30 different
countries, including Indonesia. As part of the global program, MCHIP Indonesia submitted
monthly updates on its progress to Jhpiego’s MCHIP headquarters in Washington, D.C. The
numbers reported to headquarters often were as much as 250 percent higher than the
numbers reported from the districts. This reporting error might not have happened if
MCHIP’s global performance management plan had been followed. According to that plan,
the mission was required to perform a data quality assessment, but mission officials said
they did not do one because of the short-term nature of the program. However, when the
program was extended for a third year—and its budget doubled—the mission still made no
plans to perform a data quality assessment.

USAID made a management decision on OIG’s one recommendation.

Audit of USAID/Southern Africa’s Tuberculosis Activities (Report No. 4-674-13-001-P). With
many programs already targeting HIV and AIDS, USAID/Southern Africa has modeled its
Tuberculosis (TB) program for South Africa on the U.S. Government’s global TB strategy for
2009–2014 and redoubled efforts to integrate TB and HIV services. The mission’s short-
term goal was to help strengthen South African health systems and capacity in several
areas, including controlling infection at service delivery points and raising the TB treatment
success rate (TSR) to 85 percent. To conduct TB-related activities, USAID/Southern Africa
entered into agreements with 13 implementing partners. OIG focused on three partners,
including University Research Co., LLC (URC), Hospice Palliative Care Association of South
Africa, and BroadReach Healthcare, whose total health-care projects were valued at more
than $195 million.

OIG confirmed that the mission’s activities were strengthening systems and capacity in
several critical areas, including infection control. For example, the mission trained health-
care personnel in TB case management, TB/HIV collaboration, and infection control. USAID
also helped the South African Government develop patient registers and other data
collection tools to manage its TB program effectively and integrate TB and HIV activities.
Other activities were effective in improving laws, policies, regulations, and guidelines
related to improved access and use of health services, including those for TB patients.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  64
However, several issues were still outstanding. To begin with, URC was not on track to raise
the TSR to 85 percent, partly because it was not planning sufficient steps to meet the target.
URC’s original work plan did not include TSRs, and although a subsequent submission
mentioned them, it offered no specifics on how the target would be achieved. Further, the
approach used to implement the program—district rotation—undercut their ability to
sustain improved treatment rates. In addition, because the South African Government pays
stipends to individuals who have active TB, some patients do not finish their treatment for
fear of losing their stipend.

Data collection and reporting also needed improvement. In one case, the mission reported
that 88 percent of TB patients registered at surveillance sites were tested for HIV, while
elsewhere the mission stated that 153,088 TB cases were reported by USAID-supported
districts. From these facts, readers could infer that 88 percent of 153,088 registered TB
patients were tested for HIV, when in fact only 57,511 were tested. This data error occurred
because the mission included data from all projects in South Africa that were directly or
indirectly receiving U.S. Government support in reporting the number of registered TB
cases, while the percentage of those tested was derived only from facilities receiving direct
U.S. Government support. The USAID contracting officer’s representative for the URC
contract confirmed that the HIV testing rate of TB patients in indirectly supported facilities
during 2011 was unknown because URC did not have access to data in these facilities. These
data limitations were not disclosed in the mission’s 2011 annual performance plan and
report.

USAID made management decisions on all four OIG recommendations.

Audit of USAID/Philippines’ Private Sector Mobilization for Family Health Project, Phase II
(Report No. 5-492-13-005-P). In October 2009, USAID/Philippines signed a 5-year,
$34.9 million task order contract with Chemonics International Inc. to implement the
Private Sector Mobilization for Family Health Phase II Project. The goal of the project is to
develop a sustainable private sector market for family planning products and maternal and
child health products and services.

OIG found a number of positive results. For instance, national and local government policy
support contributed to an increase in the use of modern contraceptive methods provided by




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  65
the private sector, though this did not represent an increase in overall usage. In addition,
the project’s training-of-trainer program for midwives can help expand accreditation
opportunities, which in turn can help increase both access to services by the poor and the
economic viability of the midwives’ private practices.

Despite these positive results, OIG determined that the project was only partially achieving
its goal and noted several project management problems. The monitoring and evaluation
plan was weak, impairing the ability to make decisions based on project results. The plan
contained missing and irrelevant indicators, missing and flawed baselines, and missing
targets. In addition, the performance data for several of the relevant indicators were not
useful for decision-making because they were not clearly defined, valid, precise, or reliable.

The mission’s delayed response time in approving contractor-submitted documents and
requests has also hindered the project’s ability to determine progress and respond
accordingly. For instance, the mission did not approve the final monitoring and evaluation
plan until 31 months after the project began.

OIG found that insufficient training outreach has limited the project’s effectiveness. After 31
months of implementation, the mission had cut the number of target areas from 77 to 36,
recognizing that the original number was overly ambitious. Even with only 36 target areas,
however, training coverage remains weak. In addition, OIG concluded that the contractor’s
strategy to work with the employment sector on workplace initiatives is insufficient, with
an expected roll out to only 13 of the 36 target areas.

Finally, the contractor exceeded approved project disbursements by $737,676 when the
mission was delayed in approving a contract modification request. Without an approved
modification, the terms of the contract were exceeded, and the amounts in excess of the
allowable expenditures could have been considered unallowable. Management decisions
have been reached on all nine OIG recommendations, and final action has been taken on
five.

Audit of USAID/Southern Africa’s Use of Waivers From Full and Open Competition for
HIV/AIDS Programs (Report No. 4-674-13-007-P). Although USAID policies generally
encourage the use of competition, for more than a decade the Agency has allowed limited or
no competition in awarding HIV programs based on “the urgent need to meet . . . ambitious




    USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  66
targets.” On December 19, 2000, the USAID Administrator signed a memorandum that
allowed the use of other than full and open competition for grants, cooperative agreements,
and contracts through 2007, and the policy was later extended to 2013.

In addition to increasing spending on HIV programs, USAID was allocating a much higher
proportion of its funding to programs awarded by overseas missions. The combination of
these factors greatly increased the applicability of the HIV waiver at USAID/Southern
Africa’s Regional Acquisition and Assistance Office (RAAO). In fiscal years 2011 and 2012,
RAAO issued new awards or modifications to existing awards that included HIV
components worth almost $2.4 billion for programs in Angola, Botswana, Lesotho, Malawi,
Madagascar, Namibia, South Africa, Swaziland, and Zimbabwe.

OIG found that USAID/Southern Africa was using waivers appropriately and that RAAO
generally complied with the requirements stated in the HIV waiver. However, the
requirements dictated only what RAAO needed to do when the waiver was used, not how to
determine whether it should be used. In addition, although the audit focused on the HIV
waiver—the most commonly used exception to competition—RAAO used other exceptions
as well. The audit found that RAAO had also complied with the various rules and regulations
for these exceptions.

OIG also assessed how USAID’s procurement reforms were affecting the use of the waivers
and found that reforms that encourage the use of local organizations increased the use of
limited competition. Many of the new awards issued for HIV programs in South Africa were
limited to local organizations. While the competition was technically limited, the number of
capable civil society organizations in that country led to robust competition. Although
awards limited to local organizations could constrain competition, competition would still
be greater than it would be if sole-source awards were issued on the basis of another
exception.

Procurement reform could also affect waivers with the increased use of host-government
systems. USAID missions in South Africa and Malawi determined that they could implement
programs through their respective host-country governments, although neither had
arranged the details of the programs. However, giving more funds to host-country
governments might reduce both use of the HIV waiver and competition by making less




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  67
funding available for programs implemented by NGOs, for-profit companies, and public
international organizations.

OIG identified one issue with reporting to the Agency’s competition advocate22 about the
use of waivers—information that is used to prepare a report for Congress. The information
that USAID/Southern Africa submitted was neither complete nor accurate because of
inadequate procedures used by RAAO to prepare the report. As a result, Congress did not
have comprehensive, correct information about the Agency’s use of waivers to competition.

OIG’s report includes one recommendation, to strengthen USAID’s use of waivers from full
and open competition, for which final action has been taken.




22The agency competition advocate is a position required by Federal Acquisition Regulation 6.501.
Among other things, the advocate is responsible for promoting full and open competition, including
identifying new initiatives to increase it.




     USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  68
Information Management
                                                                     Significant Findings and
OIG’s audit of USAID’s information management systems                Activities
during this reporting period documented concerns about
                                                                      OIG finds that a risk
whether regulations and procedures are being complied with,          management program is
                                                                     needed to ensure that
as well as a concern about a significant number of open              policies and procedures are
recommendations from prior audits.                                   assessed and working as
                                                                     intended.

Audit of USAID’s Fiscal Year 2012 Compliance With the Federal         OIG identifies a substantial
                                                                     number of open FISMA-
Information Security Management Act of 2002 (Report No. A-           related recommendations
000-13-003-P). The Federal Information Security Management           from previous audits.

Act of 2002 (FISMA) requires agencies to develop, document,
and implement an agency-wide information security program
to protect their information and information systems, including
those provided or managed by another agency, contractor, or
other source. The act also requires agencies to have an annual
assessment of their information systems.

OIG concluded that although USAID has developed and
documented a majority of the information security policies and
procedures required under FISMA, management’s
implementation of these policies and procedures has not been
effective. OIG noted that USAID has not established an effective
risk management program to ensure that policies and
procedures are assessed and working as intended. The lack of
an effective risk management program, combined with a
substantial number of open FISMA-related recommendations
identified at the time of the audit (i.e., from prior audits),
represents a significant deficiency in the security of enterprise-
wide information systems, including USAID’s financial systems.

OIG made 21 recommendations to improve USAID’s
information security program and compliance with FISMA.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  69
USAID made management decisions on each of the 21 recommendations, and final action
was taken on four.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  70
Management Capabilities
                                                                   Significant Findings and
OIG’s audits during this period reviewed USAID’s badge             Activities
program and its suspension and debarment process.
                                                                    Improvements are needed
                                                                   in controls to prevent
Audit of Selected Controls Over USAID Badges Used To Access        unauthorized access to
                                                                   USAID facilities.
USAID Facilities (Report No. A-000-13-004-P). USAID’s Office
of Security issues badges to grant the recipient physical           OIG’s follow-up review of
                                                                   USAID’s suspension and
access to Agency space. OIG initiated this audit to determine      debarment process finds that
                                                                   the Agency has corrected all
whether USAID implemented selected controls over its               previously identified
badges to prevent unauthorized access to USAID facilities.         problems.

OIG determined that USAID did not, and made nine
recommendations to help strengthen controls over badges
used to access Agency facilities and three to address other
matters of concern. OIG acknowledged that USAID made
management decisions on each of the 12 recommendations.

Follow-Up Review of USAID’s Process of Suspension and
Debarment (Report No. 9-000-13-002-S). Suspensions and
debarments are measures imposed on irresponsible
contractors to protect the government’s financial interest
and to reduce waste, fraud, and abuse in federal programs. A
suspension is temporary, pending the completion of an
investigation or legal proceeding, and a debarment lasts for a
fixed time that depends on the seriousness of the cause but
generally does not exceed 3 years.

In 2009, OIG issued the “Audit of USAID’s Process for
Suspension and Debarment”23 and found that the Agency’s
suspension and debarment process hindered the Office of
Acquisition and Assistance (OAA) from taking appropriate
suspension and debarment actions. OIG determined that



23   Report No. 9-000-10-001-P, issued on October 1, 2009.




      USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  71
OAA did not execute those actions properly, and the documentation for them frequently
was incomplete. As a result, OIG made 12 recommendations to OAA to help it strengthen the
Agency’s suspension and debarment process. USAID agreed with all of them. In this follow-
up review, OIG determined that USAID had corrected all the problems and taken effective
actions.

In one example, OIG previously had determined that USAID’s decision-making processes for
suspension and debarment actions were not effective. It stated that the entities in charge of
suspension and debarment had too many other responsibilities that hindered them from
taking such actions. Therefore, the Agency established the Compliance and Oversight of
Partner Performance (COPP) Division in 2011, to improve the suspension and debarment
processes. COPP now leads USAID’s suspension and debarment program in Washington,
D.C., and overseas and is responsible for making recommendations to the suspending and
debarring official regarding administrative actions. This effort has increased the number of
actions COPP has taken. OAA took only 9 actions in fiscal years 2003 through 2007, whereas
COPP has taken 145 actions from October 2010 through July 2012.

Finally, COPP reports suspension and debarment data monthly, quarterly, and annually to
the Agency, and it posts excluded individuals on COPP’s web page. These reports help
Agency officials respond to requests for information from a variety of sources such as
Congress, contractors, recipients, and USAID staff.

OIG made no new recommendations.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  72
              Significant Recommendations Described Previously
                                    Without Final Action
                                                USAID
                           October 1, 2012–March 31, 2013

 Section 5(a)(3) of the Inspector General Act of 1978 requires each inspector general
 to identity each significant recommendation described in previous semiannual
 reports on which corrective action has not been completed.

                                                                                   Final
   Report                                        Issue     Rec.   Management      Action
                    Subject of Report
   Number                                        Date      No.    Decision Date   Target
                                                                                   Date
                                                            2       01/15/09      05/31/13
                  Audit of Engender Health's
                                                            3       01/15/09      05/31/13
 1-511-09-004-P   Management of Activities 01/15/09
                                                            7       04/27/09      05/31/13
                  Financed by USAID/Bolivia
                                                            8       04/27/09      05/31/13
                  Audit of USAID's
                  Compliance with the
A-000-10-001-P    Federal Information           11/17/09    15      11/17/09      05/31/13
                  Security Management Act
                  for Fiscal Year 2009
                  Audit of USAID's
                  Compliance with the                       3       11/09/10      06/30/13
                  Federal Information                       8       11/09/10      06/30/13
A-000-11-002-P                                  11/09/10
                  Security Management Act                   10      11/09/10      06/30/13
                  of 2002 for Fiscal Year                   25      11/09/10      02/28/15
                  2010
                  Audit of USAID's Financial
 0-000-11-001-C   Statements for Fiscal Years 11/12/10      1       11/12/10      08/31/13
                  2010 and 2009
                  Audit of USAID'S HIV/AIDS
7-681-11-003-P*                                 02/04/11    2       02/04/11      09/30/13
                  Activities in Côte d'Ivoire
                 Review of USAID/
F-306-11-005-S** Afghanistan's Afghan        08/31/11       7       02/14/12      09/30/13
                 Civilian Assistance Program




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  73
                                                                                 Final
  Report                                       Issue     Rec.   Management      Action
                   Subject of Report
  Number                                       Date      No.    Decision Date   Target
                                                                                 Date
                 Audit of USAID/
                 Afghanistan's On-budget
                 Funding Assistance to the
F-306-11-004-P   Ministry of Public Health    09/29/11    6       09/29/11      04/15/13
                 in Support of the
                 Partnership Contracts for
                 Health Services Program
                 Audit of
                 USAID/Tajikistan's
5-119-12-001-P                                10/28/11    2       10/28/11      05/31/13
                 Productive Agriculture
                 Program
                 Audit of USAID/Pakistan's
G-391-12-001-P                                11/03/11    5           –            –
                 Firm Project

                                                           1      11/15/11      04/30/13
                                                           2      11/15/11      05/31/13
                                                           4      01/24/12      04/30/13
                                                           6      11/15/11      06/30/13
                                                           7      11/15/11      04/30/13
                                                           8      11/15/11      04/30/13
                                                           9      11/15/11      06/30/13
                 Audit of USAID's Fiscal                  13      11/15/11      12/31/13
                 Year 2011 Compliance                     14      11/15/11      06/30/13
A-000-12-003-P   With the Federal             11/15/11    15      11/15/11      04/30/13
                 Information Security                     21      11/15/11      06/30/13
                 Management Act of 2002                   22      11/15/11      04/30/13
                                                          23      11/15/11      04/30/13
                                                          24      11/15/11      04/30/13
                                                          25      11/15/11      04/30/13
                                                          27      11/15/11      04/30/13
                                                          29      11/15/11      04/30/13
                                                          31      11/15/11      03/31/14
                                                          34       1/24/12      04/30/13

                 Audit of USAID/Angola's
4-654-12-006-P   Public-Private Partnerships 02/27/12     7       08/28/12      05/31/13
                 for Development
                 Audit of USAID/Iraq's
E-267-12-003-P   Electoral Technical          03/22/12    11      09/13/12      05/31/13
                 Assistance Program
                 Audit of USAID's Contracts               1       06/15/12      11/30/13
A-000-12-004-P   for Cloud Computing          04/12/12    3       04/12/12      11/30/13
                 Services                                 5       04/12/12      06/30/13




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  74
                                                                                 Final
  Report                                       Issue     Rec.   Management      Action
                   Subject of Report
  Number                                       Date      No.    Decision Date   Target
                                                                                 Date
                 Audit of USAID/Haiti's                    1      04/27/12      04/27/13
                 Watershed Initiative for                  6      04/27/12      04/27/13
1-521-12-003-P   National Natural             04/27/12     7      04/27/12      04/27/13
                 Environmental Resources                   8      04/27/12      04/27/13
                 Program                                  10      04/27/12      04/27/13
                 Audit of USAID's Office of
4-613-12-008-P   Foreign Disaster Assistance 05/10/12     1       05/10/12      04/16/13
                 Activities in Zimbabwe
                 Audit of USAID/Pakistan's
G-391-12-006-P   Support to the Benazir       05/21/12    3       05/21/12      05/21/13
                 Income Support Program
                 Audit of USAID/
                 Philippines'
5-492-12-005-P   Microenterprise Access to    05/24/12    1       05/24/12      05/24/13
                 Banking Services Program,
                 Phase Four
                                                           2      05/25/12      05/31/13
                 Audit of USAID/South
                                                           3      11/26/12      04/30/13
                 Sudan's Programs
4-668-12-009-P                                05/25/12     5      05/25/12      04/30/13
                 Implemented by Mercy
                                                           7      05/25/12      04/30/13
                 Corps
                                                          13      05/25/12      04/30/13
                 Follow-Up Audit of                       2       12/11/12      04/30/13
4-668-12-010-P   USAID/South Sudan's Road 06/13/12        3       06/13/12      04/30/13
                 Infrastructure Activities                4       12/11/12      07/12/13
                 Audit of USAID/
                 Afghanistan's Internal                    2      06/25/12      04/30/13
                 Controls in the                           6      06/25/12      04/30/13
F-306-12-003-P                                06/25/12
                 Administration of the                     8      03/27/13      06/25/13
                 Involuntary Separate                     10      01/15/13      04/30/13
                 Maintenance Allowance
                 Audit of Commodities
                 Funded Under the
4-615-12-011-P                                06/28/12    1       06/28/12      06/28/13
                 President's Malaria
                 Initiative in Kenya
                 Review of USAID/Regional
                 Development Mission for
5-493-12-001-S                                07/12/12    6       07/12/12      04/30/13
                 Asia's Coral Triangle
                 Support Partnership
                 Audit of USAID/Sri Lanka's
                                                          1       07/16/12      07/16/13
5-383-12-006-P   Supporting Regional          07/16/12
                                                          2       07/16/12      07/16/13
                 Governance Program




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  75
                                                                                 Final
  Report                                      Issue      Rec.   Management      Action
                   Subject of Report
  Number                                      Date       No.    Decision Date   Target
                                                                                 Date
                 Audit of USAID/Haiti's
                                                           8      08/27/12      04/05/13
1-521-12-004-P   Public Law 480 Title II     07/20/12
                                                          10      08/27/12      07/01/13
                 Programs
                 Audit of USAID/Colombia's                6       08/14/12      07/07/13
1-514-12-005-P                               08/14/12
                 Access to Justice Program                8       08/14/12      07/07/13
                 Audit of USAID/Pakistan's
G-391-12-007-P   Reconstruction Program in 08/16/12       3       08/16/12      08/16/13
                 Earthquake-Affected Areas
                 Audit of USAID/Barbados'
1-534-12-006-P   Eastern Caribbean           08/17/12     11      08/17/12      05/15/13
                 Community Action Project
                 Audit of USAID/Kosovo's                   1      08/21/12      08/21/13
9-000-12-004-P   Activities for Economic     08/21/12     11      08/21/12      08/21/13
                 Growth                                   13      08/21/12      08/21/13
                 Audit of USAID/Pakistan's
G-391-12-008-P   Gomal Zam Multipurpose      08/24/12     1       08/24/12      08/24/13
                 Dam Project
                 Review of
                 USAID/Caucasus's Public
2-114-12-006-S                               08/29/12     2       08/29/12      08/29/13
                 Hospital Infrastructure
                 Project
                 Follow-Up Audit of
                 USAID/Mexico's Rule of
1-523-12-007-P                               09/07/12     2       09/07/12      05/31/13
                 Law and Human Rights
                 Program
                 Survey of USAID's Efforts to
                                                          2       09/18/12      04/30/13
9-000-12-002-S   Address Its Backlog of       09/18/12
                                                          4       09/18/12      04/30/13
                 Expired Awards
                                                           1      09/19/12      05/31/13
                                                           4      09/19/12      08/30/13
                 Audit of USAID/Peru's
1-527-12-008-P                               09/19/12      8      09/19/12      08/30/13
                 Environmental Activities
                                                           9      09/19/12      08/30/13
                                                          10      09/19/12      06/01/13




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  76
                                                                                   Final
    Report                                        Issue    Rec.   Management      Action
                      Subject of Report
    Number                                        Date     No.    Decision Date   Target
                                                                                   Date
                                                             1      09/27/12      08/30/13
                                                             2      09/27/12      08/30/13
                                                             3      09/27/12      08/31/13
                                                             4      09/27/12      08/31/13
                    Audit of USAID's Small
                                                             5      09/27/12      08/31/13
 9-000-12-005-P     Business Utilization        09/27/12
                                                             6      09/27/12      08/31/13
                    Practices
                                                             7      09/27/12      08/31/13
                                                             8      09/27/12      08/31/13
                                                             9      09/27/12      08/31/13
                                                            10      09/27/12      08/30/13
                    Audit of USAID/Pakistan's               1       09/30/12      06/30/13
 G-391-12-009-P     Assessment and              09/30/12    2       09/30/12      06/30/13
                    Strengthening Program                   3       09/30/12      06/30/13



* With the Department of Treasury for cross-servicing

**In appeal with the Procurement Executive




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  77
                                Incidents in Which OIG
                     Was Refused Assistance or Information
                                          USAID
                           October 1, 2012–March 31, 2013
Section 6(b)(2) of the Inspector General Act of 1978 requires an inspector general to report
to the head of the agency whenever requested information or assistance is unreasonably
refused or not provided.

During this reporting period, there were no reports regarding instances in which
information or assistance was unreasonably refused or not provided.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  78
                                      Financial Audits
              Associated Questioned Costs, Unsupported Costs, and
           Value of Recommendations That Funds Be Put to Better Use
                                               USAID
                              October 1, 2012–March 31, 2013
     Report        Date of                    Report Title                    Amt. of    Type of
     Number        Report                                                     Findings   Findings
                                                                               ($000)
                                  Foreign Government Funding

G-391-13-005-R     10/31/12    Financial Audit of the Cash Transfer Grant,     2,402       QC24
                               USAID Grant No. 391-012 Implementation          1,718       UN25
                               Letter No. 3, for the Period From
                               September 30, 2009, to June 30, 2010;
                               Managed by Higher Education Commission
G-391-13-006-R     11/01/12    Financial Audit of the USAID/Pakistan
                               Program Assistance Agreement No. 391-MUZ-
                               FARA-004-00, Managed by the Northern
                               Power Generation Company Limited, for the
                               Period From May 20, 2010, to June 30, 2011
G-391-13-007-R     11/08/12    Financial Audit of the Program Titled            193        QC
                               "Malakand Reconstruction and Recovery
                               Program," USAID/Pakistan Housing Cash
                               Transfer Grant Agreement No. 391-011,
                               Implementation Letter No. HSG-02, for the
                               Year Ended June 30, 2011; Managed by
                               Provincial Disaster Management Authority
                               (PDMA)/Provincial Relief, Rehabilitation and
                               Settlement Authority (PaRRSA)
G-391-13-008-R     11/15/12    Financial Audit of the USAID/Pakistan
                               Program Assistance Agreement No. 391-JAM-
                               FARA-003-00, Managed by the Jamshoro
                               Power Company Limited, for the Year Ended
                               June 30, 2011




24   Questioned costs
25   Unsupported costs




      USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  79
  Report         Date of                   Report Title                      Amt. of    Type of
  Number         Report                                                      Findings   Findings
                                                                              ($000)
G-391-13-009-R   12/03/12   Financial Audit of the USAID/Pakistan
                            Program Assistance Agreement No. 391-
                            PEPA-ENR-GOMAL-PIL-001, Managed by the
                            Water and Power Development Authority, for
                            the Year Ended June 30, 2011
G-391-13-010-R   12/03/12   Financial Audit of the USAID/Pakistan
                            Program Assistance Agreement No. 391-TDR-
                            FARA-002-00, Managed by the Water and
                            Power Development Authority, for the Year
                            Ended June 30, 2011
G-391-13-011-R   12/05/12   Financial Audit of the USAID/Pakistan
                            Program Assistance Agreement No. 391-
                            PEPA-ENR-SATPARA-PIL-001, Managed by the
                            Water and Power Development Authority, for
                            the Year Ended June 30, 2011
G-391-13-012-R   12/18/12   Financial Audit of the USAID/Pakistan
                            Program Assistance Agreement No. 391-SWA-
                            FARA-001-00, Managed by the Federally
                            Administered Tribal Areas Secretariat, for the
                            Year Ended June 30, 2011
G-391-13-013-R   12/18/12   Financial Audit of the USAID/Pakistan
                            Program Assistance Agreement No. 391-AAG-
                            011-SWA-Tank, Managed by the Federally
                            Administered Tribal Areas Secretariat, for the
                            Year Ended June 30, 2011
G-391-13-014-R   12/18/12   Financial Audit of the USAID/Pakistan
                            Program Assistance Agreement No. 391-013,
                            Project Implementation Letter for the Kaur-
                            Gomal-Tanai-Wana Road, Managed by the
                            Federally Administered Tribal Areas
                            Secretariat, for the Year Ended June 30, 2011
G-391-13-015-R   12/18/12   Financial Audit of the USAID/Pakistan
                            Program Assistance Agreement No. 391-013,
                            Project Implementation Letter for the Re-
                            activation and Rehabilitation of Damaged
                            Transformers, 33 KV High Tension and 11 KV
                            Low Tension Lines, Managed by the Federally
                            Administered Tribal Areas Secretariat, for the
                            Year Ended June 30, 2011




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  80
  Report         Date of                   Report Title                    Amt. of    Type of
  Number         Report                                                    Findings   Findings
                                                                            ($000)

                                Programs and Operations

0-000-13-001-C   11/16/12   Audit of USAID’s Financial Statements for
                            Fiscal Years 2012 and 2011

                              Foreign-Based Organizations

0-111-13-001-R   10/10/12   Audit of the Enterprise Incubator Foundation
                            Under USAID Cooperative Agreement No.
                            AID-111-A-09-00004 for Fiscal Year Ending
                            December 31, 2011
0-121-13-002-R   10/12/12   Audit of the Ukrainian Association of Local
                            Governments "Association of Ukrainian
                            Cities" (AUC) Under USAID Cooperative
                            Agreement No. 121-A-00-10-00703-00 for
                            Fiscal Year Ended December 31, 2011
0-000-13-003-R   10/15/12   Audit of the European Cooperative for Rural
                            Development (EUCORD) Under USAID
                            Cooperative Agreement No. GHO-A-00-09-
                            00008-00 for Fiscal Year Ended December
                            31, 2011
0-000-13-004-R   10/16/12   Audit of Christian Aid Under Agreement Nos.
                            GPO-A-00-05-00021-00 and 620-A-00-07-
                            00071-00 for Fiscal Year Ended March 31,
                            2009
0-000-13-005-R   10/17/12   Audit of Christian Aid, Under Multiple
                            Agreements for Fiscal Year Ended March 31,
                            2010
0-118-13-006-R   10/23/12   Audit of the Foundation for Information
                            Policy Development (FIPD), Under USAID
                            Agreement No. 118-A-00-04-00061 for Fiscal
                            Year Ended December 31, 2011
0-118-13-007-R   10/26/12   Audit of the Centre for Social and Labor
                            Rights (CSLR) Under USAID Cooperative
                            Agreement No. 118-A-00-04-00047-00 for
                            Fiscal Year Ended December 31, 2011
0-118-13-008-R   11/05/12   Audit of the Center for Fiscal Policy,            4         QC
                            Consulting Group Under Multiple
                            Agreements for Fiscal Year Ended
                            December 31, 2011




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  81
  Report         Date of                   Report Title                      Amt. of    Type of
  Number         Report                                                      Findings   Findings
                                                                              ($000)
1-521-13-001-N   11/21/12   Close-Out Audit of the Fund Accountability         390        QC
                            Statement of USAID Resources, Under Grant          390        UN
                            No. 521-G-00-10-00003-00 "Medishare
                            Project," Managed by Medishare, for the
                            Period From February 23, 2010, to
                            August 15, 2010
1-520-13-001-R   10/02/12   Audit of the Fund Accountability Statement
                            of the "Entrepreneurial Competitiveness and
                            Strengthening" Program, Cooperative
                            Agreement No. 520-A-00-06-00103-00,
                            Managed by the Asociación Nacional del
                            Café (ANACAFE), for the Year Ending
                            December 31, 2011
1-534-13-002-N   02/15/13   Audit of the Certified Expenditures Report         154        QC
                            Under Contract No. AID-504-C-11-00001,             154        UN
                            Managed by the Community Support and
                            Development Services Inc. (CSDS), for the
                            Period From January 1, 2011, to
                            December 31, 2011
1-512-13-002-R   10/31/12   Audit of the USAID Cooperative Agreement
                            No. 512-A-11-00002, Increasing Testing
                            Options and Leadership on HIV/AIDS "Quero
                            Fazer" Program, Managed by Associação
                            Espaço de Prevenção e Atençãao
                            Humanizada (EPAH) for the Period From
                            February 1, 2011, to December 31, 2011
1-512-13-003-R   10/31/12   Audit of the Cooperative Agreement No.
                            AID-512-A-09-00001-00 for the "Brazil
                            Indigenous Based Biodiversity Conservation
                            Program," Managed by the Instituto
                            Internacional de Educação do Brasil (IEB), for
                            the Period From January 1, to December 31,
                            2011
1-512-13-004-R   11/09/12   Audit of the Cooperative Agreement No.
                            AID- 512-A-09-00004 for the "Youth
                            Employability Program," Managed by
                            Instituto Empreender, for the Period From
                            January 1, 2011, to December 31, 2011
1-517-13-005-R   11/23/12   Audit of Fund Accountability Statement of
                            USAID Resources, Grant Agreement No.
                            517-A-00-10-00100-00, Administered by
                            the American Chamber of Commerce of
                            the Dominican Republic, Inc.,
                            (AMCHAMDR), for the Period From
                            January 1, 2011, to December 31, 2011




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  82
  Report         Date of                  Report Title                     Amt. of    Type of
  Number         Report                                                    Findings   Findings
                                                                            ($000)
1-596-13-006-R   11/27/12   Audit of the Fund Accountability Statement
                            of the USAID Cooperative Agreement No.
                            596-A-00-06-00092-00, for the Project
                            "Custom Harmonization," Managed by the
                            Secretariat for Economic Integration of
                            Central America (SIECA), for the Period From
                            January 1, 2011, to December 31, 2011
1-514-13-007-R   11/27/12   Audit of the Cooperative Agreement No.
                            AID-514-A-09-00004 for the "Strengthen the
                            Institutional Capacity and Governance of
                            Colombia's Protected Areas for Long-Term
                            Environmental Conservation, Community
                            and Cultural Preservation and Improved
                            Livelihoods," Managed by PATRIMONIO
                            NATURAL (Fondo Para la Biodiversidad y
                            Areas Protegidas), for the Period From
                            January 1, 2011, to December 31, 2011
1-524-13-008-R   11/29/12   Audit of the Fund Accountability Statement        12        QC
                            Under Cooperative Agreement No. AID-524-
                            A-11-00001 for the "Promotion of Economic
                            and Social Development in Nicaragua
                            Program," Managed by Fundación
                            Nicaragüense Para el Desarrollo Económico
                            y Social (FUNIDES), for the Period From
                            January 25, 2011, to December 31, 2011
1-526-13-009-R   11/28/12   Close-out Audit of Programs: "Health              58        QC
                            Decentralization and Community
                            Participation" No. 526-A-00-01-00100-00,
                            "Improving the Paraguayan Health
                            Information System" No. 526-A-00-07-
                            00052- 00, "Supporting Reforms in the
                            Paraguayan Justice Sector Aimed at
                            Increasing Transparency and the Rule of
                            Law" No. 526-A-00-01-00005-00; Managed
                            by the Fundación Comunitaria Centro de
                            Información y Recursos Para el Desarrollo
                            (CIRD) for the Year Ended December 31,
                            2011




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  83
  Report         Date of                  Report Title                    Amt. of    Type of
  Number         Report                                                   Findings   Findings
                                                                           ($000)
1-519-13-010-R   12/07/12   Audit of the "Entrepreneurs Program              2         QC
                            Superate," Cooperative Agreement No. 519-        2         UN
                            A-10-00002 Between the United States
                            Agency for International Development
                            (USAID) and Fundación Sagrera Palomo, for
                            the Period From July 14, 2010, to
                            December 31, 2011
1-519-13-011-R   12/11/12   Audit of the Fund Accountability Statement
                            of the Project "Strengthening of Technical
                            Entrepreneurial and Productive Capacities,
                            RTI/CVPP," Donation Agreement No.
                            0211537-G-2011-008 Between RTI
                            International and Fundación Empresarial
                            Para el Desarrollo Educativo (FEPADE), for
                            the Period From December 28, 2010, to
                            November 30, 2011
1-511-13-012-R   12/11/12   Audit of the USAID Agreement No. 511-A-
                            00-02-00295-00 "Social Marketing," and
                            Agreement No. 511-A-00-02-00261-00
                            "Partners for Development," Managed by
                            Asociación de Protección a la Salud
                            (ProSalud) for the Period Ended
                            December 31, 2011
1-514-13-013-R   12/14/12   Audit of the Fund Accountability Statement       27        QC
                            of the "Pilot Project to Provide Mental           1        UN
                            Health Services to Victims in Rural Areas
                            Affected by Colombian Internal Conflict,"
                            Managed by Fundación Pais Libre, Under
                            the Cooperative Agreement AID-514-A-10-
                            00003, for the Period From June 11, 2010,
                            to December 31, 2011
1-518-13-014-R   01/22/13   Audit of the Cooperative Agreement No.
                            AID-518-A-11-00003 "Strengthening of the
                            Civil Society in Ecuador," Managed by Grupo
                            Faro for the Year Ended December 31, 2011
1-514-13-015-R   01/22/13   Close-out Audit of the Cooperative               8         QC
                            Agreement No. AID-514-A-10-00004 for the
                            "Strengthening the Mental Health of Post-
                            Conflict Victims in Rural Areas—Welfare,"
                            Managed by Corporación Impacto Vital (CIV),
                            for the Period From January 1, 2012, to
                            August 10, 2012




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  84
  Report         Date of                  Report Title                      Amt. of    Type of
  Number         Report                                                     Findings   Findings
                                                                             ($000)
1-519-13-016-R   01/24/13   Audit of the Cooperative Agreement No.
                            519-A- 00-06-00033-00, "Strengthening
                            Healthcare and Basic Education," Managed
                            by Fundación Empresarial Para el Desarrollo
                            Educativo (FEPADE), for the Year Ended
                            December 31, 2011
1-519-13-017-R   01/24/13   Audit of the Cooperative Agreement No.
                            519- A-11-06-00001, "Adopt a School,"
                            Managed by Fundación Empresarial Para el
                            Desarrollo Educativo (FEPADE), for the
                            Period From October 8, 2010, to
                            December 31, 2011
1-524-13-018-R   01/24/13   Audit of the Fund Accountability Statement         22        QC
                            of the Project "Education for Success
                            Program on the South Atlantic Autonomous
                            Region of Nicaragua," Cooperative
                            Agreement No. 524-A-10-00005, Managed
                            by Fundación para la Autonomía y el
                            Desarrollo de la Costa Atlántica de Nicaragua
                            (FADCANIC), for the Period From
                            September 30, 2010, to December 31, 2011
1-596-13-019-R   01/24/13   Audit of the Fund Accountability Statement
                            of USAID Resources Provided Under
                            Strategic Agreement No. 596-A-00-06-
                            00078-00 "Economic Freedom: Open
                            Diversified Expanding Economies in Central
                            America and the Dominican Republic DR-
                            CAFTA," Managed by Comisión
                            Centroamerica de Ambiente y Desarrollo
                            (CCAD) for the Period From January 1 to
                            December 31, 2011
1-511-13-020-R   01/25/13   Close-out Audit of the Fund Accountability         93        QC
                            Statement of the Project "Partners for
                            Development," Cooperative Agreement No.
                            511-A-00-02-00261-00, Managed by
                            Asociación Protección a la Salud
                            (PROSALUD), for the Period From January 1
                            to March 31, 2012
1-518-13-021-R   01/25/13   Audit of the Cooperative Agreement No.             62        QC
                            518-A-00-03-00054-00 for the                       62        UN
                            "Strengthening Democracy in Ecuador
                            Program," Managed by Corporación
                            Participación Ciudadana Ecuador (PC) for the
                            Period From January 1, 2011, to
                            December 31, 2011




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  85
  Report         Date of                   Report Title                      Amt. of    Type of
  Number         Report                                                      Findings   Findings
                                                                              ($000)
1-520-13-022-R   01/25/13   Close-out Audit of the "National Network of         5         QC
                            Election Observers," Project No. AID-520-A-         1         UN
                            11-00001 for the Period From March 16,
                            2011, to February 24, 2012, and the "Quick
                            Count in the Guatemalan Election Process,"
                            Project No. 11-11542-GUT.0-948, for the
                            Period From July 1, 2011, to February 29,
                            2012, Managed by Acción Ciudadana
1-598-13-023-R   02/14/13   Audit of the Fund Accountability Statement
                            of the "Building More Inclusive and Equitable
                            Democracies in the Americas," Project No.
                            RLA-A-00-09-00006-00, and the
                            "Strengthening Electoral Management
                            Project," Project No. AID-518-A-11-00002,
                            Managed by Inter-American Institute of
                            Human Rights (IIHR), for the Year Ended
                            December 31, 2011
1-512-13-024-R   02/15/13   Audit of the Fund Accountability Statement
                            of USAID Agreement No. AID-512-A-09-
                            00002-00, "Clean and Renewable Energy
                            Program," Managed by Instituto de
                            Desenvolvimento Sustentavel e Energías
                            Renovaveis (IDER) for the Period From
                            January 1, 2011, to December 31, 2011
1-526-13-025-R   02/15/13   Close-out Audit of the Cooperative                 157        QC
                            Agreement No. 526-A-00-08-00005-00 for             144        UN
                            the "Promoting Sustainable Business
                            Initiatives in Paraguay Project," Managed by
                            Fundación Moises Bertoni, for the Period
                            From September 30, 2008, to March 31,
                            2012
1-598-13-026-R   02/22/13   Audit of the Grant Agreement No. EEM-G-
                            00-09-00001 for the "Program to Help
                            Developing Nations Create Inclusive Market
                            Economies by Legally Empowering the Poor,"
                            Managed by Instituto Libertad y Democracia
                            (ILD), for the Period From January 1, 2011, to
                            December 31, 2011
1-518-13-027-R   02/21/13   Audit of Cooperative Agreement No. 518-A-
                            00-07-00067-00, "Integrated Municipal
                            Development Program (IMDP)," and 518-A-
                            10-00005, "Program to Combat the
                            Trafficking in Persons in Ecuador (TIP),"
                            Managed by the International Organization
                            for Migration (IOM), for the Year Ended on
                            December 31, 2011




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  86
  Report         Date of                  Report Title                      Amt. of    Type of
  Number         Report                                                     Findings   Findings
                                                                             ($000)
1-596-13-028-R   02/22/13   Audit of the Fund Accountability Statement
                            of the USAID Cooperative Agreement No.
                            596-A-00-06-00092-00, for the Project
                            "Custom Harmonization," Managed by the
                            Secretariat for Economic Integration of
                            Central America (SIECA), for the Period From
                            January 1, 2012, to August 31, 2012
1-532-13-029-R   02/25/13   Financial Audit of USAID Resources Managed        181        QC
                            by Jamaica Cocoa Farmers' Association             80         UN
                            (JCFA) for the Development Grant Program 2
                            (DGP2) Under Cooperative Agreement AID-
                            532-A-11-00008 for the Period From
                            March 14, 2011, to March 31, 2012
1-527-13-030-R   03/07/13   Audit of USAID Grant Agreement No. 527-            27        QC
                            0423; Strengthened Environmental                   27        UN
                            Management (STEM) Project; Managed by
                            the "Ministerio del Ambiente—MINAM" for
                            the Period From January 1, 2011, to
                            December 31, 2011
1-527-13-031-R   03/15/13   Audit of the Strategic Objective Agreement        266        QC
                            No. 527-0423, Managed by the Comision             35         UN
                            Nacional Para el Desarrollo y Vida Sin Drogas
                            (DEVIDA) for the Period From January 1 to
                            December 31, 2011
1-520-13-032-R   03/12/13   Audit of the Fund Accountability Statement
                            of the Program to Strengthen
                            Competitiveness of Guatemalan Business
                            and Products, Cooperative Agreement No.
                            520-A-00-05-00009-00, Administered by the
                            Asociación Guatemalteca de Exportadores
                            (AGEXPORT), for the Period From January 1,
                            2012, to September 30, 2012
3-000-13-009-R   11/06/12   Audit of Merlin, Under Multiple Agreements        244        QC
                            for Fiscal Year Ended December 31, 2010           174        UN
3-000-13-010-R   11/09/12   Audit of Action Contre La Faim (ACF), Under        6         QC
                            Multiple Agreements for Fiscal Year Ended
                            December 31, 2011
3-000-13-011-R   11/07/12   Audit of Merlin, Under Multiple Agreements        138        QC
                            for Fiscal Year Ended December 31, 2011           137        UN
3-000-13-012-R   12/03/12   Audit of Norwegian Refugee Council Under
                            USAID Multiple Agreements for the Fiscal
                            Year Ended December 31, 2011




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  87
  Report         Date of                  Report Title                     Amt. of    Type of
  Number         Report                                                    Findings   Findings
                                                                            ($000)
3-118-13-013-R   11/19/12   Audit of the National Foundation for the
                            Prevention of Cruelty to Children Under
                            USAID Cooperative Agreement Nos. 118-A-
                            00-10-00036-00 and 118-A-00-10-00047-00
                            for Fiscal Year Ended December 31, 2011
3-165-13-014-R   11/14/12   Audit of the Foundation Open Society
                            Macedonia Under USAID Cooperative
                            Agreement No. 165-A-00-04-00101-00 for
                            Fiscal Year Ended December 31, 2011
3-000-13-015-R   12/10/12   Audit of the Vétérinaires Sans Frontières—        7         QC
                            Belgium, Under USAID Multiple Agreements
                            for Fiscal Year Ended December 31, 2010
3-118-13-016-R   11/15/12   Audit of Agency for Social Information Under
                            USAID Cooperative Agreement No. 118-A-
                            00-07-00059-00 for Fiscal Year Ended
                            December 31, 2011
3-121-13-017-R   11/20/12   Audit of Charitable Organization
                            "Commercial Law Center" (CLC) Under USAID
                            Cooperative Agreement Nos. 121-A-00-08-
                            0704 and 121-A-00-11-00004 for the Fiscal
                            Year Ended December 31, 2011
3-118-13-018-R   11/21/12   Audit of Krasnodar Regional Non-Profit
                            Organization "Southern Regional Resource
                            Center" Under USAID Multiple Agreements
                            for Fiscal Year Ended December 31, 2011
3-000-13-019-R   11/26/12   Close-out Audit of Kindernothilfe e.V. Under
                            USAID Cooperative Agreement No. GHO-A-
                            00-09-00012-00 for the Period From
                            January 1, 2012 to May 28, 2012
3-000-13-020-R   11/27/12   Audit of Solidarites International, Under
                            USAID Multiple Agreements for Fiscal Year
                            Ended December 31, 2011
3-121-13-021-R   12/03/12   Audit of the All-Ukrainian Public                 3         QC
                            Organization "Institute for Budgetary and         3         UN
                            Socio-Economic Research," Under Multiple
                            Agreements for Fiscal Year Ending
                            December 31, 2011
3-118-13-022-R   12/03/12   Audit of the New Eurasia Foundation (NEF)
                            Under USAID Multiple Agreements for Fiscal
                            Year Ended December 31, 2011
3-111-13-023-R   12/06/12   Audit of the Eurasia Partnership Foundation
                            (Registered in Armenia) Under USAID




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  88
  Report         Date of                  Report Title                     Amt. of    Type of
  Number         Report                                                    Findings   Findings
                                                                            ($000)
3-118-13-024-R   12/07/12   Audit of Foundation for Democracy "GOLOS"         1         QC
                            Under USAID Cooperative Agreement No.             1         UN
                            118-A-00-10-00070 for Fiscal Year Ended
                            December 31, 2011
3-118-13-025-R   12/11/12   Audit of Regional Society of Disabled People
                            (Perspektiva) Under USAID Cooperative
                            Agreement No. 118-A-00-03-00085-00 for
                            Fiscal Year Ended December 31, 2011
3-118-13-026-R   12/11/12   Audit of Center for Environmental
                            Innovations Under USAID Cooperative
                            Agreement No. 118-A-00-10-00093 for Fiscal
                            Year Ended December 31, 2011
3-000-13-027-R   01/02/13   Audit of Humedica e.V. Under USAID                18        QC
                            Agreement No AID-OFDA-G-11-00083 for the          18        UN
                            Period May 5, 2011, to December 31, 2011
3-118-13-028-R   01/02/13   Audit of the Institute for Urban Economics
                            Under USAID Multiple Agreements for Fiscal
                            Year Ended December 31, 2011
3-118-13-029-R   01/02/13   Close-Out Audit of the Center for Anti-
                            Corruption Research and Initiative
                            "Transparency International-R," Under
                            USAID Agreement No. 118-A-00-06-00082
                            for the Period of August 27, 2006, to
                            September 30, 2011
3-000-13-030-R   02/01/13   Audit of Oxfam GB Under USAID Multiple            24        QC
                            Agreements for Fiscal Year Ended March 31,        20        UN
                            2012
3-000-13-031-R   01/16/13   Audit of Tearfund Under Multiple
                            Agreements for Fiscal Year Ended March 31,
                            2012
3-000-13-032-R   01/16/13   Audit of EveryChild Under USAID Agreement         4         QC
                            No. GPO-A-00-04-0021-00 for the Fiscal Year
                            Ended March 31, 2012
3-000-13-033-R   01/16/13   Audit of Water & Sanitation for the Urban         6         QC
                            Poor Under USAID Agreement No. EPP-A-00-
                            09-00006-00 for Fiscal Year Ended March 31,
                            2012
3-000-13-034-R   01/23/13   Audit of Agency for Technical Cooperation
                            and Development (ACTED) Under Multiple
                            Agreements for Fiscal Year Ended
                            December 31, 2007




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  89
  Report         Date of                  Report Title                    Amt. of    Type of
  Number         Report                                                   Findings   Findings
                                                                           ($000)
3-118-13-035-R   01/25/13   Close-out Audit of Endorsement of National       5         QC
                            Public Health Projects "Health and
                            Development" Foundation (HDF) Under
                            USAID Cooperative Agreement No. 118-A-
                            00-02-00156, Sub-Grant No. RUS-HR2020-21
                            for Fiscal Year (FY) Ended December 31,
                            2011
3-000-13-036-R   02/01/13   Audit of Christian Aid, Under Multiple
                            Agreements for Fiscal Year Ended March 31,
                            2011
3-000-13-037-R   02/01/13   Audit of Christian Aid, Under Multiple
                            Agreements for Fiscal Year Ended March 31,
                            2012
3-118-13-038-R   02/01/13   Audit of the Fund for Sustainable
                            Development Under USAID Agreement No.
                            AID-118-A-11-00015 for the Year Ended
                            December 31, 2011
3-118-13-039-R   02/06/13   Close-out Audit of Autonomous Non-
                            Commercial Organization "Institute for
                            Comparative Labor Relations Studies"
                            Under USAID Agreement No. 118-A-00-09-
                            00085 for the Period From September 29,
                            2009, Through October 31, 2012
3-118-13-040-R   02/07/13   Audit of Transparent World Under USAID
                            Agreement No. 118-A-00-10-00088-00 for
                            the Year Ended December 31, 2011
3-118-13-041-R   02/08/13   Close-Out Audit of the Fund for Sustainable
                            Development Under USAID Agreement No.
                            118-A-00-06-00060-00 for the Period From
                            July 27, 2006, Through December 24, 2012
3-168-13-042-R   02/11/13   Audit of Fruit Grower Association—
                            "Integralna Proizvodnja Voća" Under USAID
                            Cooperative Agreement Number: AID-168-A-
                            11-00003 for Fiscal Year (FY) Ended
                            March 31, 2012
3-000-13-043-R   02/13/13   Audit of Retrak, Inc. Under USAID Grant
                            Agreement No. GHO-A-00-09-0006-00 for
                            the Period January 1, 2011, to May 31, 2012
3-000-13-044-R   02/20/13   Audit of Agency for Technical Cooperation
                            and Development (ACTED) Under Multiple
                            Agreements for Fiscal Year Ended
                            December 31, 2008




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  90
  Report         Date of                  Report Title                      Amt. of    Type of
  Number         Report                                                     Findings   Findings
                                                                             ($000)
3-118-13-045-R   02/21/13   Audit of Center for Anti-Corruption Research
                            and Initiative "Transparency International-R"
                            (TI) Under USAID Cooperative Agreement
                            Nos. 118-A-11-00021-00 and 118-A-00-06-
                            00082 for Fiscal Year (FY) Ended
                            December 31, 2011
3-000-13-046-R   02/22/13   Audit of Marie Stopes International, Under        695        QC
                            Multiple USAID Agreements for Fiscal Year         690        UN
                            Ended December 31, 2011
3-118-13-047-R   02/25/13   Close-Out Audit of the Gaidar Institute for
                            Economic Policy Under USAID Cooperative
                            Agreement No. 118-A-00-00-00130-00 for
                            the Period From July 1, 2000, Through
                            December 31, 2011

3-000-13-048-R   03/01/13   Audit of KNCV Tuberculosis Foundation,
                            Tuberculosis Control Assistance Program
                            (KNCV) Under USAID Cooperative Agreement
                            No. GHS-A-00-05-00019-00 for the Year
                            Ended September 30, 2009
3-118-13-049-R   03/05/13   Audit of Krasnodar Regional Non-Profit
                            Organization "Southern Regional Resource
                            Center" (SRRC) Under USAID Cooperative
                            Agreement No. 118-A-11-00003-00 for Fiscal
                            Year Ended December 31, 2012
4-663-13-001-N   11/21/12   Agency Contracted Audit of USAID Resources         28        QC
                            Managed by Ministry of Health (MoH) Under
                            Implementation Letters 663-IL-663-0014.1/2
                            #78, 663-IL-663-0014.1/2 #97, IL-663-
                            0014.1/2 #15, IL-663-0014.1/2 #44, IL-663-
                            0014.1/2 #53 and IL-663-0014.1/2 #58 for
                            the Period From July 8, 2007, to July 7, 2011
4-613-13-001-R   10/09/12   Audit of USAID Resources Managed by
                            Counselling Services Unit Under Grant Award
                            No. 613-G-00-01-00244-00 for the Year
                            Ended December 31, 2011
4-617-13-002-N   01/04/13   Agency Contracted Closeout Audit of USAID          24        QC
                            Resources Managed by Deloitte (Uganda)
                            Limited Under Contract No. 617-C-00-
                            00004-00 for the Year Ended June 30, 2012




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  91
  Report         Date of                  Report Title                    Amt. of    Type of
  Number         Report                                                   Findings   Findings
                                                                           ($000)
4-969-13-002-R   10/10/12   Audit of USAID Resources Managed by             340        QC
                            ADPP Mozambique Under Cooperative               337        UN
                            Agreement No. GHH-A-00-07-00038-00,
                            Subagreement No. 00022-01,
                            Subagreement No. 5544-08-MOZ5,
                            Subagreement No. 100917 and
                            Subagreement No. 09-SBA-007 for the Year
                            Ended December 31, 2008
4-615-13-003-R   10/11/12   Audit of USAID Resources Managed by
                            Inuka Kenya Trust Under Cooperative
                            Agreement No. AID-623-A-11-00026 for the
                            Period May 20, 2011, to December 31, 2011
4-613-13-004-R   10/16/12   Audit of USAID Resources Managed by              2         QC
                            Zimbabwe Lawyers for Human Rights Under          2         UN
                            Grant Agreement No. 674-G-00-09-00129-
                            00, Strengthening the Rule of Law and
                            Democratic Processes Project, for the Year
                            Ended September 30, 2011
4-936-13-005-R   10/16/12   Closeout Audit of USAID Resources                83        QC
                            Managed by Tshwane Leadership                    83        UN
                            Foundation Under Agreement No. GHO-A-
                            00-09-00009-00 for the Period December 1,
                            2008, to November 30, 2011
4-936-13-006-R   10/17/12   Closeout Audit of USAID Resources Managed        24        QC
                            by Grassroots Alliance for Community
                            Education (G.R.A.C.E.) Africa Under
                            Agreement No. GHO-A-00-09-00004-00 for
                            the Period January 1, 2011, to February 29,
                            2012
4-623-13-007-R   10/19/12   Audit of USAID Resources Managed by              9         QC
                            International Peace-building Alliance            9         UN
                            (Interpeace) Under Grant No. 623-G-00-06-
                            00063-00 for the Year Ended December 31,
                            2011
4-969-13-008-R   10/24/12   Audit of USA1D Resources Managed by ADPP         2         QC
                            Mozambique Under Cooperative Agreement
                            No. GHH-A-00-07-00038-00, Subagreement
                            No. 00022-01, Subagreement No. 5544-08-
                            MOZ5, Subagreement No. 100917,
                            Subagreement No. 09-SBA-007 and
                            Subagreement No. FFP-A-00-08-00084-02 for
                            the Year Ended December 31, 2009




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  92
  Report         Date of                 Report Title                    Amt. of    Type of
  Number         Report                                                  Findings   Findings
                                                                          ($000)
4-969-13-009-R   10/24/12   Audit of USAID Resources Managed by ADPP        2         QC
                            Mozambique Under Cooperative Agreement
                            No. GHH-A-00-07-00038-00, Subagreement
                            No. 5544-08-MOZ5, Subagreement No.
                            100917, Subagreement No.10-SBA- 009, and
                            Subagreement No. FFP-A-00-08-00084-02 for
                            the Year Ended December 31, 2010
4-902-13-010-R   10/24/12   Audit of USAID Resources Managed by Africa
                            Centre for Holistic Management (ACHM)
                            Under Grant Agreement No. DFD-G-00-10-
                            00084-00 for the Year Ended December 31,
                            2011
4-674-13-011-R   11/01/12   Audit of USAID Resources Managed by
                            African Palliative Care Association Under
                            Agreement No. 674-A-00-09-00112-00 and
                            Subagreement Nos. H-F3-BOT-07-P-PTR-
                            APBO, AIDSTAR-ONE-001, 17436-APCA-01,
                            H-F3-CDI-07-P-PTR-APTB, and U2GPS000631-
                            03-0 7 for the Year Ended March 31, 2012
4-617-13-012-R   11/01/12   Audit of USAID Resources Managed by             4         QC
                            Reproductive Health Uganda Under                1         UN
                            Cooperative Agreement No. AID 617-A-09-
                            00007 for the Year Ended December 31,
                            2011
4-617-13-013-R   11/01/12   Audit of USAID Resources Managed by the         4         QC
                            AIDS Support Organisation Uganda Limited
                            Under Cooperative Agreement No. AID 617-
                            A-09-00005-00 for the Year Ended
                            December 31, 2011
4-617-13-014-R   11/06/12   Audit of USAID Resources Managed by Inter-      1         QC
                            Religious Council of Uganda Under
                            Cooperative Agreement No. AID-617-A-10-
                            00002 and Subagreement Nos. 617-A-00-09-
                            00006-00-IRCU and IRCU 060101-BB for the
                            Year Ended December 31, 2011
4-969-13-015-R   11/06/12   Audit of USAID Resources Managed by
                            Stellenbosch University Under Cooperative
                            Agreement No. OFDA-G-11-00215 and
                            Subagreements Under USAID Award
                            Numbers 674-C-00-09-00121-00 and GHN-A-
                            00-08-00004-00 for the Year Ended
                            December 31, 2011




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  93
  Report         Date of                 Report Title                    Amt. of    Type of
  Number         Report                                                  Findings   Findings
                                                                          ($000)
4-936-13-016-R   11/06/12   Audit of USAID Resources Managed by Aga
                            Khan Foundation Mozambique Under Grant
                            Agreement No. GHN-A-00-09-00009-00
                            Malaria Communities Program for the Year
                            Ended December 31, 2011
4-674-13-017-R   11/14/12   Closeout Audit of USAID Resources Managed
                            by the University of KwaZulu-Natal Under
                            Cooperative Agreement No. HFM-A-00-02-
                            00065-00 for the Year Ended December 31,
                            2011
4-617-13-018-R   12/03/12   Audit of USAID Resources Managed by Marie       3         QC
                            Stopes Uganda Under Cooperative
                            Agreement No. AID 617-A-10-00004,
                            Subagreement Nos. 11 and 12 (Under
                            Cooperative Agreement AID-617-A-00-06-
                            00009-00) and Subcontract No.
                            RFP01/2/MSU for the Period August 1, 2010,
                            to December 31, 2011
4-623-13-019-R   12/03/12   Audit of USAID Resources Managed by             13        QC
                            Intergovernmental Authority on
                            Development (IGAD) Under Limited Scope
                            Grant Agreement No. 6230009.02-3-60082
                            for the Year Ended December 31, 2011
4-674-13-020-R   12/03/12   Audit of USAID Resources Managed by the
                            University of the Western Cape Under
                            Cooperative Agreement No. 674-A-00-09-
                            00019-00 for the Year Ended December 31,
                            2011
4-674-13-021-R   12/04/12   Closeout Audit of USAID Resources Managed      139        QC
                            by Olive Leaf Foundation 1989 Under            114        UN
                            Cooperative Agreements GPO-A-00-OS-
                            00007-00 and GPOA-00-05-00014-00, as well
                            as Subagreement No. P3121A0035, for the
                            15-Month Period from January 1, 2010, to
                            March 31, 2011




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  94
  Report         Date of                   Report Title                      Amt. of    Type of
  Number         Report                                                      Findings   Findings
                                                                              ($000)
4-623-13-022-R   12/04/12   Audit of USAID Resources Managed by                131        QC
                            Common Market for Eastern and Southern             121        UN
                            Africa Under Integrated Partnership
                            Assistance Agreement No. 623-AA-09-001-
                            00-EA and Closeout Audits Under Limited
                            Scope Grant Agreement Nos. 623-
                            LSGA.0010.02-3-60078 and 623-1005.01-3-
                            50079 and Strategic Objective Grant
                            Agreement No. 62300010.0260100-10 for
                            the Year Ended December 31, 2011
4-621-13-023-R   12/19/12   Audit of USAID Resources Managed by                 10        QC
                            PharmAccess International Under
                            Cooperative Agreement No. 621-A-00-08-
                            00017-00 for the Year Ended December 31,
                            2011
4-623-13-024-R   01/02/13   Closeout Audit of USAID Resources Managed
                            by Association for Strengthening Agricultural
                            Research in Eastern and Central Africa
                            (ASARECA) Under Cooperative Agreement
                            No. 623-A-00-06-00082- 00 for the Period
                            January 1, 2011, to March 31, 2012
4-621-13-025-R   01/22/13   Audit of USAID Resources Managed by
                            Tanzania Red Cross Society Under
                            Cooperative Agreement No. 621-A-00-09-
                            00007-00 (LLIN Hang Up Campaign) and
                            Grant Agreement No. 621-G-00-11-00010-00
                            (Gongo la Mboto) for the Year Ended
                            December 31, 2011
4-621-13-026-R   01/23/13   Closeout Audit of USAID Resources Managed
                            by Pastoral Activities and Services for People
                            with AIDS Dar es Salaam Archdiocese
                            (PASADA) Under Grant Agreement No. 621-
                            A-00-06-00011 and Audit of Cooperative
                            Agreement No. AID-621-A-11-00002 for the
                            Year Ended December 31, 2011
4-621-13-027-R   01/25/13   Closeout Audit of USAID Resources Managed
                            by Selian Lutheran Hospital—Aids Control
                            Program Under Cooperative Agreement No.
                            621-A-00-07-00001-00 and Audit of
                            Cooperative Agreement No. AID-621-A-11-
                            00004 for the Year Ended December 31,
                            2011
4-663-13-028-R   02/07/13   Audit of USAID Resources Managed by Fre
                            Addis Ethiopia Yesetoch Merja Mahiber
                            Under Cooperative Agreement No. AID-663-
                            A-10-00001 for the Period September 3,
                            2010, to August 31, 2011




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  95
  Report         Date of                   Report Title                      Amt. of    Type of
  Number         Report                                                      Findings   Findings
                                                                              ($000)
4-617-13-029-R   02/21/13   Audit of USAID Resources Managed by                 12        QC
                            Hospice Africa Uganda Under Cooperative
                            Agreement No. 617-A-00-05-00010-00 for
                            the Year Ended March 31, 2012
4-674-13-030-R   02/26/13   Closeout Audit of USAID Resources
                            Managed by Khulisa Management Services
                            (Pty) Ltd Under Contract No. 674-C-00-06-
                            00014-00 for the Period From January 1,
                            2010, to September 30, 2011
4-612-13-031-R   03/01/13   Audit of USAID Resources Managed by
                            Partners in Hope Extending Quality
                            Improvement for HIV/AIDS in Malawi (EQUIP
                            Malawi) Under Agreement No. 674-1-00-10-
                            00035-00 for the Year Ended March 31, 2012
5-367-13-001-N   01/22/13   Financial Audit of USAID Resources Managed          72        QC
                            by the Ministry of Agriculture and
                            Cooperatives (MOAC) of Government of
                            Nepal (GON), Under Assistance Agreement
                            No. 367-012, Implementation Letter No. 4.2
                            for the Period From July 17, 2010, to July 16,
                            2011
5-442-13-001-R   10/26/12   Financial Audit of the Support to the
                            Documentation Center of Cambodia,
                            USAID/Cambodia Cooperative Agreement
                            No. 486-A-00-04-00012-00, Managed by the
                            Documentation Center of Cambodia (DC-
                            Cam), for the Period From January 1, 2011,
                            to December 31, 2011
5-497-13-002-R   11/08/12   Financial Audit of the Program
                            "Strengthening Southeast Asian Media
                            Partnerships to Promote Human Rights and
                            Good Governance," USAID/Indonesia
                            Cooperative Agreement No. AID-497-A-11-
                            00009, Managed by Perhimpunan
                            Pengembangan Media Nusantara
                            (PPMN/Indonesian Association for Media
                            Development), for the Period From April 28,
                            2011, to December 31, 2011
5-493-13-003-R   11/08/12   Financial Audit of the Greater Mekong
                            Subregion—Responses to Infectious Diseases
                            (GMS-RID) Program, Managed by the Kenan
                            Foundation Asia (Kenan), USAID Cooperative
                            Agreement No. AID-486-09-00005, for the
                            Year Ended September 30, 2010




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  96
  Report         Date of                  Report Title                     Amt. of    Type of
  Number         Report                                                    Findings   Findings
                                                                            ($000)
5-497-13-004-R   11/20/12   Financial Audit of the Program "Building          42        QC
                            Disaster and Climate Change Resilience in         36        UN
                            Padang Pariaman Farming Communities,
                            West Sumatera," USAID/Indonesia
                            Cooperative Agreement No. AID-497-A-10-
                            00002, Managed by Farmers' Initiatives for
                            Ecological Livelihood and Democracy
                            (FIELD), for the Period From September 30,
                            2010, to December 31, 2011
5-492-13-005-R   11/26/12   Financial Audit of USAID Funds Managed by         8         QC
                            the Philippine Business for Social Progress,      1         UN
                            Inc. (PBSP), for the Period From October 1,
                            2010, to September 30, 2011
5-386-13-006-R   11/26/12   Closeout Financial Audit of the AVERT
                            Project, USAID/India Project No. 386-0544,
                            Managed by the Avert Society, for the Period
                            From April 1, 2011, to June 30, 2012
5-497-13-007-R   11/27/12   Financial Audits of USAID Funds Managed by        1         QC
                            the Yayasan Pusat Telaah dan Informasi
                            Regional (PATTIRO), for Periods Ending
                            December 31, 2011
5-115-13-008-R   12/04/12   Financial Audit of the Program "Integrated        2         QC
                            Energy Efficiency Approach in Residential
                            Housing of Dushanbe, Tajikistan,"
                            USAID/Central Asia Republics (CAR)
                            Cooperative Agreement No. AID-176-A-10-
                            00003, Managed by the Regional
                            Environmental Center for Central Asia
                            (CAREC) for the Period From September 30,
                            2010, to December 31, 2011
5-497-13-009-R   12/04/12   Financial Audits of USAID Funds Managed by        11        QC
                            the Kemitraan Bagi Pembaruan Tata
                            Pemerintahan (KEMITRAAN), for Periods
                            Ending in 2011
5-497-13-010-R   12/14/12   Financial Audit of the Statement of Costs
                            Incurred and Billed to USAID/Indonesia by
                            the Indonesian International Education
                            Foundation (IIEF) to Implement the
                            Program to Extend Scholarship and Training
                            to Achieve Sustainable Impacts (PRESTASI),
                            USAID/Indonesia Contract No. 497-C-11-
                            00003, for the Period From April 14, 2011,
                            to December 31, 2011




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  97
  Report         Date of                  Report Title                     Amt. of    Type of
  Number         Report                                                    Findings   Findings
                                                                            ($000)
5-442-13-011-R   12/18/12   Financial Audit of the Program "Sustainable
                            Action Against HIV and AIDS in Community"
                            (SAHACOM), USAID Cooperative Agreement
                            No. AID-442-A-09-00002, Managed by the
                            Khmer HIV/AIDS NGO Alliance (KHANA), for
                            the Year Ended December 31, 2011
5-442-13-012-R   01/23/13   Financial Audit of the Together for Good
                            Health (ToGoH) Project, Cooperative
                            Agreement No. 442-A-00-08-00007-00,
                            Managed by the Reproductive Health
                            Association of Cambodia (RHAC), for the
                            Year Ended December 31, 2011
5-442-13-013-R   01/23/13   Financial Audit of Maternal and Child Health
                            Program, USAID Cooperative Agreement
                            No. 442-A-00-08-00008-00, Managed by the
                            Reproductive and Child Health Alliance
                            (RACHA) for the Year Ended December 31,
                            2011
5-176-13-014-R   01/23/13   Financial Audit of the Project "Regional
                            Trans-Boundary Water Dialogue Support,"
                            USAID/Central Asia Republics (CAR)
                            Cooperative Agreement No. AID-176-A-10-
                            00002, Managed by the Executive
                            Committee of International Fund for Saving
                            Aral Sea (EC IFAS) for the Period From
                            January 1, 2011, to December 31, 2011
5-492-13-015-R   02/07/13   Closeout Audits of USAID Funds Managed            21        QC
                            by the Gerry Roxas Foundation, Inc. (GRF),
                            for Periods Ending in 2012
5-492-13-016-R   02/25/13   Financial Audit of the Project "Literacy for      25        QC
                            Peace and Development (LIPAD),"                   20        UN
                            USAID/Philippines' Cooperative Agreement
                            No. 492-A-11-00001, Managed by the
                            Magbassa Kita Foundation, Inc. (MKFI) for
                            the Period From November 9, 2010, to
                            December 31, 2011
5-492-13-017-R   02/25/13   Financial Audit of the Health Policy
                            Development Program, USAID/Philippines
                            Cooperative Agreement No. 492-A-00-06-
                            00031, Managed by the UPecon
                            Foundation, Inc., for the Year Ended
                            December 31, 2011




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  98
  Report         Date of                  Report Title                    Amt. of    Type of
  Number         Report                                                   Findings   Findings
                                                                           ($000)
5-497-13-018-R   02/25/13   Closeout Audit of the Statement of Costs
                            Incurred and Billed to USAID/Indonesia by
                            Swisscontact to Implement The Aceh
                            Polytechnic Program (TAPP),
                            USAID/Indonesia Contract No. 497-C-00-08-
                            00001-00, for the Period From January 1,
                            2012, to September 30, 2012
5-388-13-019-R   03/06/13   Financial Audit of the Social Marketing
                            Sustainability Program, USAID/Bangladesh
                            Cooperative Agreement No. 388-A-00-08-
                            00020-00, Managed by the Social Marketing
                            Company (SMC), for the Period From
                            October 1, 2010, to September 30, 2011
5-486-13-020-R   03/08/13   Financial Audit of the Anti-Trafficking in
                            Persons Pan-Asian Campaign, USAID/RDMA
                            Cooperative Agreement No. 486-A-00-06-
                            00015-00, Managed by the MTV EXIT
                            Foundation (MTV), for the Period From
                            January 1, 2011, to December 31, 2011
5-386-13-021-R   03/25/13   Financial Audit of the Enhance Karnataka
                            Project, Cooperative Agreement No. 386-A-
                            00-06-00144, Managed by the University of
                            Manitoba (UOM), for the Period From
                            April 1, 2011, to March 31, 2012
6-294-13-001-O   10/29/12   Close-out Examination of Saqqa & Khodari's
                            Compliance With Terms and Conditions of
                            Firm Fixed Price Contract Under American
                            Intercontinental Constructors Prime
                            Indefinite Quantity Contract Number 294-I-
                            00-08-00215-00 Task Order Numbers 27
                            and 28, Infrastructure Needs Program I, for
                            the Period From November 8, 2010, to
                            June 30, 2011
6-294-13-002-O   11/13/12   Close-out Examination of Al-Maher General
                            Construction Company's Compliance With
                            Terms and Conditions of Its Sub-Fixed Price
                            Contract Number EO1-H-SW-013, Under
                            Prime ANERA Cooperative Agreement
                            Number 294-A-00-08-00219-00, for the
                            Period From November 3, 2009, to
                            November 3, 2010




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  99
  Report         Date of                  Report Title                    Amt. of    Type of
  Number         Report                                                   Findings   Findings
                                                                           ($000)
6-294-13-003-O   11/13/12   Close-out Examination of Al-Tayseer for
                            Contracting and Trading Company's
                            Compliance With Terms and Conditions of
                            its Sub-Fixed Price Contract Number EO1-
                            WSO-CW-012, Under Prime ANERA,
                            Cooperative Agreement Number 294-A-00-
                            08-00219-00, for the Period From
                            September 8, 2009, to May 31,2010
6-294-13-003-R   10/29/12   Close-out Audit of the Fund Accountability
                            Statement of USAID Resources Managed by
                            Bethlehem Chamber of Commerce and
                            Industry Under Sub-Award Numbers EDIP-
                            006 and EDIP-009 Under Prime Carana, Task
                            Order Number 294-EEM-I-03-07-00006-00,
                            Enterprise Development and Investment
                            Promotion, for the Period From October 26,
                            2009, to January 31, 2010
6-294-13-004-O   11/13/12   Close-out Examination of Al-Ukab Company
                            for General Contracting's Compliance With
                            Terms and Conditions of Its Sub-Fixed Price
                            Contract Number EO1-Y-SW-037, Under
                            Prime ANERA, Cooperative Agreement
                            Number 294-A-00-08-00219-00, for the
                            Period From November 3, 2009, to
                            October 20, 2010
6-294-13-005-N   11/25/12   Close-out Audit of the Fund Accountability
                            Statement of USAID Resources Managed by
                            Near East Industries and Trade, Agreement
                            Number 218, Under USAID Task Order
                            Number AFP-I-01-03-00020-00, With
                            CARANA Corporation, for the Period From
                            September 25, 2005, to September 24,
                            2007
6-294-13-006-N   11/27/12   Close-out Audit of the Fund Accountability      133        QC
                            Statement of USAID Resources Managed by         124        UN
                            Palestine Trade Center (PALTRADE),
                            Cooperative Agreement Number 294-A-00-
                            01-00103-00, Increased Trade and
                            Investments in the West Bank and Gaza, for
                            the Period From March 20, 2004, to
                            December 31, 2004




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  100
  Report         Date of                  Report Title                     Amt. of    Type of
  Number         Report                                                    Findings   Findings
                                                                            ($000)
6-294-13-006-O   12/02/12   Close-out Examination of Saqqa & Khoudary
                            Company Ltd.'s Compliance With Terms and
                            Conditions of USAID Contract Number 294-
                            I-01-07-00209-00, Bani Naim Water Project,
                            for the Period From September 30, 2007, to
                            September 26, 2008
6-294-13-006-R   10/29/12   Audit of the Fund Accountability Statement
                            of USAID Resources Managed by Right to
                            Play Under USAID Cooperative Agreement
                            Number 294-A-00-09-00212-00, Sport and
                            Play as Effective and Innovative Tool to
                            Promote Peace, Building Conflict Mitigation,
                            and Reconciliation Among Palestinians in
                            the West Bank and Gaza Strip, for the
                            Period From July 1, 2010, to September 30,
                            2011
6-294-13-007-O   12/04/12   Close-out Examination of Juzoor Foundation
                            for Health and Social Development
                            Compliance With Terms and Conditions of
                            Sub-Task Orders Number 1, 2, 3, and 4,
                            Indefinite Quantity Subcontract Number
                            294-C-00-08-00225-00-08, Under Prime
                            Chemonics International Inc., Contract
                            Number 294-C-00-08-00225-00, the
                            Flagship Project, for the Period From
                            October 26, 2009, to August 15, 2010
6-294-13-008-O   12/04/12   Close-out Examination of Al-Loay for
                            General Contracting's Compliance With
                            Terms and Conditions of Fixed Unit Price
                            Subcontracts with CHF International
6-294-13-009-N   12/18/12   Audit of the Statement of Deposits and
                            Releases of Resources Managed by the
                            Palestinian Authority, Through the Ministry
                            of Finance Under Cash Transfer Agreement
                            Number 294-CT-00-10-00001-00, for the
                            Period From December 8, 2009, to March 7,
                            2010
6-294-13-009-O   12/04/12   Close-out Examination of Bourj Jenin
                            Company for General Contracting's
                            Compliance with Terms and Conditions on
                            Fixed Unit Price Subcontracts With CHF
                            International




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  101
  Report         Date of                  Report Title                     Amt. of    Type of
  Number         Report                                                    Findings   Findings
                                                                            ($000)
6-263-13-009-R   11/20/12   Close-out Financial Audit of the Egyptian         5         QC
                            Nongovernmental Organization Service
                            Center, Annual Program Statement NGO's
                            Capacity Building Project, Funded by USAID
                            Under Agreement Number 263-A-00-06-
                            00037-00, for the Period From June 20,
                            2006, to June 19, 2008
6-294-13-010-N   12/18/12   Audit of the Statement of Deposits and
                            Releases of Resources Managed by the
                            Palestinian Authority, Through the Ministry
                            of Finance Under Cash Transfer Agreement
                            Number 294-CT-00-10-00002-00, for the
                            Period From April 24, 2010, to July 23, 2010
6-294-13-010-O   12/05/12   Close-out Examination of Abed Rabbo for
                            General Contracting and Trade's
                            Compliance with Terms and Conditions of
                            Fixed Unit Price Subcontracts with CHF
                            International
6-294-13-011-O   12/05/12   Close-out Examination of Al-Atmawi
                            Company for Construction's Compliance
                            with Terms and Conditions of Fixed Unit
                            Price Subcontracts with CHF International
6-263-13-011-R   11/27/12   Close-out Audit of the Regional Center for        43        QC
                            Training (RCT) in Family Planning and             43        UN
                            Reproductive Health Project, Under USAID
                            Agreement Numbers 263-0287.02 and 263-
                            0287.07, Pursuant to Implementation Letter
                            Number 3, for the Period From March 1,
                            2005, Through September 30, 2008
6-263-13-012-R   12/09/12   Financial Audit of the Egyptian Banking
                            Institute, Cooperative Agreement Number
                            263-A-00-05-00018-00, High Level Training
                            for Egyptian Bankers and Central Bank of
                            Egypt Staff, for the Period January 1, 2007,
                            Through August 31, 2008
6-294-13-013-O   12/10/12   Close-out Examination of AL-Moath
                            Engineering Company for Contracting's
                            Compliance With Terms and Conditions of
                            Fixed Unit Price Subcontracts With CHF
                            International




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  102
  Report         Date of                 Report Title                    Amt. of    Type of
  Number         Report                                                  Findings   Findings
                                                                          ($000)
6-263-13-013-R   12/13/12   Close-out Financial Audit of the Egyptian     1,486       QC
                            Banking Institute, High Level Training for      2         UN
                            Egyptian Bankers and Central Bank of Egypt
                            Staff, Under Cooperative Agreement
                            Number 263-A-00-05-00018-00, for the
                            Period September 1, 2008, Through
                            September 30, 2009
6-294-13-014-N   02/10/13   Audit of the Funds Accountability
                            Statement of USAID Resources Managed by
                            the American International School Gaza, a
                            Subgrantee Under Grants Number
                            ARDWBG388 and ARDWBG389 Under Prime
                            Associates in Rural Development, Under
                            Contract Number DFD-I-04-05-00218-00,
                            the Civic Engagement Program II, for the
                            Period From August 19, 2009, to February
                            15, 2010
6-294-13-014-O   12/10/12   Close-out Examination of AL-Salfeeti
                            Contracting Establishment's Compliance
                            With Terms and Conditions of Fixed Unit
                            Price Subcontract With CHF International
6-263-13-014-R   12/17/12   Close-out Financial Audit of Alexandria
                            Business Association, Small and Micro
                            Enterprises Project, Under Cooperative
                            Agreement Number 263-A-00-02-00005-00,
                            for the Period From January 1, 2007, to
                            September 30, 2007
6-294-13-015-O   12/10/12   Close-out Examination of ID Management's
                            Compliance With Terms and Conditions of
                            Fixed Unit Price Subcontract With CHF
                            International
6-263-13-015-R   01/22/13   Financial Audit of Community and                5         QC
                            Institutional Development Company,              5         UN
                            Education of Sustainable Development
                            Project, Funded by USAID Grant Number
                            263-G-00-07-00102-00, for the Period From
                            October 1, 2007, to September 30, 2008
6-294-13-016-O   12/11/12   Close-out Examination of AL-Aziz Company
                            for Construction and Contracting's
                            Compliance With Terms and Conditions of
                            Fixed Unit Price Subcontracts With CHF
                            International




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  103
  Report         Date of                  Report Title                    Amt. of    Type of
  Number         Report                                                   Findings   Findings
                                                                           ($000)
6-263-13-016-R   01/22/13   Audit of the Fund Accountability Statement
                            of USAID Resources Managed by
                            Transparency International e. V., Berlin,
                            Germany, Grant Number 263-G-00-07-
                            00103-00, Measuring Anticorruption Efforts
                            and Building Demand for Effective National
                            Integrity Systems in Egypt and the Arab
                            World, for the Period From January 1, 2010,
                            to December 31, 2010
6-263-13-017-N   03/10/13   Close-out Audit of USAID Resources               4         QC
                            Managed and Expenditures Incurred by             4         UN
                            New Horizon Association for Social
                            Development, Promoting Democracy and
                            Human Rights Program, Grant Agreement
                            Number 263-G-00-05-00061-00, for the
                            Period From October 1, 2007, to
                            September 30, 2008
6-294-13-017-O   12/11/12   Close-out Examination of Brothers
                            Company for Contracting's Compliance
                            With Terms and Conditions of Fixed Unit
                            Price Subcontracts With CHF International
6-263-13-017-R   02/10/13   Close-out Financial Audit of USAID               33        QC
                            Resources Managed and Expenditures
                            Incurred by Hand In Hand for Egypt, Under
                            Effective Political Participation Project,
                            USAID/Egypt Grant Agreement Number
                            AID-263-G-11-00007, for the Period From
                            June 1, 2011, to June 3, 2012
6-294-13-018-O   12/11/12   Close-out Examination of Al Bayan Modern
                            Company for Construction's Compliance
                            With Terms and Conditions of Fixed Unit
                            Price Subcontracts With CHF International
6-294-13-019-O   12/11/12   Close-out Examination of Iwan for General
                            Contracting Company's Compliance With
                            Terms and Conditions of Fixed Unit Price
                            Subcontracts With CHF International
6-263-13-019-R   02/18/13   Close-out Financial Audit of USAID
                            Resources Managed and Expenditures
                            Incurred by Al Karma Edutainment, Under
                            Middle East Youth Media Initiative Project,
                            Cooperative Agreement Number 263-A-00-
                            06-00102-00, for the Period From January 1,
                            2011, to December 31, 2011




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  104
  Report         Date of                  Report Title                    Amt. of    Type of
  Number         Report                                                   Findings   Findings
                                                                           ($000)
6-263-13-020-N   03/19/13   Close-out Financial Audit of Special Expert
                            Technical Assistance for Institutional
                            Development Monitoring Unit, Ministry of
                            Investment, Financial Sector Modernization
                            Program, Competitive Environment for
                            Investment, Grant Agreement Number 263-
                            0289.02, Implementation Letter Number 5,
                            for the Period From December 1, 2007, to
                            September 30, 2009
6-294-13-020-O   12/11/12   Close-out Examination of Al-Tamayouz for
                            General Contracting's Compliance With
                            Terms and Conditions of Fixed Unit Price
                            Subcontracts With CHF International
6-263-13-020-R   02/24/13   Financial Audit of USAID Resources
                            Managed and Expenditures Incurred by Al
                            Karma Edutainment, Under Middle East
                            Youth Media Initiative Project, Cooperative
                            Agreement Number 263-A-00-06-00102-00,
                            for the Period From September 27, 2006, to
                            December 31, 2010
6-294-13-021-O   12/11/12   Close-out Examination of Ali Elias Abu
                            Dayeh and Brothers for Contracting's
                            Compliance With Terms and Conditions of
                            Fixed Unit Price Subcontract With CHF
                            International
6-263-13-022-R   03/10/13   Close-out Audit of Governing Justly and          2         QC
                            Democratically Project, USAID Grant              2         UN
                            Agreement Number 263-G-00-08-00004-00,
                            Implemented by the Coptic Evangelical
                            Organization for Social Services, for the
                            Period January 1, 2010, Through
                            December 31, 2010
6-294-13-023-O   12/20/12   Close-out Examination of AL-Firdaws
                            Company for Engineering Contracting's
                            Compliance With Terms and Conditions of
                            Fixed Unit Price Subcontracts With CHF
                            International
6-294-13-024-O   01/02/13   Close-out Examination of Al-Omad
                            Contracting Company's Compliance With
                            Terms and Conditions of Fixed Unit Price
                            Subcontract With CHF International




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  105
  Report         Date of                  Report Title                     Amt. of    Type of
  Number         Report                                                    Findings   Findings
                                                                            ($000)
6-294-13-024-R   03/25/13   Audit of the Fund Accountability Statement
                            of USAID Resources Managed by H.L
                            Education for Peace, Under USAID
                            Cooperative Agreement Number 294-A-00-
                            10-00106-00, Advancing Public Support for a
                            Negotiated Agreement, for the Period From
                            May 7, 2010, to November 7, 2011
6-294-13-025-O   01/02/13   Close-out Examination of Al-Lo'lo'a for
                            General Contracting's Compliance With
                            Terms and Conditions of Fixed Unit Price
                            Subcontracts With CHF International
6-294-13-025-R   03/26/13   Close-out Audit of Locally Incurred Costs of
                            USAID Resources Managed by
                            Subcontractor Arabtech Jardaneh Engineers
                            and Architects/Palestine, Under Prime
                            MWH Americas Inc., Indefinite Quantity
                            Contract Number 294-I-00-08-00202-00,
                            Task Orders Number 1 and 2, Infrastructure
                            Needs Program I, for the Period From
                            January 1, 2010, to June 30, 2012
6-294-13-026-O   01/02/13   Close-out Examination of Al-Hanani
                            Company for General Contracting's
                            Compliance With Terms and Conditions of
                            Fixed Unit Price Subcontracts With CHF
                            International
6-294-13-027-O   01/02/13   Close-out Examination of Al-Qalaa Company
                            for Contracting's Compliance With Terms
                            and Conditions of Fixed Unit Price
                            Subcontracts With CHF International
6-294-13-028-O   01/02/13   Close-out Examination of Zeita Company for
                            Contracting's Compliance With Terms and
                            Conditions of Fixed Unit Price Subcontracts
                            With CHF International
6-294-13-029-O   01/22/13   Close-out Examination of Abu AL-Fillat and
                            Rajabi Company for Contracting and
                            Engineering's Compliance With Terms and
                            Conditions of Fixed Unit Price Subcontracts
                            With CHF International
6-294-13-030-O   01/22/13   Close-out Examination of AL-Rakaez
                            Contracting Company's Compliance With
                            Terms and Conditions of Fixed Unit Price
                            Subcontract With CHF International
6-294-13-031-O   01/22/13   Close-out Examination of AL-Quds Office for
                            Construction and Contracting's Compliance
                            With Terms and Conditions of Fixed Unit
                            Price Subcontract With CHF International




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  106
  Report         Date of                   Report Title                    Amt. of    Type of
  Number         Report                                                    Findings   Findings
                                                                            ($000)
6-294-13-032-O   01/22/13   Close-out Examination of AL-Naser
                            Engineering and Construction Institute
                            Compliance With Terms and Conditions of
                            Fixed Unit Price Subcontracts With CHF
                            International
6-294-13-033-O   01/22/13   Close-out Examination of Community
                            Development Group Compliance With its
                            Sub-Fixed Price Contract Under Prime
                            CH2MHILL, Contract Number 294-C-00-00-
                            00063-00, Integrated Water Resources
                            Phase III, for the Period From October 1,
                            2007, to September 30, 2008
6-294-13-034-O   01/22/13   Close-out Examination of Yassin Al-'rooj for
                            General Contracting's Compliance with
                            Terms and Conditions on Fixed Unit Price
                            Subcontracts with CHF International
6-294-13-035-O   01/30/13   Close-out Examination of Alam AL-Jawaher
                            Company for Contracting's Compliance
                            With Terms and Conditions of Fixed Unit
                            Price Subcontracts With CHF International
6-294-13-036-O   01/30/13   Close-out Examination of AL-Safa Modern
                            Company for Contracting's Compliance with
                            Terms and Conditions of Fixed Unit Price
                            Subcontracts with CHF International
6-294-13-037-O   01/30/13   Close-out Examination of Abu Kteish
                            Brothers Company's Compliance With
                            Terms and Conditions of Fixed Unit Price
                            Subcontracts With CHF International
6-294-13-039-O   02/10/13   Close-Out Examination of Ardan's
                            Compliance With Terms and Conditions of
                            Fixed Unit Price Subcontract Numbers
                            WSRP PO 004 & WSRP PO 007B, Under
                            Prime Morganti, Indefinite Quantity
                            Contract Number 294-I-00-08-00216-00,
                            Infrastructure Needs Program I, Task Order
                            Number 29 for the Period From April 17,
                            2010, to June 20, 2011
6-294-13-041-O   02/10/13   Close-out Examination of Al-Amjad Al
                            Arabia for Contracting and General
                            Construction Sub-Fixed Price Contract
                            Number ARDWBG302-SC1, Under Prime
                            ARD, Task Order Number DFD-I-04-05-
                            00218-00, Civic Engagement Program II, for
                            the Period From February 22, 2010, to
                            August 3, 2010




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  107
  Report         Date of                  Report Title                     Amt. of    Type of
  Number         Report                                                    Findings   Findings
                                                                            ($000)
6-294-13-042-O   03/18/13   Close-out Examination of Arabic Contractor
                            Co. Compliance With Terms and Conditions
                            of its Sub-Fixed Price Contract Under Prime
                            International Relief and Development, Task
                            Order Number 8, USAID Indefinite Quantity
                            Contract Number 294-I-00-08-00217-00, for
                            the Period From November 12, 2009, to
                            May 11, 2010
6-294-13-043-O   03/27/13   Close-out Examination of Paltrade's
                            Compliance with Terms and Conditions of
                            Fixed Unit Price Subcontracts with CARANA
6-294-13-044-O   03/27/13   Close-out Examination of Mahmoud Jebril
                            Mousa Rabi Company's Compliance With
                            Terms and Conditions of Fixed Unit Price
                            Subcontracts with CHF International
7-620-13-001-R   01/14/13   Recipient Contracted Close-out Audit of           45        QC
                            USAID Resources Managed by Young                  27        UN
                            Women Christian Association of Nigeria
                            (YWCA) Under the Y-Care Project (CA No.
                            620-A-00-07-000259-00) for the Period
                            January 1, 2009, Through March 15, 2010
7-620-13-002-R   01/31/13   Closeout Audit of USAID Resources                  3        QC
                            Managed by the Christian Health                   80        BU
                            Association of Nigeria (CHAN) Under the
                            Nigeria Indigenous Capacity Building
                            (NICAB) Program Agreement No. 620-A-00-
                            07-00180-00 for the Period From January 1,
                            2011, Through March 31, 2012
F-306-13-001-N   10/24/12   Financial audit of Local Costs Incurred by        92        QC
                            the American University of Afghanistan            55        UN
                            under USAID Direct Support to AUAF
                            Program, Cooperative Agreement No. 306-
                            A-00-08-00525-00 for the Period From
                            July 1, 2009, to June 30, 2011
F-306-13-001-R   10/03/12   Financial Audit of the Program
                            "Regenerating Murad Khane, Restoring
                            Refurbishing and Revitalizing the Old City,"
                            Cooperative Agreement No. 306-A-09-
                            00503-00, Managed by the Turquoise
                            Mountain Trust (TMT), for the Period From
                            January 1, 2011, to December 31, 2011




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  108
  Report         Date of                   Report Title                     Amt. of    Type of
  Number         Report                                                     Findings   Findings
                                                                             ($000)
F-306-13-003-N   01/10/13   Closeout Audit of USAID Resources                 290        QC
                            Managed by the International Organization         46         UN
                            for Migration Under the Afghan Civilian
                            Assistance Program, Cooperative
                            Agreement Number. 306-A-00-07-00516-
                            00, for the Period From June 5, 2007, to
                            November 30, 2011
G-391-13-001-O   10/24/12   Report on Agreed-Upon Procedures                 6,223       QC
                            Performed on Rural Support Programmes            6,007       UN
                            Network (RSPN) Under Agreement No. 391-
                            A-00-11-01213-00, for Sindh Agricultural
                            Recovery Project, for the Period From
                            November 15, 2010, to July 31, 2011
G-391-13-001-R   10/02/12   Financial Audit of the Program Titled:
                            "Family Advancement for Life and Health,"
                            Sub-agreement No. SR0846A Financed by
                            Population Council Through USAID/Pakistan
                            Agreement No. 391-A-00-07-01092-00,
                            Managed by Rural Support Programmes
                            Network, for the Year Ended June 30, 2011
G-391-13-002-R   10/03/12   Close-out Financial Audit of the Program           1         QC
                            Titled: "Emergency Relief Items to
                            Communities Affected by Floods in
                            Pakistan," USAID/Pakistan Agreement no.
                            391-A-00-10-01187-00, Managed by Rural
                            Support Programmes Network, for the
                            Period From August 13, 2010, to
                            November 15, 2010
G-391-13-003-R   10/03/12   Financial Audit of the Program Titled:
                            "Assessment and Strengthening Program
                            for Civil Society Organizations,"
                            USAID/Pakistan Agreement No. 391-A-00-
                            11-01201-00, Managed by Rural Support
                            Programmes Network, for the Period From
                            October 12, 2010, to June 30, 2011
G-391-13-004-R   10/04/12   Financial Audit of the Program Titled: "Small
                            Grants and Ambassador's Fund Program,"
                            Sub-Award Under USAID/Pakistan Contract
                            No. 391-C-00-10-01189-00, Managed by
                            Rural Support Programmes Network, for the
                            Period From August 31, 2010, to June 30,
                            2011




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  109
  Report         Date of                   Report Title                     Amt. of    Type of
  Number         Report                                                     Findings   Findings
                                                                             ($000)
G-391-13-017-R   03/08/13   Financial Audit of USAID/Pakistan
                            Cooperative Agreement No. 391-A-00-11-
                            01206-00, Managed by Dairy Rural
                            Development Foundation (DRDF), for the
                            Year Ended June 30, 2012
                                  U.S.-Based Contractors


0-000-13-001-D   10/02/12   International Resources Group, Ltd. Report       1,304       QC
                            on Incurred Costs for Fiscal Year (FY) Ended     1,304       UN
                            December 31, 2003
0-000-13-002-D   10/02/12   Planning and Development Collaborative            80         QC
                            International, Inc. (PADCO) Report on Direct      80         UN
                            Cost Incurred and Billed Under USAID
                            Contracts for the Period October 1, 2004,
                            through September 30, 2005
0-000-13-003-D   10/04/12   Parsons Constructors & Fabricators, Inc.
                            (PCFI) Report on Incurred Cost Audit for
                            Fiscal Year (FY) Ended December 31, 2005
0-000-13-004-D   10/05/12   Parsons Infrastructure & Technology Group,         2         QC
                            Inc., Parsons Project Services, Inc. and
                            Parsons Group International, Ltd.
                            (Parsons)—Report on Incurred Costs for
                            Fiscal Year (FY) Ended December 31, 2006
0-000-13-005-D   10/17/12   The Services Group, Inc. (TSG) Report on          168        QC
                            Supplemental Incurred Cost Audit for Fiscal       36         UN
                            Year (FY) Ended December 31, 2002
0-000-13-006-D   10/17/12   The Services Group, Inc. (TSG) Report on          40         QC
                            Supplemental Incurred Cost Audit for Fiscal
                            Year (FY) Ended December 31, 2003
0-000-13-007-D   10/10/12   Camp Dresser & McKee, Inc. (CDM)
                            Noncompliance with Cost Accounting
                            Standard 405
3-000-13-008-D   11/26/12   John Snow, Inc. (JSI) Report on John Snow,
                            Inc.'s Overall Billing System
3-000-13-009-D   01/02/13   Camp Dresser & McKee—International                113        QC
                            Report on Incurred Costs for Fiscal Year (FY)
                            Ended December 31, 2005
3-000-13-010-D   01/02/13   Pillar Systems Corporation (PSC) Report on
                            Incurred Costs for Fiscal Year (FY) Ended
                            December 31, 2007
3-000-13-011-D   01/09/13   Pillar Systems Corporation (PSC) Report on         5         QC
                            Incurred Costs for Fiscal Year (FY) Ended
                            December 31, 2006




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  110
  Report         Date of                   Report Title                     Amt. of    Type of
  Number         Report                                                     Findings   Findings
                                                                             ($000)
3-000-13-012-D   02/01/13   Parsons Constructors & Fabricators, Inc.
                            Report on Incurred Costs for Fiscal Year (FY)
                            Ended December 29, 2006
3-000-13-013-D   03/27/13   The Louis Berger Group, Inc. Report on
                            Control Environment and Overall
                            Accounting System
3-000-13-014-D   03/28/13   Berger Group Holdings, Inc. (BGHI) Report
                            on Revised Disclosure Statement, Dated
                            May 27, 2011
4-615-13-003-N   02/22/13   Agency Contracted Audit of USAID                  113        QC
                            Resources Managed by Chemonics                    11         UN
                            International, Inc. Under Contract No. AID-
                            623-C-00-09-00014 for the Period From
                            July 6, 2009, to December 31, 2011
5-492-13-001-O   11/28/12   Report on Agreed-Upon Procedures                  758        QC
                            Performed on Local Costs Incurred by the          758        UN
                            Management Systems International (MSI),
                            Under USAID/Philippines' Indefinite
                            Quantity Contract No. DFD-I-00-03-00144-
                            00, to Implement the Millennium Challenge
                            Account-Philippine Threshold Plan Technical
                            Assistance Project (MCA-PTP TAP), for the
                            Period From November 22, 2006, to
                            October 31, 2008
6-267-13-001-D   11/14/12   Independent Audit of Cardno Emerging
                            Market, Ltd.'s Report on Costs Incurred and
                            Billed to the Prime Contractor Management
                            Systems International (MSI) Under USAID
                            Subcontract No. DFD-I-00-05-00221-00 for
                            the Period of October 1, 2007, Through
                            September 30, 2008
6-294-13-001-N   11/18/12   Audit of the Cost Representation Statement
                            of USAID Resources Managed by Chemonics
                            Under Task Order Number 294-EEM-I-04-
                            07-00008-00, Trade Facilitation Project, for
                            the Period From June 6, 2008, to June 30,
                            2010
6-267-13-002-D   11/29/12   Independent Audit on Cost Verification for
                            October 1, 2010, Through January 1, 2012,
                            Management Systems International Audit
                            Report No. 6431-2012P17900006




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  111
  Report         Date of                   Report Title                     Amt. of    Type of
  Number         Report                                                     Findings   Findings
                                                                             ($000)
6-294-13-002-N   11/19/12   Audit of Local Costs Incurred by Louis
                            Berger Inc., Under Contract Number 294-
                            GEG-I-00-04-00003-00, Modernizing
                            Financial Institutions for West Bank and
                            Gaza, for the Period From July 1, 2008, to
                            June 30, 2009
6-294-13-002-R   10/29/12   Close-out Audit of the Cost Representation
                            Statement of USAID Resources Managed by
                            Carana Corporation Under Award Number
                            294-EEM-I-03-07-00006-00, Enterprise
                            Development and Investment Promotion,
                            for the Period From July 1, 2010, to June 28,
                            2012
6-267-13-003-D   12/19/12   Independent Audit of Incurred and Billed          21         QC
                            Costs USAID Delivery Order 267-O-00-09-
                            00513-00 (Perform) September 30, 2009,
                            through September 30, 2011, the QED
                            Group, LLC
6-294-13-003-N   11/20/12   Audit of Costs Incurred and Billed to USAID        4         QC
                            by Associates in Rural Development Inc.,           4         UN
                            Under USAID Contract Number 294-C-00-
                            02-00211-00, Emergency Assistance
                            Program to the Palestinians in the West
                            Bank and Gaza Through Local NGOs, for the
                            Period From February 10, 2006, to
                            September 30, 2007
6-267-13-004-D   12/19/12   Independent Audit of Incurred and Billed          19         QC
                            Costs USAID Purchase Order 267-O-00-08-
                            00507-00 (Manpower) September 13, 2008,
                            through September 30, 2011, the QED
                            Group, LLC
6-294-13-004-N   11/25/12   Close-out Audit of the Cost Representation
                            Statement of USAID Resources Managed by
                            the Service Group, Subaward Number PITA-
                            WBG-001 Under Chemonics Contract
                            Number PCE-I-00-98-00015-00, Task Order
                            Number 22, for the Period From October 1,
                            2007, to September 28, 2008
6-294-13-005-O   11/19/12   Close out Examination of APCO/ArCon's
                            Compliance With Terms and Conditions
                            Under USAID Indefinite Quantity Contract
                            Number 294-I-00-08-00221-00,
                            Infrastructure Needs Program I, Task Order
                            Numbers 24, 30, and 49 for the Period From
                            November 30, 2009, to August 4, 2011




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  112
  Report         Date of                  Report Title                   Amt. of    Type of
  Number         Report                                                  Findings   Findings
                                                                          ($000)
6-294-13-007-N   12/04/12   Audit of the Cost Representation Statement      5         QC
                            of USAID Resources Managed by CARANA
                            Under Task Order Number 294-EEM-I-03-
                            07-00006-00, Enterprise Development and
                            Investment Promotion Project, for the
                            Period From September 30, 2008, to
                            June 30, 2010
6-294-13-007-R   11/13/12   Audit of Locally Incurred Costs of USAID
                            Resources Managed by Black and Veatch
                            Special Projects Corporation Under USAID
                            Indefinite Quantity Contract Number 294-I-
                            00-10-00205-00, Task Order Number 1,
                            Infrastructure Needs Program Phase II, for
                            the Period From September 30, 2010, to
                            September 30, 2011
6-294-13-008-R   11/18/12   Audit of Locally Incurred Costs of USAID
                            Resources Managed by Chemonics
                            International Inc., Under Task Order
                            Number 294-DFD-I-00-05-00219-00,
                            Palestinian Authority Capacity
                            Enhancement, for the Period From July 1,
                            2010, to December 31, 2011
6-294-13-010-R   11/25/12   Close-out Audit of ShoreBank International
                            Cost Representation Statement under
                            Subaward No.EEM-A-00-06-00001-00,
                            Under Prime AED (FHI 360), Cooperative
                            Agreement No.294-A-00-08-00222-00,
                            Expanded and Sustained Access to Financial
                            Services (ESAF) Program, for the Period
                            From October 01, 2009, to August 31, 2011
6-294-13-012-O   12/06/12   Close-out Examination of American
                            Intercontinental Constructors' Compliance
                            With Terms and Conditions of USAID
                            Contract Number 294-I-00-08-00215-00,
                            Task Order Number 9, Infrastructure Needs
                            Program, for the Period From August 20,
                            2008, to September 16, 2009
6-294-13-013-N   02/06/13   Audit of Local Costs Incurred by Louis         58         QC
                            Berger Group, Under Contract Number 294-
                            GEG-I-00-04-00003-00, Modernizing
                            Financial Institutions for West Bank and
                            Gaza, for the Period From July 1, 2009, to
                            September 29, 2010




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  113
  Report         Date of                   Report Title                     Amt. of    Type of
  Number         Report                                                     Findings   Findings
                                                                             ($000)
6-294-13-016-N   03/03/13   Audit of Fund Accountability Statement of
                            Local Costs Incurred by Education
                            Development Center, Under Cooperative
                            Agreement Number 294-A-00-05-00241-00,
                            Palestinian Youth Empowerment Program,
                            for the Period From July 1, 2009, to June 30,
                            2010
6-294-13-021-N   03/19/13   Audit of USAID Resources Managed by
                            Montgomery Watson Harza Americas Inc.
                            Under USAID Task Order Number 294-I-01-
                            08-00202-00, Infrastructure Needs
                            Program, for the Period From June 11,
                            2008, to June 30, 2010
6-294-13-022-O   12/13/12   Close-out Examination of APCO/Arcon's
                            Compliance With Terms and Conditions of
                            USAID Contract Number 294-I-00-08-00221-
                            00, Task Order Numbers 1, 2, 5 and 8,
                            Infrastructure Needs Program, for the
                            Period From August 20, 2008, to
                            September 11, 2009
6-294-13-038-O   02/10/13   Close-out Examination of Morganti's
                            Compliance With Terms and Conditions of
                            Indefinite Quantity Contract Number 294-I-
                            00-08-00216-00, Infrastructure Needs
                            Program I, Task Order Number 29, for the
                            Period From January 1, 2011, to June 20,
                            2011
6-294-13-040-O   02/10/13   Close-Out Examination of American
                            Intercontinental Constructors Under
                            Indefinite Quantity Contract Number 294-I-
                            00-08-00215-00, Infrastructure Needs
                            Program I and Task Orders Number 27 and
                            28, for the Period From November 5, 2010,
                            to December 31, 2011
F-306-13-004-N   02/28/13   Financial Audit of Local Costs Incurred by         60        QC
                            Deloitte Consulting LLP Under "The                 57        UN
                            Economic Growth & Governance Initiative,"
                            USAID Contract No. 306-EEM-I-04-07-00005
                            for the Period August 15, 2009, to
                            September 30, 2010
                                   U.S.-Based Grantees

0-000-13-001-E   10/19/12   Bulgarian-American Enterprise Fund For The
                            Year Ended September 30, 2011




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  114
  Report         Date of                  Report Title                     Amt. of    Type of
  Number         Report                                                    Findings   Findings
                                                                            ($000)
0-000-13-001-T   10/12/12   The Jane Goodall Institute for Wildlife
                            Research, Education and Conservation and
                            Related Entity, OMB Circular A-133 Audit
                            Report for Fiscal Year Ended December 31,
                            2009
0-000-13-002-E   10/23/12   Review of Audit Report of Western NIS
                            Enterprise Fund for the Year Ended
                            September 30, 2011
0-000-13-002-T   11/06/12   CARE USA A-133 Audit Report for Fiscal Year       14        QC
                            Ended June 30, 2011
0-000-13-003-E   10/26/12   Southern Africa Enterprise Development
                            Fund, Audit Report for Fiscal Year Ended
                            September 30, 2011
0-000-13-003-T   10/23/12   Adventist Development and Relief Agency          132        QC
                            International, OMS Circular A-133 Audit          132        UN
                            Report for Fiscal Year Ended December 31,
                            2011
0-000-13-004-T   10/24/12   Cross International, Inc. OMB Circular A-133      8         QC
                            Audit Report for Fiscal Year Ended
                            December 31, 2011
0-000-13-005-T   10/25/12   Women's Campaign International, OMB               3         QC
                            Circular A-133 Audit Report for Fiscal Year       3         UN
                            Ended December 31, 2011
0-000-13-006-T   11/01/12   Catholic Relief Services—U.S. Conference of       6         QC
                            Catholic Bishops, OMB Circular A-133 Audit
                            Report for Fiscal Year Ended September 30,
                            2008
3-000-13-004-E   12/07/12   Romanian-American Enterprise Fund,
                            Consolidated Financial Statements as of and
                            for the Years Ended September 30, 2010,
                            and 2009
3-000-13-005-E   01/02/13   Audit Report for the Romanian-American
                            Enterprise Fund for Fiscal Year Ending
                            September 30, 2011
3-000-13-006-E   02/11/13   Desk Review of the Audit Report for the
                            Bulgarian-American Enterprise Fund for the
                            Year Ending September 30, 2012
3-000-13-007-E   02/13/13   Review of the U.S. Russia Investment Fund
                            for Fiscal Year (FY) Ended September 30,
                            2011
3-000-13-007-T   11/26/12   National Albanian American Council, OMB           57        QC
                            Circular A-133, Audit Report for Fiscal Year      57        UN
                            Ended December 31, 2011




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  115
  Report         Date of                  Report Title                    Amt. of    Type of
  Number         Report                                                   Findings   Findings
                                                                           ($000)
3-000-13-008-E   02/12/13   Review of The Baltic American Enterprise
                            Fund for Fiscal Year (FY) Ended
                            September 30, 2011
3-000-13-008-T   01/16/13   World Wildlife Fund, Inc., OMB Circular A-      200        QC
                            133 Audit Report for Fiscal Year Ended
                            June 30, 2012
3-000-13-009-E   02/14/13   Desk Review of the Audit Report for the
                            Baltic-American Enterprise Fund for the
                            Year Ending September 30, 2012
3-000-13-009-T   01/24/13   Desk Review of the A-133 Audit Report for
                            International Foundation for Electoral
                            Systems for the Year Ended September 30,
                            2011
3-000-13-010-E   02/19/13   Review of the U.S. Russia Investment Fund
                            for Fiscal Year (FY) Ended September 30,
                            2012
3-000-13-010-T   01/25/13   Population Services International, OMB
                            Circular A-133 Audit Report for Fiscal Year
                            (FY) Ended December 31, 2011
3-000-13-011-E   03/15/13   Audit report for the Romanian-American
                            Enterprise Fund for Fiscal Year Ending
                            September 30, 2012
3-000-13-011-T   01/25/13   Desk Review of the A-133 Audit Report for
                            Management Sciences for Health, Inc.
                            Fiscal Year ending June 30, 2011
3-000-13-012-E   03/26/13   Review of Audit Report of Western NIS
                            Enterprise Fund for the Fiscal Year Ended
                            September 30, 2012
3-000-13-012-T   02/01/13   Desk review of A-133 Audit Report of
                            Mercy Corps and Affiliates for the Fiscal
                            Year Ended June 30, 2011
3-000-13-013-T   02/21/13   World Learning Inc., OMB Circular A-133
                            Audit Report for Fiscal Year (FY) Ended
                            June 30, 2012
3-000-13-014-T   02/21/13   CHF International and Related Entities,
                            OMB Circular A-133 Audit Report for Fiscal
                            Year (FY) Ended September 30, 2011
3-000-13-015-T   03/13/13   Review of Pathfinder International OMB
                            Circular A-133 Audit Report for Fiscal Year
                            Ended June 30, 2012
3-000-13-016-T   03/08/13   Review of Mercy Corps and Affiliates OMB
                            Circular A-133 Audit Report for Fiscal Year
                            Ended June 30, 2012




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  116
  Report         Date of                  Report Title                     Amt. of    Type of
  Number         Report                                                    Findings   Findings
                                                                            ($000)
3-000-13-017-T   03/12/13   Review of Education Development Center,
                            Inc. OMB Circular A-133 Audit Report for
                            Fiscal Year Ended September 30, 2012
3-000-13-018-T   03/13/13   Review of Program for Appropriate
                            Technology in Health (PATH) and
                            Subsidiaries, OMB Circular A-133 Audit
                            Report For Fiscal Year Ended December 31,
                            2011
3-000-13-019-T   03/15/13   Public Health Institute, OMB Circular A-133
                            Audit Report for Fiscal Year (FY) Ended
                            December 31, 2011
3-000-13-020-T   03/15/13   Review of Consortium for Elections And
                            Political Process Strengthening, OMB
                            Circular A-133 Audit Report for Fiscal Year
                            Ended September 30, 2011
3-000-13-021-T   03/18/13   Research Triangle Institute (RTI), OMB           191        QC
                            Circular A-133 Audit Report for Fiscal Year
                            (FY) Ended September 30, 2010
3-000-13-022-T   03/18/13   IntraHealth International, Inc. OMB Circular      9         QC
                            A-133 Audit Report for Fiscal Year Ended
                            June 30, 2012
3-000-13-023-T   03/21/13   Research Triangle Institute (RTI), OMB
                            Circular A-133 Audit Report for Fiscal Year
                            Ended September 30, 2011
3-000-13-024-T   03/21/13   Family Health International Development
                            360, Inc. OMB Circular A-133 Audit Report
                            for the Three Month Period Ended
                            September 30, 2011
3-000-13-025-T   03/26/13   Review of the German Marshall Fund of the
                            United States—A Memorial to the Marshall
                            Plan and Subsidiaries, OMB Circular A-133
                            Audit Report For Fiscal Year Ended May 31,
                            2012
6-294-13-001-R   10/29/12   Audit of the Fund Accountability Statement
                            of USAID Resources Managed by American
                            Near East Refugee Aid Under Cooperative
                            Agreement Number 294-A 00-08-00219-00,
                            Emergency Water and Sanitation and Other
                            Infrastructure Program, for the Period July
                            1, 2010, to September 30, 2011
6-294-13-004-R   10/29/12   Audit of the Fund Accountability Statement
                            of USAID Resources Managed by Just Vision
                            Under Grant Agreement Number 294-G-00-
                            09-00213-00, Multi Media Education and
                            Outreach, for the Period From July 1, 2010,
                            to September 30, 2011




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  117
  Report         Date of                  Report Title                      Amt. of    Type of
  Number         Report                                                     Findings   Findings
                                                                             ($000)
6-294-13-005-R   10/29/12   Audit of Locally Incurred Costs of USAID
                            Resources Managed by America-Mideast
                            Educational and Training Services, Inc.
                            Under Cooperative Agreement Number
                            294-A-00-07-00214-00, Model Schools
                            Network Program, for the Period From
                            July 1, 2010, to September 30, 2011
6-294-13-008-N   12/13/12   Close-out Audit of the Fund Accountability
                            Statement Covering Locally Incurred Costs
                            by International Orthodox Christian
                            Charities Inc., Sub-Grants Number
                            ARDWBG 370 and ARDWBG 344, Under
                            Prime Associates for Rural Development,
                            Contract Number DFD-I-04-05-00218-00,
                            Civic Engagement Program II, for the Period
                            From February 6, 2009, to June 30, 2010
6-294-13-011-N   01/22/13   Audit of Locally Incurred Costs of USAID
                            Resources Managed by Cooperative
                            Housing Foundation Under Cooperative
                            Agreement Number 294-A-00-05-00242-00,
                            Local Democratic Reform, for the Period
                            from July 1, 2008, to June 30, 2010
6-294-13-012-N   02/04/13   Audit of Fund Accountability Statement of
                            Local Costs Incurred Under Cooperative
                            Agreement Number 294-A-00-07-00210-00,
                            Vocational Training and Education
                            Development Program (TVET), Managed by
                            Save the Children for the Period From
                            July 1, 2009, to June 30, 2010
6-267-13-015-N   02/12/13   Audit of Fund Accountability Statement of          46        QC
                            Local Costs Incurred, Under Cooperative            46        UN
                            Agreement Number 267-A-00-08-00504-00,
                            Managed by Agricultural Cooperative
                            Development International/Volunteers in
                            Overseas Cooperative Assistance
                            (ACDI/VOCA), Community Action Program
                            III, for the Period From October 1, 2008, to
                            September 30, 2010
6-294-13-018-N   03/10/13   Close-out Audit of the Funds Accountability
                            Statement of USAID Resources Managed by
                            Catholic Relief Services Under Cooperative
                            Agreement Number 294-A-00-09-00210-00,
                            Youth Voices For Community Action
                            Project, for the Period From July 1, 2010, to
                            April 30, 2012




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  118
  Report         Date of                  Report Title                    Amt. of    Type of
  Number         Report                                                   Findings   Findings
                                                                           ($000)
6-294-13-018-R   02/10/13   Audit of Youth Entrepreneurship                  9         QC
                            Development Fund Accountability
                            Statement of Local Costs Incurred, Under
                            Cooperative Agreement Number 294-A-00-
                            10-00209-00, Managed by International
                            Youth Foundation, for the Period
                            September 30, 2010, Through
                            September 30, 2011
6-294-13-019-N   03/19/13   Audit of Locally Incurred Costs by America-
                            Mideast Educational and Training Services,
                            Inc. Under Cooperative Agreement Number
                            294-A-00-07-00214-00, Model Schools
                            Network Program, for the Period From July
                            1, 2008, to June 30, 2010
6-294-13-021-R   03/10/13   Audit of USAID Resources Managed by
                            Mercy Corps, Under Cooperative
                            Agreement Number 294-A-00-10-00210-00,
                            Palestinian Community Assistance
                            Program, for the Period From September
                            29, 2010, to September 30, 2011
6-294-13-022-N   03/25/13   Audit of the Fund Accountability Statement
                            Covering Locally Incurred Costs by Eco-
                            Peace, Friends of Earth Under Cooperative
                            Agreement Number 294-A-00-09-00211-00,
                            for the Period From September 29, 2009, to
                            June 30, 2010
6-294-13-023-R   03/19/13   Audit of the Fund Accountability Statement
                            of USAID Resources Managed by Academy
                            for Educational Development—AED (FHI
                            360) Under Award Number 294-A-00-08-
                            00222-00, Expanded and Sustained Access
                            to Financial Services Program, for the
                            Period From July 1, 2009, to September 30,
                            2011
6-294-13-026-R   03/26/13   Close-out Audit of the Fund Accountability
                            Statement of USAID Resources Managed by
                            CHF International, Award Number 294-A-
                            00-05-00242-00, Local Democratic Reform,
                            for the Period From July 01, 2010, to
                            December 31, 2011
F-306-13-002-N   11/29/12   Close-out Audit of Local Costs Incurred and     303        QC
                            Billed by Oasis International Schools, Inc.     303        UN
                            under the "Establishment of International
                            School of Kabul," Cooperative Agreement
                            No. 306-A-00-05- 00522-00 for the Period
                            From May 27, 2005, to December 31, 2010




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  119
  Report         Date of                  Report Title                    Amt. of    Type of
  Number         Report                                                   Findings   Findings
                                                                           ($000)
F-306-13-005-N   03/17/13   Financial Audit of Costs Incurred in            662        QC
                            Afghanistan by the Citizen Network for          251        UN
                            Foreign Affairs Under the Afghanistan Farm
                            Services Alliance Program, Cooperative
                            Agreement No. 306-A-00-08-00517-00 for
                            the Period January 1, 2010, to
                            September 30, 2011
G-391-13-002-O   12/21/12   Report on Financial Review Procedures          4,776       QC
                            Performed on USAID Resources (Local Cost)      4,697       UN
                            Managed by the Save the Children, USAID
                            Agreement No. 391-A-00-06-01084,
                            Program Titled: "Improved Child Health in
                            Federal Administered Tribal Areas," for the
                            Period From September 21, 2006, to
                            June 30, 2012




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  120
                                Performance Audits
            Associated Questioned Costs, Unsupported Costs, and
         Value of Recommendations That Funds Be Put to Better Use
                                         USAID
                        October 1, 2012–March 31, 2013
                                                                       Amt. of
  Report          Date of                                                         Type of
                                         Report Title                  Findings
  Number          Report                                                          Findings
                                                                        ($000)
                             Audit of USAID/Haiti’s Development
1-521-13-001-P    02/28/13
                             Credit Authority Activities
                             Audit of USAID/Paraguay’s Northern
1-526-13-002-P    03/07/13
                             Zone Initiative
                             Audit of USAID/Haiti's Prevention of
1-521-13-004-P    03/27/13   Sexual Transmission of HIV/AIDS
                             Program
                             Audit of USAID/Southern Africa's
4-674-13-001-P    11/05/12
                             Tuberculosis Activities
                             Audit of Commodities Funded Under
4-611-13-002-P    11/08/12   the President's Malaria Initiative in
                             Zambia
                             Audit of USAID-Funded Net Distribution
                             Activities Implemented by Mennonite
4-621-13-003-P    11/15/12                                                35        QC
                             Economic Development Associates in
                             Tanzania
                             Audit of USAID's Internal Controls Over
4-962-13-004-P    01/07/13   Prepositioned Food Assistance for the
                             Horn of Africa
                             Audit of Feed the Future Activities in
4-663-13-005-P    03/01/13
                             Ethiopia
                             Audit of USAID/Angola's HIV/AIDS
4-654-13-006-P    03/05/13
                             Activities
                             Audit of USAID/Southern Africa's Use of
4-674-13-007-P    03/20/13   Waivers From Full and Open
                             Competition for HIV/AIDS Programs
                             Audit of USAID/Kyrgyzstan's Local
5-116-13-001-P    11/08/12
                             Development Program
                             Audit of USAID/Cambodia's Better
5-442-13-002-P    12/07/12                                               700        QC
                             Health Services Project
                             Audit of USAID/Indonesia's Maternal
5-497-13-003-P    12/11/12
                             and Child Health Integrated Program
                             Audit of USAID/Vietnam's Support for         59        QC
5-440-13-004-P    01/22/13
                             Trade Acceleration Plus Project              59        UN




    USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  121
                                                                       Amt. of
  Report          Date of                                                         Type of
                                         Report Title                  Findings
  Number          Report                                                          Findings
                                                                        ($000)
                             Audit of USAID/Philippines' Private
5-492-13-005-P    03/25/13   Sector Mobilization for Family Health       738        QC
                             Project, Phase II
                             Audit of USAID/Iraq's Legislative
6-267-13-001-P    10/03/12                                              1,487       QC
                             Strengthening Program
                             Audit of USAID/Egypt's Transition           526        QC
6-263-13-002-P    10/22/12                                               526        UN
                             Support Grants Program
                             Audit of USAID/West Bank and Gaza's
6-294-13-003-P    11/25/12                                              2,400       BU
                             Civic Participation Program
                             Audit of USAID/Iraq's Access to Justice
6-267-13-004-P    12/16/12
                             Program
                             Audit of USAID/West Bank and Gaza's
                             Design for Sustainability for Selected
6-294-13-005-P    01/27/13
                             Local Government and Infrastructure
                             Program Activities
                             Audit of USAID/West Bank and Gaza's
6-294-13-006-P    02/07/13   Palestinian Community Assistance
                             Program
                             Audit of USAID/Jordan's Education
6-278-13-007-P    02/18/13
                             Reform Support Program
                             Audit of USAID/Egypt's Education
6-263-13-008-P    02/24/13
                             Support Program
                             Audit of USAID/Egypt's Trade
6-263-13-009-P    03/25/13
                             Facilitation Project
                             Audit of USAID/Benin's Efforts to Treat
7-680-13-001-P    11/09/12
                             and Prevent Malaria
                             Audit of USAID/Georgia's Economic
9-114-13-001-P    12/26/12
                             Prosperity Initiative
                             Audit of USAID/Ukraine's AgroInvest
9-121-13-002-P    03/31/13
                             Project
                             Audit of USAID's Fiscal Year 2012
                             Compliance With the Federal
A-000-13-003-P    11/14/12
                             Information Security Management Act
                             of 2002
                             Audit of Selected Controls Over USAID
A-000-13-004-P    01/30/13
                             Badges Used to Access USAID Facilities
                             Audit of USAID/Pakistan's Design for
                             Sustainability in the Jamshoro Thermal
G-391-13-001-P    01/17/13
                             Power Station Repair and Rehabilitation
                             Project
                             Audit of USAID/Pakistan’s Gender
G-391-13-002-P    03/28/13
                             Equity Program




    USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  122
                                 Miscellaneous Reports
            Associated Questioned Costs, Unsupported Costs, and
         Value of Recommendations That Funds Be Put to Better Use
                                         USAID
                        October 1, 2012–March 31, 2013


                                                                       Amt. of
  Report         Date of                                                          Type of
                                         Report Title                  Findings
  Number         Report                                                           Findings
                                                                        ($000)
                                Quality Control Reviews
                            Quality Control Review of Manuel
                            Cervantes & Asoc., Guatemala, Regarding
                            Audit of USAID Resources "MYAP—
                            Multiyear Assistance Program," Under PL-
1-520-13-001-Q   01/11/13   480 Title II, Cooperative Agreement No.
                            FFP-A-00-07-00010-00, Managed by the
                            Asociación SHARE de Guatemala (SHARE),
                            for the Period October 1, 2009, Through
                            September 30, 2010
                            Quality Control Review of Mendieta y
                            Asociados of Honduras, Regarding
                            Closeout Audit of the Cooperative
                            Agreement No. 522-A-00-06-00302-00 for
                            the "Strengthening the Democratic
1-522-13-002-Q   01/18/13   Processes in Honduras," Managed by the
                            Federation of Non-Governmental
                            Organizations for the Development of
                            Honduras (FOPRIDEH), for the Period
                            From January 1, 2010, to September 30,
                            2010
                            Quality Control Review of Grant Thornton
                            of Honduras, Regarding Audit of the
                            Financial Statements of the Government
1-522-13-003-Q   01/18/13
                            of Honduras Resources Under the Trust
                            Fund Agreement, for the Period From
                            October 1, 2009, to September 30, 2011




    USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  123
                                                                         Amt. of
  Report         Date of
                                          Report Title                   Findings
  Number         Report
                                                                          ($000)
                            Quality Control Review of the Tribunal
                            Superior de Cuentas Honduras, Regarding
                            Audit of the Grant Agreement No. 522-
                            0433 "Investing in People: Healthier and
1-522-13-004-Q   01/25/13   Better Educated People," Managed by the
                            Honduran Secretariat of Health, Through
                            the Unit for Extension of Coverage and
                            Funding (UECF), for the Period From
                            November 15, 2010, to March 31, 2012
                            Quality Control Review of the Audit
                            Report and Audit Documentation for the
                            Financial Audit of the Fund Accountability
                            Statement of USAID Resources Provided
                            Under Strategic Agreement No. 596-A-00-
                            06-00078-00 "Economic Freedom: Open
                                                                           709      QC
1-520-13-005-Q   02/12/13   Diversified Expanding Economies in
                                                                           707      UN
                            Central America and the Dominican
                            Republic-DR-CAFTA," Managed by
                            Comisión Centroamérica de Ambiente y
                            Desarrollo (CCAD) for the Period From
                            January 1, 2010, Through December 31,
                            2010
                            Quality Control Review of El Wafa
                            Company, Close-Out Audit Covering
                            Locally Incurred Costs Under the Cost
                            Representation Statement of Community
                            Development Group, Sub-Contracts Nos.
                            T4040115 93701-OF, T4040115 93753-OF,
                            T4040115 93695-OF and Master Service
6-294-13-001-Q   12/23/12
                            Agreement MSA-CDG-02282010 Signed
                            With Prime MWH Americas Inc. Under
                            Task Orders 1 and 2, Indefinite Quantity
                            Contract no. 294-I-00-08-00202-00,
                            Infrastructure Needs Program 1 With
                            USAID for the Period From March 19,
                            2010, to February 24, 2011
                            Quality Control Review of Ernst & Young,
                            West Bank and Gaza, Audit of the Fund
                            Accountability Statement of USAID
                            Resources Managed by Internews
6-294-13-002-Q   01/10/13   Network Under Award Number 294-A-00-
                            10-00207-00, Enhancing Palestinian
                            Independent Media Program, for the
                            Period From September 30, 2010, to
                            September 30, 2011




    USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  124
                                                                         Amt. of
  Report         Date of                                                            Report
                                         Report Title                    Findings
  Number         Report                                                             Number
                                                                          ($000)
                            Quality Control Review of Talal Abu-
                            Ghazaleh & Co. International, Re-do Close-
                            out Audit of Business Development
6-278-13-003-Q   03/28/13   Center, Tatweer Program, USAID
                            Cooperative Agreement Number 278-A-
                            00-06-00311-00, for the Period
                            December 1, 2008, to February 28, 2010
                            Quality Control Review of Parker Randall
                            Offor Regarding the Audit of USAID
                            Resources Managed by the Christian
                            Health Association of Nigeria Under the
7-620-13-001-Q   11/29/12
                            Nigeria Indigenous Capacity Building
                            (NICAB) Agreement No. 620-A-00-07-
                            00180-00 for the Period From January 1,
                            2010, to December 31, 2010
                            Quality Control Review of Ijewere & Co. in
                            Lagos, Nigeria, Regarding the Audit of
                            USAID Resources Managed by Hope
                            Worldwide Nigeria Under the Assistance
7-620-13-002-Q   11/29/12   and Care for Children Orphaned and at
                            Risk of HIV/AIDS Program (Grant
                            Agreement No. 620-A-00-08-00111-00) for
                            the Period From January 1 to
                            December 31, 2010
                            Quality Control Review of PKF Professional
                            Services Regarding the Audit of USAID
                            Resources Managed by the Catholic
                            Secretariat of Nigeria Under the Scale-Up
7-620-13-003-Q   11/29/12   of the Catholic Community Based
                            Outreach in Response to HIV/AIDS
                            Program ICA No. 620-A-00-07-00217-00)
                            for the Period from November 1, 2009, to
                            October 31, 2010
                            Quality Control Review of the Audit
                            Report and Audit Documentation for the
                            Financial Audit Conducted by Horwath
                            Hussain Chaudhury & Co. of
G-391-13-001-Q   03/08/13
                            USAID/Pakistan Cooperative Agreement
                            No. 391-A-00-11-01206-00, Managed by
                            Dairy Rural Development Foundation, for
                            the Year Ended June 30, 2012
                                          Other
                            Report on USAID's Compliance With the
0-000-13-001-S   03/15/13   Improper Payments Elimination and
                            Recovery Act of 2010




    USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  125
                                                                        Amt. of
  Report         Date of                                                           Report
                                          Report Title                  Findings
  Number         Report                                                            Number
                                                                         ($000)
                            Stage II Risk Assessment for the Ministry
1-519-13-001-S   12/31/12   of Environment and Natural Resources of
                            El Salvador (MARN)
                            Review of USAID/Jordan's Cash Transfer
6-278-13-001-S   01/31/13                                                1,200       QC
                            Activities
                            Review of USAID/Guinea's Rural
7-675-13-001-S   11/30/12
                            Microenterprise Development Project
                            Review of USAID/Serbia's Opportunity
9-000-13-001-S   11/13/12
                            Bank Project
                            Follow-Up Review of USAID's Process of
9-000-13-002-S   11/19/12
                            Suspension and Debarment
                            USAID/Afghanistan's Performance Based
F-306-13-001-S   10/12/12
                            Governors' Fund




    USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  126
                               Reports With Questioned and Unsupported Costs
                                                                 USAID
                                        October 1, 2012–March 31, 2013

                                                                                Questioned                  Unsupported
                                                 Number of
                 Reports                                                          Costs                        Costs1
                                                Audit Reports
                                                                                   ($)                          ($)
A. For which no management
   decision had been made as of                         79                       18,141,2662,3                12,239,6172,3
   October 1, 2012
B. Add: Reports issued October 1,
                                                       108                       29,212,9684                  19,732,2234
   2012–March 31, 2013

Subtotal                                               187                      47,354,234                    31,971,840
C. Less: Reports with a
   management decision made                            1335                      26,696,7956                  15,558,5626
   October 1, 2012–March 31, 2013

      Value of costs disallowed by
                                                                                  10,332,748                   6,921,353
      Agency officials

      Value of costs allowed by
                                                                                  16,364,047                   8,637,209
      Agency officials

D. For which no management
   decision had been made as of                         55                       20,657,4397                  16,413,2787
   March 31, 2013
1
    Unsupported costs, a subcategory of questioned costs, are reported separately as required by the Inspector General Act.
2
 The ending balances on September 30, 2012, for questioned costs totaling $18,300,755 and for unsupported costs totaling
$12,176,169 were decreased by $159,489 for questioned costs and increased by $63,448 for unsupported costs respectively, to
reflect adjustments in recommendations from prior periods.
 3
  Amounts include $2,583,235 in questioned costs and $1,252,051 in unsupported costs for audits performed for OIG by other
 federal audit agencies.
 4
  Amounts include $1,751,670 in questioned costs and $1,420,660 in unsupported costs for audits performed for OIG by other
 federal audit agencies.
 5
  Unlike the monetary figures of this row, this figure is not being subtracted from the subtotal. Some audit reports counted
 here may be counted again in the figure below it because some reports have multiple recommendations and fall into both
 categories.
 6
  Amounts include $3,025,655 in questioned costs and $1,368,461 in unsupported costs for audits performed for OIG by other
 federal audit agencies.
 7
  Amounts reflect $1,309,250 in questioned costs and $1,304,250 in unsupported costs for audits performed for OIG by other
 federal audit agencies.




        USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  127
                                 Reports With Recommendations That
                                        Funds Be Put to Better Use
                                                      USAID
                                    October 1, 2012–March 31, 2013
                                                                             Number of
                                   Reports                                     Audit     Value ($)
                                                                              Reports

A. For which no management decision had been made as of October 1,
                                                                                 0           0
   2012


B. Add: Reports issued October 1, 2012–March 31, 2013                            2       2,480,134


     Subtotal                                                                   2        2,480,134

C.    Less: Reports with a management decision made October 1, 2012–
                                                                                 1       2,400,000
      March 31, 2013


                Value of recommendations agreed to by Agency officials                   1,200,000


                Value of recommendations not agreed to by Agency officials               1,200,000


D. For which no management decision had been made as of March 31,
                                                                                 1        80,134
   2013




        USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  128
               Reports Over 6 Months Old With No Management Decision
                                                 USAID
                                 October 1, 2012–March 31, 2013
       Report                          Issue
                           Auditee                                        Status
       Number                          Date
                                                 Recommendation 5. We recommend that USAID/Pakistan
                                                 determine the allowability of $1,359,337 in questioned
                                                 costs (unsupported) and recover those costs determined
                                                 to be unallowable.

                                                 The Office of Acquisition and Assistance; the Office of
                                                 Financial Management; and Bureau for Economic Growth,
G–391–12–001–P                                   Education, and Environment will investigate the
Audit of USAID/            Pakistan   11/03/11
                                                 unsupported questioned costs of $1,359,337 and make a
Pakistan’s Firms Project
                                                 decision on those costs. A management decision on this
                                                 recommendation will be reached when USAID/Pakistan
                                                 determines whether the questioned costs are allowed or
                                                 disallowed; final action will occur when any disallowed
                                                 amount is collected.




      USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  129
                Significant Revisions of Management Decisions
                                     USAID
                        October 1, 2012–March 31, 2013

Section 5(a) (11) of the Inspector General Act requires a description and explanation of the
reasons for any significant revised management decision during the reporting period.

During this reporting period, USAID did not make any significant revisions of management
decisions.


                      Significant Management Decisions
                  With Which the Inspector General Disagrees
                                          USAID
                          October 1, 2012–March 31, 2013


Section 5 (a) (12) of the Inspector General Act of 1978, as amended, requires semiannual
reports to include information concerning any significant management decisions with
which the inspector general disagrees.

During this reporting period, there were no instances where the Inspector General
disagreed with a significant management decision.




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  130
                               Noncompliance With the
          Federal Financial Management Improvement Act of 1996
                                           USAID
                          October 1, 2012–March 31, 2013

Section 5(a)(13) of the Inspector General Act requires semiannual reports to include an
update on issues outstanding under a remediation plan required by the Federal Financial
Management Improvement Act of 1996 (FFMIA), (Public Law 104-208, Title VIII, codified at
31 U.S.C. 3512 note). FFMIA requires agencies to comply substantially with (1) federal
financial management system requirements, (2) federal accounting standards, and (3) the
U.S. Standard General Ledger at the transaction level. An agency that is not substantially
compliant with FFMIA must prepare a remediation plan.

OIG found no instances of substantial noncompliance with requirements for federal
financial management systems, federal accounting standards, or the U.S. Standard General
Ledger at the transaction level as a result of tests required under Section 803(a) of the
Federal Financial Management Improvement Act of 1996 (FFMIA). However, OIG reported
one significant deficiency in the Agency’s annual Federal Information Security Management
Act report, No. A-000-13-003-P, dated November 14, 2012, which we classified as an
instance of substantial noncompliance with FFMIA as required by OMB Bulletin 07-04,
“Audit Requirements for Federal Financial Statements.” Specifically, OIG reported that
(1) USAID has not established an effective risk management program to ensure that policies
and procedures are assessed and working as intended and (2) USAID’s decentralized
management of information technology and information security does not allow the Agency
to implement a process to effectively assess, respond to, and monitor information security
risk across the organization. To address the significant deficiency, USAID has prepared a 3-
year corrective action plan, which is expected to be fully implemented by the end of fiscal
year 2015.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  131
                   Significant Findings From Contract Audit Reports
                                              USAID
                             October 1, 2012–March 31, 2013



The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181, Section
845) requires inspectors general to submit information on contract audit reports26 that
contain significant audit findings in semiannual reports to the Congress.

The act defines “significant audit findings” to include unsupported, questioned, or
disallowed costs in excess of $10 million and other findings that the inspector general
determines to be significant.

During the reporting period, OIG had no significant findings from contract audit reports for
USAID.




26   Includes grants and cooperative agreements.




     USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  132
         Significant Findings and Activities
                                                                      Significant Findings and
         Millennium Challenge Corporation
                                                                      Activities

                                                                       Water and road projects in
The Millennium Challenge Corporation forms partnerships with          Mozambique are not
                                                                      achieving goals because of
some of the world’s poorest countries and provides large-scale        contractors not meeting
grants to them when they demonstrate they are committed to good       deadlines and the need for
                                                                      MCA-M to provide better
governance, economic freedom, and investment in their citizens.       contract oversight. Advance
                                                                      payments to contractors of
These grants fund country-led solutions for reducing poverty          $29.7 million were not used
through sustainable economic growth.                                  in accordance with the
                                                                      contracts.

Economic Growth                                                        OIG cannot determine
                                                                      whether MCC’s resettlement
Audit of the Millennium Challenge Corporation’s Programs in           activities have restored or
                                                                      improved the livelihoods of
Mozambique (Report No. M-000-13-003-P). In July 2007, the             affected people because MCC
                                                                      does not consistently gather
Millennium Challenge Corporation (MCC) awarded a 5-year,              this information. In addition,
$507 million compact to the Government of Mozambique to               OIG cannot verify whether
                                                                      proper compensation
improve the southeastern African country’s economy and the            payments were made in one
                                                                      country visited. MCC does not
standard of living in select provinces in Northern Mozambique. To     have a formal process for
accomplish these goals, the compact included numerous water and       tracking and reporting
                                                                      resettlement data and
road projects. The Millennium Challenge Account in Mozambique         sharing lessons learned.
(MCA-M) is the host-government entity responsible for                  Roads rehabilitation and
implementing each project activity.                                   irrigation projects in Senegal
                                                                      are behind schedule, have
                                                                      significant resettlement
OIG determined that MCC’s water and road projects in Mozambique       issues that could cause more
were not achieving their goals for several reasons. Contractors       delays, and may not be
                                                                      sustainable if the
working on two roads and three water projects did not meet their      Government of Senegal does
                                                                      not act to minimize the risk
contractual deadlines, and MCA-M did not manage the contracts or      of inadequate maintenance
make prompt decisions when contractors missed their deadlines.        funding.

When MCC officials realized that MCA-M had difficulties managing
the infrastructure contracts, they developed an action plan and
tools to help address the administration and oversight of the
contracts. OIG could not determine why MCA-M did not use them.




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  133
In addition, OIG found that $29.7 million in advance payments to contractors were not used
in accordance with the contracts for three road and four water projects. This problem
occurred because MCA-M did not have procedures or controls in place to confirm that
contractors had used the payments appropriately. For example, contractors were not
required to report to MCA-M how they used advance payments, and the contracts did not
explain the activities for which the advance could be used.

OIG also noted that contractors did not complete feasibility studies and designs in a timely
manner, taking almost an extra year. MCA-M caused additional delays by taking several
months to review, revise, and approve the documents once they were received. As a result,
the studies were completed in the third year of the 5-year compact, delaying the
procurements of construction contracts.

Finally, OIG found that the branding of the infrastructure project did not comply with MCC’s
policy. MCC’s logo was not prominent on temporary signs for infrastructure projects, and
MCC’s logo was not placed on wells that the U.S. Government had funded. Without proper
branding, Mozambicans will not realize that the assistance is provided by the American
people.

MCC reached management decisions on all five OIG recommendations and has taken final
action on one.

Audit of the Millennium Challenge Corporation's Resettlement Activities (Report No. M-000-
13-002-P). Many projects funded by MCC involve resettlement—moving people or acquiring
their property to make way for a project. As a result, MCC requires appropriate
compensation to people who lose land, assets, or access to resources because of an MCC-
funded project. The compensation must restore and preferably improve the livelihoods of
those affected by resettlement. MCC estimates that as of June 2012, approximately
$120 million in compact funding was spent on or allocated for resettlement activities in
20 of 24 compact countries.

OIG could not determine whether MCC’s resettlement activities restored or improved the
livelihoods of the affected people because MCC does not always gather this information. For
instance, OIG found multiple problems with resettlement activities associated with an MCC-
funded road construction project in Ghana, where approximately 6,000 people were
involved with resettlement. In contrast, in El Salvador, people affected by resettlement from



  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  134
an MCC-funded road project generally were satisfied and said their livelihoods had been
restored or improved.

MCC officials told OIG they use various methods to determine whether livelihoods have
been restored, including post-resettlement reviews, spot checks, and assessment of formal
complaints, depending on the project. MCC officials said they did not assess livelihood
restoration in Ghana properly, in part because MCC’s oversight was weak and the officials
did not know the extent of the problems until the compact was ending. In fact, because
payments were not clearly documented and available for examination, OIG could not verify
that proper compensation payments had been made and that accurate information had
been reported to MCC. In addition, about 1,300 people had not received full compensation
payments at the time OIG visited, 5 months after the compact ended and, in some cases,
more than 1 year after land or assets were taken. Many people also did not know about the
complaint process, and some said that they had only accepted the compensation offered
because they did not think they had a choice. Although MCC officials said they discuss
resettlement issues when they arise, they do not have a formal process in place for tracking
and reporting resettlement data and sharing lessons learned throughout the organization.
For example, until OIG requested information about worldwide resettlement activities from
MCC, this information had not been readily available.

MCC reached management decisions on all five OIG recommendations.

Audit of the MCC-Funded Program in Senegal (Report No. M-000-13-001-S). In September
2009, MCC signed a 5-year, $540 million compact with the Government of Senegal to reduce
poverty and stimulate economic growth through two major infrastructure projects, the
Roads Rehabilitation Project and the Irrigation and Water Resources Management Project.
The Millennium Challenge Account in Senegal (MCA-Senegal) is the host-government entity
charged with implementing the terms of the compact.

OIG noted some concerns related to the projects. The projects were behind schedule,
primarily because of delays in obtaining acceptable project designs. Because only minimal
construction work had been completed at the time of the audit, OIG based its findings on
work done at MCC headquarters in Washington, D.C.

In addition, OIG noted that the projects will involve extensive resettlement of those persons
affected by the projects. MCA-Senegal had planned to provide land as in-kind compensation.



  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  135
However, the land originally identified was not suitable, and MCA-Senegal is reconsidering
its options. These resettlement activities could cause further delays if they are not
implemented properly.

Finally, these infrastructure projects must be properly maintained once they are completed
if they are to remain sustainable after the compact ends. MCC has required the Government
of Senegal to take actions to minimize the risk of inadequate maintenance funding.
Therefore, the Government of Senegal must plan for long-term maintenance of the
improved roads and irrigation works.

Final action has been reached on OIG’s recommendation.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  136
Management Accountability
                                                                     Significant Findings and
Audit of the Millennium Challenge Corporation’s Fiscal Year 2012     Activities
Compliance With the Federal Information Security Management
                                                                      MCC has implemented 86
Act of 2002 (Report No. M-000-13-001-P). FISMA requires              of 103 selected security
                                                                     controls in support of FISMA.
agencies to develop, document, and implement an Agency-wide          Because not all of these
                                                                     controls are in place, MCC’s
information security program to protect their information and        operations and assets may be
information systems, including those provided or managed by          at risk of misuse and
                                                                     disruption.
another agency, contractor, or other source. OIG found that MCC
                                                                      OIG notes that MCC is
implemented 86 of 103 selected security controls for selected
                                                                     compliant with IPERA and
information systems in support of FISMA. Consequently, MCC’s         applicable guidance.

operations and assets may be at risk of misuse and disruption.        OIG finds no reports of
                                                                     trafficking in persons
OIG made 18 recommendations to assist MCC in strengthening           allegations linked to MCC
                                                                     projects and no observable
its information security program, and management decisions           indications of trafficking
                                                                     during its site visit. However,
were made on all of them.                                            specific guidance is needed
                                                                     on risk management plans
Millennium Challenge Corporation’s Compliance With the               for trafficking in persons
                                                                     activities.
Implementation of the Improper Payments Elimination and
Recovery Act of 2010. OIG’s review determined that MCC is
compliant with IPERA and applicable guidance; nothing came to
OIG’s attention to indicate that the corporation is susceptible to
significant improper payments.

Audit of the Millennium Challenge Corporation’s Monitoring of
Trafficking in Persons in MCC-Funded Programs (Report No. M-
000-13-004-P). The Victims of Trafficking and Violence Protection
Act (Public Law 106-386) was passed in 2000 to combat
trafficking in persons, whose victims—according to the U.S. State
Department—are estimated at 27 million worldwide. To further
combat this trafficking, the White House released Executive
Order 13627 in September 2012, which strengthened
protections against trafficking in persons in federal contracting.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  137
OIG conducted this audit to determine whether the Millennium Challenge Corporation
(MCC) established and implemented procedures to detect and deter this trafficking in
selected compact countries. The audit found that MCC issued an interim amendment in
May 2011 to its program procurement guidelines to help ensure that contractors,
subcontractors, and employees of Millennium Challenge Act entities would not be engaged
in trafficking in persons. In January 2012, MCC further revised its guidelines, requiring that
environment and social assessment and gender experts conduct risk assessments of
trafficking in persons, including child and forced labor, on infrastructure projects. MCC also
issued a document titled “Principles into Practice: Gender Equality and Poverty Reduction
through Growth” in September 2012, which stated that its Social and Gender Assessment
team is responsible for identifying and managing trafficking in persons risks associated
with compact projects.

As of the time of the audit, MCC had not received any reports of trafficking in persons
allegations linked to MCC projects, nor did OIG observe any indications of trafficking during
its site visit to MCC-funded infrastructure projects in Mozambique in June 2012. In addition,
no allegations of trafficking within MCC’s projects had been received by USAID OIG or by the
State Department.

OIG did note that MCC had not issued specific guidance on risk management plans for
trafficking in persons activities and made a recommendation that MCC’s Vice President of
the Department of Compact Operations issue written guidance on when to develop and
implement these plans.

MCC has made a management decision on that recommendation.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  138
Financial Management
                                                                     Significant Findings and
                                                                     Activities
Audit of the Millennium Challenge Corporation’s Financial
Statements, Internal Controls, and Compliance for the Period          OIG issues an unqualified
                                                                     opinion on MCC financial
Ending September 30, 2012, and 2011 (Report No. M-000-13-001-        statements for fiscal years
                                                                     2012 and 2011 but identifies
C). An audit of MCC’s financial statements for fiscal years 2012     one material weakness and
and 2011 was performed by a nonfederal audit firm under OIG          three significant deficiencies.

oversight. The firm expressed an unqualified opinion on the           OIG notes errors
                                                                     discovered with MCC’s
financial statements but identified one issue that was considered    financial management
a material weakness and three other issues that were considered      system and problems with
                                                                     MCC’s validation controls
significant deficiencies.                                            over grant accruals and
                                                                     monitoring controls over
The material weakness related to MCC’s overall financial             funds.

management system. MCC’s financial statement preparation
process continues to be susceptible to errors even though certain
functionalities have been automated. Two significant deficiencies
were related to MCC’s validation controls over grant accruals and
MCC’s monitoring controls over funds. With regard to MCC’s
validation controls, the audit noted many instances of calculation
errors, use of incorrect spending authority, omitted calculations,
and missing documentation. The audit also noted that MCC needs
to continue to strengthen its monitoring controls over the funds
provided to its grantees, as well as strengthen controls over
security management, contingency planning, access controls, and
configuration management.

The audit firm made 22 recommendations to address the material
weakness and significant deficiencies in internal controls.


Fund Accountability Statements

OIG reviews and approves fund accountability statement audits of
compact funds under recipient government management. These
fund accountability statement audits are conducted by




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  139
independent public auditors. Under the terms of MCC compacts, funds expended by a
recipient country must be audited at least annually. The recipient country establishes an
accountable entity, usually an MCA, that produces financial statements documenting
account activity. The audit of a fund accountability statement is conducted by a firm that
OIG has approved.

The selected audit firm issues an opinion on whether the financial statements present fairly,
in all material respects, the program revenues and costs incurred and reimbursed, in
conformity with the terms of a compact agreement and related supplemental agreements for
the period being audited.

In addition, the audit firm is required to employ generally accepted government auditing
standards in performing the audits. All MCA audit reports are reviewed, approved, and
issued by OIG.

During this reporting period, OIG issued 15 fund accountability statement audits, which
included 13 recommendations.




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  140
            Significant Recommendations Described Previously
                               Without Final Action
                                          MCC
                        October 1, 2012–March 31, 2013
                                                                          Final Action
  Report                                    Issue     Rec. Management
                   Subject of Report                                         Target
  Number                                    Date      No. Decision Date
                                                                              Date
M-000-11-008-N   Audit of the Millennium 12/30/10      2     01/03/12       04/13
                 Challenge Corporation
                 (MCC) Resources
                 Managed by Millennium
                 Challenge Account-
                 Morocco (MCA-Morocco)
                 Under the Compact
                 Agreement Between the
                 MCC and the Government
                 of Morocco From
                 January 1, 2009 to
                 June 30, 2009

M-000-11-001-O   The Risk Assessment of    06/01/11    3     09/01/11        06/13
                 the Millennium Challenge
                 Corporation’s Information             4     09/01/11        06/13
                 Technology Governance
                                                       5     09/01/11        06/13
                 Over Its Information
                 Technology Investments                6     09/01/11        06/13

                                                      13     09/01/11       06/13

M-000-11-002-S   Review of the Millennium 06/03/11     3     09/21/11       06/13
                 Challenge Corporation’s
                 Compact With the
                 Government of Mali




USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  141
                                                                           Final Action
  Report                                     Issue     Rec. Management
                   Subject of Report                                          Target
  Number                                     Date      No. Decision Date
                                                                               Date
M-000-12-007-N   Audit of the Fund          02/24/12     1
                 Accountability Statement
                 of the Millennium                       2
                 Challenge Corporation
                 (MCC) Resources
                 Managed by Sea-Freight
                 Pineapple Exporters
                 Ghana (SPEG), a Covered
                 Provider Under the Grant
                 Agreement Dated
                 September 19, 2008,
                 Between the Millennium
                 Development Authority
                 (MiDA) and SPEG for the
                 Period From July 1, 2010
                 to December 31, 2010

M-000-12-001-P   Audit of the Millennium    03/22/12     1     03/22/12       06/13
                 Challenge Corporation’s
                 Funding of Activities in                2     03/22/12       04/13
                 Mongolia
                                                         4     03/22/12       04/13

M-000-12-002-P   Follow-up Audit of the     03/30/12    1–2    03/30/12       06/13
                 Millennium Challenge
                 Corporation’s                           4     03/30/12       06/13
                 Implementation of Key
                                                        7–9    03/30/12       06/13
                 Components of a Privacy
                 Program for Its                       11–16   03/30/12       06/13
                 Information Technology
                 Systems                                20     03/30/12       06/13

                                                        22     03/30/12       06/13

                                                        24     03/30/12       06/13




USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  142
                                                                           Final Action
  Report                                     Issue     Rec. Management
                   Subject of Report                                          Target
  Number                                     Date      No. Decision Date
                                                                               Date
M-000-12-003-S   Review of the Compact      04/10/12    2     04/10/12        04/13
                 Closeout in Nicaragua
                                                        4     04/10/12        04/13

M-000-12-004-S   Review of MCC and          06/05/12    1     06/05/12        06/13
                 Implementing Partner
                 Management Controls,                   2     06/05/12        06/13
                 and Compliance With
                                                        3     06/05/12        06/13
                 Laws and Regulations
                 Related to Drug                        4     06/05/12        06/13
                 Trafficking and Criminal
                 Activities                             5     06/05/12        06/13


M-000-12-004-P   Audit of the Millennium    06/07/12    1     06/07/12        06/13
                 Challenge Corporation’s
                 Implementation of                      2     06/07/12        06/13
                 Selected Security Controls
                                                        3     06/07/12        06/13
                 for Its E-Travel System
                                                        5     06/07/12        06/13

                                                        6     06/07/12        06/13

                                                        8     06/07/12        06/13

                                                        9     06/07/12        06/13

M-000-12-005-P   Audit of the Millennium    06/15/12    1     06/15/12        06/13
                 Challenge Corporation-
                 Funded Fruit Tree                      2     06/15/12        06/13
                 Productivity Project in
                                                        3     06/15/12        06/13
                 Morocco
                                                        4     06/15/12        06/13

                                                        5     06/15/12        06/13

                                                        6     06/15/12        06/13




USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  143
                                                                          Final Action
  Report                                    Issue     Rec. Management
                   Subject of Report                                         Target
  Number                                    Date      No. Decision Date
                                                                              Date
M-000-12-024-N   Audit of the Millennium 08/20/12      1
                 Challenge Corporation
                 (MCC) Resources                       2
                 Managed by Millennium
                                                       3
                 Development Authority
                 (MiDA) Under the Grant
                 Agreement Between MCC
                 and the Government of
                 Ghana from January 1,
                 2011, to June 30, 2011

M-000-12-006-P   Audit of the Millennium   09/18/12    1     09/18/12        04/13
                 Challenge Corporation’s
                 Contract Management
                 Process




USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  144
                       Incidents in Which OIG Was Refused
                            Assistance or Information
                                           MCC
                           October 1, 2012–March 31, 2013



Section 6(b)(2) of the Inspector General Act of 1978 requires an inspector general to report
to the head of the agency whenever requested information or assistance is unreasonably
refused or not provided.

During this reporting period, there were no reports regarding instances in which
information or assistance was unreasonably refused or not provided.




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  145
                                Financial Audits
          Associated Questioned Costs, Unsupported Costs, and
       Value of Recommendations That Funds Be Put to Better Use
                                        MCC
                       October 1, 2012–March 31, 2013
                                                                        Amt. of
  Report           Date of                                                         Type of
                                           Report Title                 Findings
  Number           Report                                                          Findings
                                                                         ($000)
                              Audit of the Millennium Challenge
                              Corporation’s Financial Statements,
                              Internal Controls, and Compliance for
M-000-13-001-C     11/15/12
                              the Period Ending September 30, 2012,
                              and 2011



                              Audit of the Fund Accountability
                              Statement of the Millennium Challenge
                              Corporation (MCC) Recourses Managed
                              By the Millennium Challenge Account
M-000-13-001-N     10/16/12   Namibia (MCA)—Namibia) Under the
                              Compact Agreement Between the MCC
                              and the Government of the Republic of
                              Namibia for the Period July 1, 2011, to
                              December 31, 2011

                              Audit of the Millennium Challenge
                              Corporation (MCC) Resources Managed
                              by Millennium Challenge Account-
M-000-13-002-N     10/26/12   Lesotho (MCA-Lesotho), Under the
                              Compact Agreement Between the MCC
                              and the Government of Lesotho from
                              July 1, 2011, to December 31, 2011

                              Audit of the Millennium Challenge          19,642      QC
                              Corporation (MCC) Resources Managed
                              by Millennium Development Authority
M-000-13-003-N     11/21/12
                              (MiDA) Under the Agricultural Credit
                              Program (ACP) in Ghana from May 1,
                              2008, to September 30, 2011




USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  146
                                                                         Amt. of
  Report           Date of                                                          Type of
                                           Report Title                  Findings
  Number           Report                                                           Findings
                                                                          ($000)
                              Audit of the Millennium Challenge            465        QC
                              Corporation (MCC) Resources Managed
                              by Account-Senegal (MCA-Senegal),
M-000-13-004-N     11/23/12   Under the Compact Agreement Between
                              the MCC and the Government of
                              Senegal From January 1, 2011, to
                              December 31, 2011

                              Audit of the Millennium Challenge
                              Corporation (MCC) Resources Managed
                              by Millennium Challenge Account-
                              Burkina Faso (MCA-Burkina Faso), Under
M-000-13-005-N     12/06/12
                              the Compact Agreement Between the
                              MCC and the Government of Burkina
                              Faso From January 1, 2011, to
                              December 31, 2011

                              Audit of the Millennium Challenge
                              Corporation (MCC) Resources Managed
                              by Millennium Challenge Account-
                              Jordan (MCA-Jordan), Under the
M-000-13-006-N     12/07/12
                              Compact Agreement Between the MCC
                              and the Hashemite Kingdom of Jordan
                              From June 4, 2009, to December 31,
                              2011

                              Audit of the Millennium Challenge
                              Corporation (MCC) Resources Managed
                              by Millennium Challenge Account-
                              Philippines (MCA-Philippines), Under the
M-000-13-007-N     01/08/13
                              Compact Agreement Between the MCC
                              and the Government of the Republic of
                              the Philippines From January 1, 2010, to
                              December 31, 2011




USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  147
                                                                       Amt. of
  Report           Date of                                                        Type of
                                          Report Title                 Findings
  Number           Report                                                         Findings
                                                                        ($000)
                              Fund Accountability Statement (FAS)       1,255       QC
                              and Close-Out Audit of the Millennium     1,255       UN
                              Challenge Corporation (MCC) Resources
                              Managed by the Millennium Challenge
                              Georgia Fund (MCG) Under the Compact
M-000-13-008-N     01/08/13
                              Agreement Between the MCC and the
                              Government of Georgia for the Period
                              from January 1, 2011, to April 7, 2011
                              (FAS) and April 8, 2011, to August 4,
                              2011 (Close-out)

                              Audit of the Millennium Challenge
                              Corporation (MCC) Resources Managed
                              by Millennium Challenge Account-
M-000-13-009-N     01/15/13   Morocco (MCA-Morocco), Under the
                              Compact Agreement Between the MCC
                              and the Government of Morocco From
                              July 1, 2011, to December 31, 2011

                              Audit of the Millennium Challenge
                              Corporation (MCC) Resources Managed
                              by Millennium Challenge Account-
M-000-13-010-N     01/25/13   Tanzania (MCA-Tanzania), Under the
                              Compact Agreement Between the MCC
                              and the Government of Tanzania From
                              January 1, 2011, to December 31, 2011

                              Audit of the Millennium Challenge
                              Corporation (MCC) Resources Managed
                              by Millennium Challenge Account-Mali
M-000-13-011-N     02/21/13   (MCA-Mali), Under the Compact
                              Agreement Between the MCC and the
                              Government of Mali From January 1,
                              2012, to June 30, 2012




USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  148
                                                                       Amt. of
   Report          Date of                                                        Type of
                                          Report Title                 Findings
   Number          Report                                                         Findings
                                                                        ($000)
                              Audit of the Millennium Challenge
                              Corporation (MCC) Resources Managed
                              by Millennium Challenge Account-
                              Moldova (MCA-Moldova), Under the
M-000-13-012-N     02/25/13
                              Compact Agreement Between MCC and
                              the Government of the Republic of
                              Moldova From January 1, 2012, to
                              June 30, 2012

                              Audit of the Millennium Challenge
                              Corporation (MCC) Resources Managed
                              by Millennium Challenge Account-
                              Mozambique (MCA-Mozambique),
M-000-13-013-N     02/25/13
                              Under the Compact Agreement Between
                              the MCC and the Government of
                              Mozambique From January 1, 2011, to
                              December 31, 2011

                              Audit of the Millennium Challenge
                              Corporation (MCC) Resources Managed
                              by Sea Freight Pineapple Exporters
                              Ghana (SPEG), a Covered Provider Under
M-000-13-014-N     02/26/13
                              the Grant Agreement Between the
                              Millennium Development Authority
                              (MiDA) and SPEG From July 1, 2011, to
                              April 30, 2012

                              Audit of the Millennium Challenge
                              Corporation (MCC) Resources Managed
                              by Millennium Challenge Account-EL
                              Salvador (Fomilenio), Under the
M-000-13-015-N     02/27/13
                              Compact Agreement Between the MCC
                              and the Government of EL Salvador
                              From January 1, 2011, to December 31,
                              2011




USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  149
                              Performance Audits
           Associated Questioned Costs, Unsupported Costs, and
        Value of Recommendations That Funds Be Put to Better Use
                                         MCC
                       October 1, 2012–March 31, 2013
                                                                  Amt. of
 Report            Date of                                                   Type of
 Number            Report               Report Title              Findings
                                                                             Findings
                                                                   ($000)
                              Audit of the Millennium Challenge
                              Corporation’s Fiscal Year 2012
M-000-13-001-P     11/06/12   Compliance With the Federal
                              Information Security Management
                              Act of 2002

                              Audit of the MCC-Funded Program
M-000-13-001-S     03/18/13
                              in Senegal

                              Audit of the Millennium Challenge
M-000-13-002-P     12/06/12   Corporation’s Resettlement
                              Activities

                              Audit of the Millennium Challenge
M-000-13-003-P     01/31/13   Corporation's Programs in
                              Mozambique

                              Audit of the Millennium Challenge
                              Corporation’s Monitoring of
M-000-13-004-P     02/12/13
                              Trafficking in Persons in MCC-
                              Funded Programs




USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  150
                                 Miscellaneous Reports
             Associated Questioned Costs, Unsupported Costs, and
          Value of Recommendations That Funds Be Put to Better Use
                                            MCC
                           October 1, 2012–March 31, 2013


No miscellaneous reports were issued during this reporting period.




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  151
                        Reports With Questioned and Unsupported Costs
                                                           MCC
                                     October 1, 2012–March 31, 2013

                                                       Number
                                                                     Questioned                   Unsupported
                                                         of
                     Reports                                           Costs                         Costs
                                                        Audit
                                                                        ($)                           ($)
                                                       Reports
 A. For which no management decision had                   6           2,371,780                       332,689
    been made as of October 2, 2012

 B. Add: Reports issued October 1, 2012–                   3          21,361,855
                                                                                                     1,254,625
    March 31, 2013
                                                           9         23,733,635                     1,587,314
Subtotal

 C. Less: Reports with a management decision               5*             247,173                        82,754
    made October 1, 2012–March 31, 2013

              Value of recommendations
                                                                                 0                             0
              disallowed by agency officials

              Value of recommendations                                                                   82,754
                                                                          247,173
              allowed by agency officials

 D. For which no management decision had                   3          21,361,855
                                                                                                     1,254,625
    been made as of March 31, 2013

*Unlikethe monetary figures in this row, this figure is not subtracted from the subtotal. Some audit reports counted here may
be counted again in the figure below it because some reports have multiple recommendations and fall into both categories.




          USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  152
     Reports With Recommendations That Funds Be Put to Better Use
                                         MCC
                        October 1, 2012–March 31, 2013



During the reporting period, no reports were issued with recommendations that funds be
put to better use.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  153
         Reports Over 6 Months Old With No Management Decision
                                             MCC
                           October 1, 2012–March 31, 2013
   Report                    Issue
                 Auditee                                          Status
   Number                    Date
                                       Audit of the MCC Resources Managed By Sea–Freight Pineapple
                                       Exporters Ghana (SPEG)–A Covered Provider under the Grant
                                       Agreement Between the Millennium Development Authority
                                       (MiDA) and SPEG From July 1, 2010, to December 31, 2010
                  MiDA–
M–000–12–007–N              02/24/12 MCC is in the process of issuing final action documentation on
                  Ghana
                                     recommendations 1 and 2 from the above audit. Notification to
                                     OIG is pending the collection of source documents from the
                                     MCA. MCC expects to notify OIG of its management decision and
                                     final action by April 30, 2013.

                                       Audit of the Millennium Challenge Corporation (MCC)
                                       Resources Managed by Millennium Development Authority
                                       (MiDA) Under the Grant Agreement Between MCC and the
                                       Government of Ghana From January 1, 2011, to June 30, 2011
                  MiDA-
M-000-12-024-N              08/20/12
                  Ghana                MCC is in the process of issuing final action documentation on
                                       recommendations 1, 2, and 3 from the above audit. Notification
                                       to OIG is pending the collection of source documents from the
                                       MCA. MCC expects to notify OIG of its management decision and
                                       final action by April 30, 2013.




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  154
                Significant Revisions of Management Decisions
                                           MCC
                         October 1, 2012–March 31, 2013



Section 5(a)(11) of the Inspector General Act of 1978 requires semiannual reports
to include a description and explanation of the reasons for any significant revised
management decision made during the reporting period. During the reporting
period, MCC did not make any significant revisions of previous management
decisions.



             Significant Management Decisions With Which the
                         Inspector General Disagrees
                                          MCC
                         October 1, 2012–March 31, 2013



Section 5(a)(12) of the Inspector General Act of 1978 requires semiannual reports to
include information concerning any significant management decisions with which the
inspector general disagrees. During this reporting period, there were no instances where
the Inspector General disagreed with a significant management decision.




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  155
               Significant Findings From Contract Audit Reports
                                           MCC
                          October 1, 2012–March 31, 2013


                                                                       Amt. of
      Report            Date of                                                   Type of
                                             Report Title              Findings
      Number            Report                                                    Funding
                                                                        ($000)
   M-000-13-003-N       11/21/12   Audit of the Millennium Challenge    19,642     Grant
                                   Corporation (MCC) Resources
                                   Managed by Millennium
                                   Development Authority (MiDA)
                                   Under the Agricultural Credit
                                   Program (ACP) in Ghana From
                                   May 1, 2008, to September 30,
                                   2011




The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181,
Section 842) requires inspectors general to submit information on contract audit reports
that contain significant audit findings in semiannual reports to Congress. The act defines
“significant audit findings” to include unsupported, questioned, or disallowed costs in
excess of $10 million and other findings that inspectors general determine to be significant.

During the reporting period, OIG had one significant finding from a MCC contract audit
report. Under the Agricultural Credit Program (APC) Ghana, OIG recommended that MCC
take further action to recover $19,642,194 in ineligible questioned costs disbursed under
the Compact’s Agricultural Credit Program. The auditors reported that MiDA failed to detect
in a timely manner several breaches and weaknesses in program implementation. In
addition, MiDA failed to procure the services of an ACP consultant in a timely manner. Thus,
disbursements of loans were done without the input, recommendation, and advice of the
consultant, leading to the wrong assessment of the Participation Financial Institution (PFI),
overdisbursements, and subsequently, defaults on loans by the PFIs. Furthermore, The ACP
Unit of the Bank of Ghana lacked the capacity to implement the program.




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  156
                               Significant Findings
                 United States African Development Foundation

The United States African Development Foundation provides grants of up to $250,000 to
local community groups and enterprises that benefit underserved and marginalized groups
in Africa. The Foundation measures grant success in terms of jobs, increased income levels,
and improved social conditions.

Audit of the United States African Development Foundation’s Financial Statements for Fiscal
Years 2012 and 2011 (Report No. 0-ADF-13-003-C). A nonfederal audit firm under OIG’s
oversight performed an audit of the United States African Development Foundation’s
(USADF) financial statements for the fiscal year that ended September 30, 2012. The audit
firm issued an unqualified opinion on USADF’s financial statements. In addition, the audit
firm found the following: (1) no material weakness or significant deficiency in internal
controls over financial reporting, (2) no instances of noncompliance with selected provisions
of applicable laws and regulations, and (3) no instances of substantial noncompliance with
federal financial management system requirements. The audit disclosed no instances in
which the audit firm did not comply, in all material respects, with applicable standards.
Therefore, no recommendations were made.

Audit of the United States African Development Foundation’s Compliance with the Federal
Information Security Management Act of 2002—Fiscal Year 2012 (Report No. A-ADF-13-002-P).
FISMA requires agencies to develop, document, and implement an agencywide information
security program to protect their information and information systems, including those
provided or managed by another agency, contractor, or other source. Because USADF is a
federal agency, it is required to comply with federal information security requirements.

OIG found that USADF had generally implemented security controls over its information
systems in support of FISMA, but OIG identified several areas where USADF’s information
security program could be improved. OIG made nine recommendations to assist USADF in
strengthening its information security program. USADF agreed with and made management
decisions on all nine recommendations, and took final action on four.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  157
                             Significant Recommendations
                    Described Previously Without Final Action
                                           USADF
                           October 1, 2012–March 31, 2013
                                                                                  Final Action
     Report                                     Issue     Rec. Management
                      Subject of Report                                              Target
     Number                                     Date      No. Decision Date
                                                                                      Date
                    Followup Audit of the
                    Awarding and Monitoring
  7–ADF–08–006–P                               06/12/08     16      06/12/08        12/31/13
                    of Grants by the African
                    Development Foundation


                    Audit of the African                    1       09/17/08*       12/31/13
                    Development                             7       09/17/08*       12/31/13
  7–ADF–08–007–P                               09/17/08
                    Foundation/Ghana                        14      09/17/08**      12/31/13
                    Project Activities                     17.4      09/26/08       12/31/13



                                                           *Revised management decision 6/30/2011
                                                          **Revised management decision 5/03/2011




       Incidents in Which OIG Was Refused Assistance or Information
                                           USADF
                           October 1, 2012–March 31, 2013


Section 6(b)(2) of the Inspector General Act of 1978 requires an inspector general to report
to the head of the agency whenever requested information or assistance is unreasonably
refused or not provided.

During this reporting period, there were no reports regarding instances in which
information or assistance was unreasonably refused or not provided.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  158
                                Financial Audits
         Associated Questioned Costs, Unsupported Costs, and
      Value of Recommendations That Funds Be Put to Better Use
                                     USADF
                     October 1, 2012–March 31, 2013
                                                                    Amt. of
  Report          Date of                                                      Type of
                                         Report Title               Findings
  Number          Report                                                       Findings
                                                                     ($000)
                              Programs and Operations
                               Audit of the African Development
0-ADF-13-003-C    11/15/12     Foundation's Financial Statements
                               for Fiscal Years 2012 and 2011




                              Performance Audits
         Associated Questioned Costs, Unsupported Costs, and
      Value of Recommendations That Funds Be Put to Better Use
                                      USADF
                     October 1, 2012–March 31, 2013
                                                                    Amt. of
  Report          Date of                                                      Type of
                                         Report Title               Findings
  Number          Report                                                       Findings
                                                                     ($000)
                               Economy and Efficiency
                               Audit of the United States African
                               Development Foundation's
A-ADF-13-002-P   11/15/2012    Compliance With the Federal
                               Information Security Management
                               Act of 2002—Fiscal Year 2012




USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  159
                                Miscellaneous Reports
            Associated Questioned Costs, Unsupported Costs, and
         Value of Recommendations That Funds Be Put to Better Use
                                          USADF
                          October 1, 2012–March 31, 2013


During the reporting period, no miscellaneous reports were issued with associated
questioned costs, unsupported costs, or recommendations that funds be put to better use.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  160
                   Reports With Questioned and Unsupported Costs
                                         USADF
                          October 1, 2012–March 31, 2013


During the reporting period, no reports were issued with questioned or unsupported costs.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  161
     Reports With Recommendations That Funds Be Put to Better Use
                                         USADF
                              October 1, 2012–March 31, 2013

During the reporting period, no reports were issued with recommendations that
funds be put to better use.



          Reports Over 6 Months Old With No Management Decision
                                         USADF
                              October 1, 2012–March 31, 2013


During the reporting period, there were no reports more than 6 months old without a
management decision.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  162
                 Significant Revisions of Management Decisions
                                              USADF
                           October 1, 2012–March 31, 2013

Section 5(a) (11) of the Inspector General Act requires a description and explanation of the
reasons for any significant revised management decision during the reporting period.

During this reporting period, USADF did not make any significant revisions of
management decisions.



                         Significant Management Decisions
                     With Which the Inspector General Disagrees
                                          USADF
                          October 1, 2012–March 31, 2013

The Inspector General Act of 1978, as amended, requires semiannual reports to include
information concerning any significant management decisions with which the inspector
general disagrees.

During this reporting period, there were no instances in which the Inspector
General disagreed with a significant management decision.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  163
                                   Significant Findings From
                                     Contract Audit Reports
                                               USADF
                              October 1, 2012–March 31, 2013


The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181, Section
845) requires inspectors general to submit information on contract27 audit reports that
contain significant audit findings in semiannual reports to the Congress.

The act defines “significant audit findings” to include unsupported, questioned, or
disallowed costs in excess of $10 million and other findings that an inspector
general determines to be significant.

USADF had no significant findings from contract audit reports.




27   Includes grants and cooperative agreements.




     USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  164
                                 Significant Findings
                             Inter–American Foundation

The Inter-American Foundation is an independent U.S. Government agency created to
provide development assistance in Latin America and the Caribbean. IAF provides grant
support for the most creative ideas for self-help received from grassroots groups and NGOs,
while encouraging partnerships among community organizations and business and local
governments that are working to improve the quality of life for poor people and strengthen
democratic practices.

Audit of the Inter-American Foundation’s Compliance With the Federal Information Security
Management Act of 2002 for Fiscal Year 2012 (Report No. A-IAF-13-001-P). FISMA requires
agencies to develop, document, and implement an agencywide information security
program to protect their information and information systems, including those provided or
managed by another agency, contractor, or other source. Because the IAF is a federal
agency, it is required to comply with federal information security requirements.

OIG concluded that IAF had implemented selected security controls for selected information
systems in support of FISMA. However, areas for improvement were identified in IAF’s
information security program. OIG made 11 recommendations to assist IAF in
strengthening its information security program. IAF agreed with and made management
decisions on all 11 recommendations and took final action on four.

Audit of the United States Inter-American Foundation’s Financial Statements for Fiscal Years
2012 and 2011 (Report No. 0-IAF-13-003-C). A nonfederal audit firm under OIG’s oversight
performed an audit of the IAF’s financial statements for the fiscal year that ended
September 30, 2012. The audit firm issued an unqualified opinion on IAF’s financial
statements. In addition, the audit firm found the following: (1) no material weakness or
significant deficiency in the internal controls over financial reporting and (2) no instances
of noncompliance with selected provisions of applicable laws and regulations. The audit
disclosed no instances in which the audit firm did not comply, in all material respects, with
applicable standards. Therefore, no recommendations were made.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  165
               Significant Recommendations Described Previously
                                   Without Final Action
                                            IAF
                           October 1, 2012–March 31, 2013


During the reporting period, there were no significant recommendations described
previously without final action.



                                    Incidents in Which
                    OIG Was Refused Assistance or Information
                                              IAF
                           October 1, 2012–March 31, 2013
Section 6(b)(2) of the Inspector General Act of 1978 requires an inspector general to report
to the head of the agency whenever requested information or assistance is unreasonably
refused or not provided.

During this reporting period, there were no reports regarding instances in which
information or assistance was unreasonably refused or not provided.




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  166
                                Financial Audits
          Associated Questioned Costs, Unsupported Costs, and
       Value of Recommendations That Funds Be Put to Better Use
                                         IAF
                       October 1, 2012–March 31, 2013

                                                                   Amt. of
  Report          Date of                                                     Type of
                                        Report Title               Findings
  Number          Report                                                      Findings
                                                                    ($000)
                              Programs and Operations
                                  Audit of the Inter-American
0-IAF-13-003-C    11/15/12     Foundation's Financial Statements
                                 for Fiscal Years 2012 and 2011




                              Performance Audits
          Associated Questioned Costs, Unsupported Costs, and
       Value of Recommendations That Funds Be Put to Better Use
                                         IAF
                       October 1, 2012–March 31, 2013

                                                                   Amt. of
  Report          Date of                                                     Type of
                                        Report Title               Findings
  Number          Report                                                      Findings
                                                                    ($000)
                               Economy and Efficiency
                              Audit of the Inter-American
                              Foundation's Compliance With the
A-IAF-13-001-P    11/15/12    Federal Information Security
                              Management Act of 2002 for Fiscal
                              Year 2012




USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  167
                              Miscellaneous Reports
          Associated Questioned Costs, Unsupported Costs, and
       Value of Recommendations That Funds Be Put to Better Use
                                          IAF
                        October 1, 2012–March 31, 2013

During the reporting period, no miscellaneous reports were issued with associated
questioned costs, unsupported costs, or recommendations that funds be put to better use.




 USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  168
               Reports With Questioned and Unsupported Costs
                                           IAF
                        October 1, 2012–March 31, 2013


During the reporting period, no reports were issued with questioned or unsupported costs.




     Reports With Recommendations That Funds Be Put to Better Use
                                          IAF
                        October 1, 2012–March 31, 2013

During the reporting period, no reports were issued with recommendations that funds be
put to better use.



         Reports Over 6 Months Old With No Management Decision
                                        IAF
                        October 1, 2012–March 31, 2013

During the reporting period, there were no reports more than 6 months old without a
management decision.




   USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  169
                Significant Revisions of Management Decisions
                                       IAF
                        October 1, 2012–March 31, 2013



Section 5(a) (11) of the Inspector General Act requires a description and explanation of the
reasons for any significant revised management decisions during the reporting period.
During the reporting period, there were no significant revisions of management decisions.




                         Significant Management Decisions
                     With Which the Inspector General Disagrees
                                            IAF
                         October 1, 2012–March 31, 2013

The Inspector General Act of 1978, as amended, requires semiannual reports to include
information concerning any significant management decisions with which the inspector
general disagrees.

During this reporting period, there were no instances in which Inspector General disagreed
with a significant management decision.




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  170
                   Significant Findings From Contract Audit Reports
                                                   IAF
                              October 1, 2012–March 31, 2013


The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181, Section
845) requires inspectors general to submit information on contract28 audit reports that
contain significant audit findings in semiannual reports to the Congress.

The act defines significant audit findings to include unsupported, questioned, or disallowed
costs in excess of $10 million and other findings that the inspector general determines to be
significant.

IAF had no significant findings from contract audit reports.




28
     Includes grants and cooperative agreements.



      USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  171
                                      Peer Reviews
                              USAID, MCC, USADF, and IAF
                             October 1, 2012–March 31, 2013



The Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law 111-203)
requires federal inspectors general to report on results of peer reviews in their semiannual
reports.

Results of peer reviews conducted on USAID OIG during the reporting period:

Audit: None

Investigations: No peer reviews were conducted during this period.

Date of the last peer review conducted on USAID OIG:

Audit: September 2012

Investigations: April 2011

Outstanding recommendations for any peer review conducted on USAID OIG that have not
been fully implemented:

Audit: None

Investigations: None

Peer reviews conducted by USAID OIG during the reporting period and any outstanding
recommendations from any previous peer review:

Audit: None

Investigations: None




  USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  172
                                Abbreviations


           BU             funds recommended to be put to better use

           DCAA           Defense Contract Audit Agency

           FISMA          Federal Information Security Management Act of 2002

           IAF            Inter-American Foundation

           IPERA          Improper Payments Elimination and Recovery Act

           MCA            Millennium Challenge Account

           MCC            Millennium Challenge Corporation

           NGO            nongovernmental organization

           OIG            Office of Inspector General

           OMB            Office of Management and Budget

           QC             questioned costs

           UN             unsupported costs

           USADF          United States African Development Foundation

           USAID          United States Agency for International Development




USAID OIG Semiannual Report to the Congress: October 1, 2012–March 31, 2013  173
United States Agency for International Development
            Office of Inspector General
             1300 Pennsylvania Avenue, NW
                      Room 6.6D
                Washington, D.C. 20523
